<html>
<title> - H.R. 3223, KEEP OUR WATERFRONTS WORKING ACT OF 2007; H.R. 5451, COASTAL ZONE REAUTHORIZATION ACT OF 2008; H.R. 5452, COASTAL STATE RENEWABLE ENERGY PROMOTION ACT OF 2008; AND H.R. 5453, COASTAL STATE CLIMATE CHANGE PLANNING ACT OF 2008.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   H.R. 3223, KEEP OUR WATERFRONTS WORKING ACT OF 2007; H.R. 5451, 
 COASTAL ZONE REAUTHORIZATION ACT OF 2008; H.R.  5452, COASTAL STATE 
RENEWABLE ENERGY PROMOTION ACT OF 2008; AND H.R.  5453, COASTAL STATE 
                 CLIMATE CHANGE PLANNING ACT OF 2008.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, February 28, 2008

                               __________

                           Serial No. 110-61

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-957 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                






















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, February 28, 2008......................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     3
        Prepared statement of....................................     4
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California,.............................................     6
        PPrepared statement of...................................     7

Statement of Witnesses:
    Allen, Hon. Thomas H., a Representative in Congress from the 
      State of Maine.............................................     8
        Prepared statement of....................................     9
    Bailey, Robert, State of Oregon's Representative to the 
      Coastal States Organization, and Manager, Oregon Department 
      of Land Conservation & Development.........................    18
        Prepared statement of....................................    20
    Connors, Jim, Senior Planner, Maine State Planning Office, 
      Maine Working Waterfront Coalition.........................    54
        Prepared statement of....................................    56
    Dunnigan, John H., Assistant Administrator, National Ocean 
      Service, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce, Prepared statement of.........    13
    Elefant, Carolyn, Legislative and Regulatory Counsel, Ocean 
      Renewable Energy Coalition.................................    60
        Prepared statement of....................................    61
    Kennedy, David, Director, Office of Ocean and Coastal 
      Resource Management, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce, Oral statement 
      of.........................................................    11
    Kooser, Jaime C., Ph.D., President, National Estuarine 
      Research Reserves Association..............................    24
    Lujan, Evangeline, Director, Guam Coastal Management Program 
      Administrator, All-Island Group............................    26
        Prepared statement of....................................    27
    Stokes, Robert, Chairman of the Board, Restore America's 
      Estuaries..................................................    48
        Prepared statement of....................................    50

Additional materials supplied:
    Blum, Frank, Executive Director, South Carolina Seafood 
      Alliance, Letter submitted for the record..................    69
    Cowperthwaite, Hugh, Fisheries Project Director, Coastal 
      Enterprises Inc., Letter submitted for the record..........    70
    De Luca, Michael P., on behalf of the National Estuarine 
      Research Reserve Association, Statement submitted for the 
      record.....................................................    71
    Hale, Lynne, on behalf of The Nature Conservancy, Statement 
      submitted for the record...................................    80
    Lydecker, Ryck, Assistant Vice President for Government 
      Affairs, Boat Owners Association of The United States......     5
    Lyons, Hon. Burley L., Mayor, Town of Edisto Beach, South 
      Carolina, Letter to Congressman James E. Clyburn submitted 
      for the record.............................................    84
    Stedman, Bruce J., Executive Director, Marine Fish 
      Conservation Network, Letter submitted for the record......    86


 LEGISLATIVE HEARING ON H.R. 3223, KEEP OUR WATERFRONTS WORKING ACT OF 
 2007; H.R. 5451, COASTAL ZONE REAUTHORIZATION ACT OF 2008; H.R. 5452, 
 COASTAL STATE RENEWABLE ENERGY PROMOTION ACT OF 2008; AND H.R. 5453, 
           COASTAL STATE CLIMATE CHANGE PLANNING ACT OF 2008.

                              ----------                              


                      Thursday, February 28, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m. in 
Room 1334, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Capps, Gilchrest, 
and Wittman.

        STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A 
  DELEGATE<plus-minus> IN CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. The Subcommittee on Fisheries, Wildlife and 
Oceans will now come to order.
    The Subcommittee is meeting today to hear testimony on four 
bills that amend or reauthorize the Coastal Zone Management 
Act--H.R. 3223, the Keep Our Waterfronts Working Act of 2007; 
H.R. 5451, the Coastal Zone Reauthorization Act of 2008; H.R. 
5452, the Coastal State Renewable Energy Promotion Act of 2008; 
and H.R. 5453, the Coastal State Climate Change Planning Act of 
2008.
    Pursuant to Committee Rule 4[g], the Chairwoman and the 
Ranking Minority Member will make opening statements. And if 
any other members have statements, I invite you to submit them 
for the record.
    The Subcommittee meets this morning to hear testimony 
regarding legislation to reauthorize and amend the Coastal Zone 
Management Act. This hearing represents the Subcommittee's 
first step under my leadership toward reauthorizing this 
important marine conservation law, which was first enacted in 
Congress in 1972.
    Some people may question why, at this relatively late date 
in the Congressional calendar, that this Subcommittee has 
decided to take up reauthorization of the CZMA. Well, my answer 
is simple. Pick up the newspaper. Only last week the press 
reported the future withdrawal of coastal property insurance in 
Florida, because the risk exposure to tropical storms has grown 
far too expensive.
    Also an article in Tuesday's Los Angeles Times reported 
that coastal homes in Louisiana and Mississippi may need to be 
rebuilt 20 feet off the ground to meet new FEMA flood insurance 
standards.
    In addition, the United Nations this week reported that 
climate change, along with over-fishing and increased 
pollution, are crippling our coastal regions; and that sea 
level rise threatens the shores, and even the existence of some 
islands in the Pacific Ocean.
    Clearly from these accounts, it is no waste of time for 
this committee to take up the CZMA. If anything, considering 
the fact that the Congress last reauthorized the Act in 1996, 
we have been neglectful in our oversight to determine if the 
Act remains relevant to the coastal challenges that we face 
today.
    In that respect I commend my colleagues, Congresswoman Lois 
Capps of California, Congressman Tom Allen of Maine, for 
introducing their bills, H.R. 5452, H.R. 5453, and H.R. 3223, 
respectively, that would address coastal climate change 
adaptations, encourage sensible development of renewable ocean 
energy, and preserve working waterfronts and water-dependent 
commercial uses.
    I must say, however, that I am disappointed with the 
testimony provided by the Administration. It is one thing to be 
critical of legislation. It is another thing altogether to be 
critical of legislation without offering any new constructive 
ideas.
    But I am forever an optimist. Time does remain for this 
Administration to redeem itself. And to that end, I hope that 
we are able to work collaboratively, along with the 
Subcommittee's Ranking Member, my good friend, Congressman 
Henry Brown of South Carolina, and other members of this 
Subcommittee to see what we might accomplish when we work 
together to reauthorize the Coastal Zone Management Act.
    The Chairwoman now recognizes Mr. Brown, the Ranking 
Republican Member of this committee, for any statement that he 
may have.
    Mr. Brown.
    [The prepared statement of Chairwoman Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    The Subcommittee on Fisheries, Wildlife and Oceans meets this 
morning to hear testimony regarding legislation to reauthorize or amend 
the Coastal Zone Management Act (CZMA). This hearing represents the 
Subcommittee's first step under my leadership toward reauthorizing this 
important marine conservation law, which was first enacted by Congress 
in 1972.
    Some people may question why, at this relatively late date in the 
congressional calendar, this subcommittee has decided to take up 
reauthorization of the CZMA. My answer is simple: pick up the 
newspaper.
    Only last week the press reported the future withdrawal of coastal 
property insurance in Florida because the risk exposure to tropical 
storms has grown too expensive. Also, an article in Tuesday's Los 
Angeles Times reported that coastal homes in Louisiana and Mississippi 
may need to be rebuilt 20-feet off the ground to meet new Federal 
Emergency Management Agency (FEMA) flood insurance standards.
    In addition, the United Nations (UN) this week reported that 
climate change, along with overfishing and increased pollution, are 
crippling our coastal regions, and that sea level rise threatens the 
shores and even the existence of some islands in the Pacific Ocean.
    Clearly, from these accounts it is no waste of time for this 
committee to take up the CZMA. If anything, considering the fact that 
the Congress last reauthorized the Act in 1996, we have been neglectful 
in our oversight to determine if the Act remains relevant to the 
coastal challenges we face today.
    In that respect, I commend my colleagues, Congresswoman Lois Capps 
of California and Congressman Tom Allen of Maine, for introducing their 
bills, H.R. 5452, H.R. 5453 and H.R. 3223, respectively, that would 
address coastal climate change adaptation, encourage sensible 
development of renewable ocean energy, and preserve working waterfronts 
and water-dependent commercial uses.
    I must say, however, that I am disappointed with the testimony 
provided by the Administration. It is one thing to be critical of 
legislation; it is another thing altogether, to be critical of 
legislation without offering any new constructive ideas. But I am 
forever an optimist. Time does remain for this Administration to redeem 
itself. To that end, I hope that we are able to work collaboratively 
along with the subcommittee's Ranking Member, my good friend, 
Congressman Henry Brown of South Carolina, and the other members of 
this Subcommittee to see what we might accomplish--when we work 
together--to reauthorize the Coastal Zone Management Act.
                                 ______
                                 

STATEMENT OF THE HON. HENRY E. BROWN, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madame Chairwoman. Today we will hear 
testimony on four bills. And of the four bills before us today, 
I suspect I like your bill the best of the four.
    The Coastal Zone Management Act has not been reauthorized 
since the 105th Congress. Part of the reason for this is that 
Members have tried to attach controversial amendments or 
controversial new programs to the Act.
    I am pleased that you have not done so with your bill. And 
while I may have concerns on the authorization level, I applaud 
you for introducing this legislation as a clean 
reauthorization. I urge you to move the bill as is, and resist 
the temptation to add new programs to this Act.
    Madame Chairwoman, two of these bills, H.R. 5442 and H.R. 
5453, look very familiar. Both of these bills, although in 
slightly different forms, were included in H.R. 2337, the 
Energy Policy Reform and Revitalization Act of 2007. I had 
problems with those provisions then, and I continue to have 
problems with these bills.
    Madame Chairwoman, while I agree with the general theme of 
keeping our working waterfront bill, I am concerned that this 
Federal legislation might be viewed as interfering and meddling 
with local zoning decisions.
    There is no question that those participating in water-
related activities in the coastal zone needs access, and that 
as coastal property values rise, the cost of creating or 
maintaining this access becomes more difficult. We should 
certainly provide Federal assistance to local and state 
authorities for making these important decisions. However, I 
don't think we want the heavy hand of the Federal government to 
be seen as making these decisions for the local and state 
authorities.
    I represent a significant portion of coastal South 
Carolina, and I think we have been able to balance the users' 
needs along the coast. We have a vibrant port in Charleston. We 
have incredible opportunities for recreation and commercial 
fishermen. We have beaches with public access. We have marinas 
for sailors and boaters, and we have homes with beautiful 
coastal views.
    Certainly Federal money for helping decision-makers would 
be welcome, but substituting the judgment of these decision-
makers with Federal mandates or requirements is not the answer.
    I look forward to working with the proponents of this 
legislature to make sure that we are offering a carrot without 
any strings attached.
    Again, I look forward to hearing today's testimony on all 
four of the bills. I look forward to working with the 
Chairwoman on making these bills better, if the Subcommittee 
decides to move them forward.
    Thank you, Madame Chair.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
         Member, Subcommittee on Fisheries, Wildlife and Oceans

    Good morning, Madam Chairwoman, today, we will hear testimony on 
four bills: H.R. 3223 (the Keep Our Waterfronts Working Act of 2007), 
H.R. 5451 (the Coastal Zone Reauthorization Act of 2008), H.R. 5452 
(the Coastal State Renewable Energy Promotion Act of 2008), and H.R. 
5453 (the Coastal State Climate Change Planning Act of 2008). I look 
forward to hearing the testimony from our witnesses on all four of 
these bills.
    Madam Chairwoman, of the four bills before us today, I suspect I 
like your bill the best of the four. The Coastal Zone Management Act 
has not been reauthorized since the 105th Congress. Part of the reason 
for this is that Members have tried to attach controversial amendments 
or controversial new programs to the Act. I am pleased that you have 
not done so with your bill and while I may have concerns about the 
authorization levels, I applaud you for introducing this legislation as 
a clean reauthorization. I urge you to move the bill as is and resist 
the temptation to add new programs to this Act.
    Madam Chairwoman, two of these bills, H.R. 5442 and H.R. 5453 look 
very familiar. Both of these bills, although in slightly different 
forms, were included in H.R. 2337, the Energy Policy Reform and 
Revitalization Act of 2007. I had problems with those provisions then 
and I continue to have concerns with these bills.
    Madam Chairwoman, while I agree with the general theme of the Keep 
Our Working Waterfronts bill, I am concerned that this Federal 
legislation might be viewed as interfering or meddling with local 
zoning decisions.
    There is no question that those participating in water-related 
activities in the coastal zone need access and that as coastal property 
value rise, the cost of creating or maintaining this access becomes 
more difficult. We should certainly provide Federal assistance to local 
and state authorities for making these important decisions; however, I 
don't think we want the heavy hand of the Federal government to be seen 
as making these decisions for the local and state authorities.
    I represent a significant portion of coastal South Carolina and I 
think we have been able to balance the users' needs along the coast. We 
have a vibrant port in Charleston, we have incredible opportunities for 
recreational and commercial fishermen, we have beaches with public 
access, we have marinas for sailors and boaters, and we have homes with 
beautiful coastal views. Certainly Federal money for helping decision 
makers would be welcome, but substituting the judgment of these 
decision makers with Federal mandates or requirements is not the 
answer.
    I look forward to working with the proponents of this legislation 
to make sure that we are offering a carrot without any strings 
attached.
    Again, I look forward to hearing today's testimony on all four of 
the bills and look forward to working with the Chairwoman on making 
these bills better if the Subcommittee decides to move them forward.
                                 ______
                                 
    Ms. Bordallo. I thank the Ranking Member, Mr. Brown, for 
his opening statements.
    And now I ask for unanimous consent to enter into the 
record a statement in support of H.R. 3223, the Keep Our 
Waterfronts Working Act, submitted on behalf of the Boat Owners 
Association of the United States.
    Hearing no objection, so ordered.
    [The letter submitted for the record by the Boat Owners 
Association of The United States follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Bordallo. I would like to recognize a member of our 
Subcommittee who has just arrived, Congresswoman Lois Capps, 
the State of California.

STATEMENT OF LOIS CAPPS, A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Madame Chair. And I am happy to 
submit a statement, which I do have prepared for the record. 
And I just want to thank you for holding this very important 
hearing.
    [The statement submitted for the record by Mrs. Capps 
follows:]

        Statement of The Honorable Lois Capps, a Representative 
                in Congress from the State of California

    Thank you, Chairwoman Bordallo.
    Coastal issues have been in the spotlight over the last several 
years as the nation has paid increased attention to our oceans and 
marine resources:
    <bullet>  We've had two national commissions make recommendations 
for transforming the way we manage, study, and protect our coastal 
areas.
    <bullet>  And just yesterday--the Joint Ocean Commission released 
its annual report card on the nation's progress toward implementing 
these recommendations.
    <bullet>  More than half of all Americans live along our coasts, 
which require a better understanding of how people and our oceans 
interact.
    <bullet>  And the impacts of global warming, coastal development 
and pollution, and energy project siting require new approaches to 
ocean and coastal governance.
    But in light of these challenges, Congress last reauthorized the 
Coastal Zone Management Act--the law that governs important aspects of 
our coastal resources--in 1999, and the current authorization expired 
almost four years ago.
    I'm glad the subcommittee has turned its attention to this 
successful Act and decided to advance these important bills which 
contribute strongly to it.
    First, I want to offer my support for the Coastal Zone 
Reauthorization Act.
    The CZMA is a model for state and federal partnerships.
    It gives coastal states the necessary resources to balance the 
protection of its needs with development, recreation, environmental 
preservation, fishing and other uses of the coastal zone.
    As the committee works to develop a reauthorization measure, I want 
to express my hope that it retain states' rights through federal 
consistency, and continue our strong commitment to the protection, 
enjoyment and responsible management of our coast.
    Another bill under consideration today, the Keep Our Waterfronts 
Working Act, has been advanced due to the hard work of our colleague 
Tom Allen.
    Working waterfronts are areas that provide coastal access to 
support commercial and recreational fishing and a host of other water-
dependent coastal businesses.
    These areas are the cultural and economic heart of coastal 
communities, like Morro Bay in my district.
    Unfortunately, the loss of working waterfront is resulting in 
additional pressure on their fragile economies and coastal access.
    This legislation seeks to remedy that problem by helping coastal 
states plan for the future of these communities by investing in the 
preservation and expansion of working waterfront.
    Finally, I'd like to mention two bills I have introduced that would 
establish new grant programs under the CZMA.
    The purpose of the Coastal State Renewable Energy Promotion Act is 
to encourage coastal states to classify offshore areas for appropriate 
renewable energy, like wave and wind projects.
    This type of advanced planning will expedite state consistency 
certifications for future projects and eliminate conflicts between 
state and federal governments.
    Similarly, the Coastal State Climate Change Planning Act recognizes 
the lead role of the States in coastal planning.
    It would provide them with incentives to prevent, plan, and prepare 
for the impacts of global warming, such as sea level rise, increased 
erosion, and habitat changes.
    In my view, the CZMA is one of the best federal statutes that can 
foster adaptation to global warming at the state and local levels.
    Collectively, these bills take significant steps toward restoring 
sound stewardship to the management of our coastal areas.
    And importantly they are consistent with the recommendations from 
the recently completed NOAA-CSO ``visioning'' process on the future of 
the CZMA.
    In closing, Madam Chairwoman, thank you again for holding this 
hearing on an issue that is so very important to us all.
    I look forward to working with you, coastal states and other 
stakeholders to reauthorize the CZMA and advance these bills to 
strengthen the Act before the 110th Congress adjourns.
                                 ______
                                 
    Ms. Bordallo. I thank the gentlelady from California. Thank 
you again, Mr. Brown, our Ranking Member, for his opening 
statements. And I would now like to recognize our first 
witness, a colleague from the State of Maine, the Hon. 
Congressman Tom Allen.
    Thank you for being here this morning, Congressman. And you 
may begin.

  STATEMENT OF THE HON. THOMAS H. ALLEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Allen. Thank you, Chairwoman Bordallo and Ranking 
Member Brown. I appreciate the opportunity to testify before 
you today on my bill, H.R. 3223, the Keep Our Waterfronts 
Working Act.
    In Maine we have 5300 miles of coastline, but only 20 miles 
remain as working waterfronts. Those 20 miles of working 
waterfronts provide more than $750 million in state revenue 
each year, and support 35,000 jobs. More than half of those 20 
miles, however, are privately held properties, where access is 
restricted, and the permission of the owner is required for 
use.
    Critical rights of waterfront access are often steeped in 
tradition, and not written in the law. These privately held 
access points are extremely vulnerable to sale for non-working 
waterfront-related uses, and this trend really threatens both 
our economy in Maine and in other states, and a coastal way of 
life.
    The situation is very similar around the country's 88,000 
miles of coastline, from Alaska down to California, and from 
Texas around to Maine. Fish houses are being replaced by 
waterfront condominiums, and public wharfs are being replaced 
by private docks.
    Development pressures and rising property values are 
profoundly changing the nature of our coasts and shorelines. 
Working waterfronts provide water access to support both 
commercial and recreational fishing, and a host of other 
support industries, such as ice, bait, and processing. And 
certainly in the State of Maine, those shoreside industries are 
very much threatened by residential development that eats up 
our working waterfront.
    Since colonial times, the fishing industry has been the 
cultural heart of many coastal communities in Maine. But in 
Maine, as in most coastal states, fish stocks and the fisheries 
that depend on them do fluctuate over time.
    For example, right now groundfish is really, the 
groundfishing industry is really in significant trouble, but 
our lobster fishery is healthy. So when an industry, the 
fishing industry struggles, the shoreside infrastructure does, 
as well.
    This is not just the commercial fishermen's issue. Lack of 
waterfront access affects swimmers, casual boaters, beachgoers 
and weekend anglers. One hundred and 22 million people go to 
the beach every year, 95 million take to the water in some kind 
of boat, and 80 million go fishing. All of these users are 
competing for a small and diminishing resource.
    Around the country states are realizing the need to protect 
these valuable assets. Florida, North Carolina, Mississippi, 
and Louisiana, to name a few, have commissioned reports and 
inventories of working waterfronts left in their states. These 
reports have found a decrease in working waterfronts, and 
states are developing approaches to prevent future loss.
    The issue is really poised for national legislation to 
assist states and give them much-needed resources to help them 
out. The Keep Our Waterfronts Working Act would provide 
assistance and resources to the coastal states. The objective 
of this legislation is to preserve access to coastal waters for 
commercial fishing operations and other water-dependent 
coastal-related businesses.
    Congressman Brown, we hope this is not the heavy hand of 
the Federal government; this is a partnership, it is designed 
to be a partnership, and here is how it would work.
    The Act would amend the Coastal Zone Management Act of 1972 
to establish a competitive matching grant program administered 
through the Department of Commerce. Coastal states would apply 
for matching grants to purchase title or development rights to 
working waterfront, which is defined as land that provides 
access to coastal waters for water-dependent commercial 
activities.
    To become eligible for the grant program, a coastal state 
would have to develop a comprehensive working waterfront plan. 
States with an approved plan would become eligible to apply for 
working waterfront matching grants under an expedited funding 
process. And projects funded by the grant program would be 
required to provide for expansion or improvement of public 
access to coastal waters at or in the vicinity of the working 
waterfront, except for those industrial working waterfront 
access points, such as commercial fishing piers, where the 
coastal state determines that public access would be a safety 
hazard.
    The bill also provides for technical assistance to states 
for the development and revision of comprehensive working 
waterfront plans. We are at a critical point here. We have to 
preserve our working waterfronts to protect the economic and 
cultural value they bring to our communities, and pass this 
heritage on to future generations. We have to ensure that our 
coasts retain the special quality that has characterized the 
life along our shores.
    And I hope, as the Subcommittee works on reauthorizing the 
CZMA, that it will consider the need for working waterfront 
legislation.
    I look forward to working with the Subcommittee, and I 
thank you again for the opportunity to testify today.
    [The prepared statement of Mr. Allen follows:]

        Statement of The Honorable Tom Allen, a Representative 
                  in Congress from the State of Maine

    Chairwoman Bordallo and Ranking Member Brown, thank you for the 
opportunity to testify today on my legislation H.R. 3223 the Keep Our 
Waterfronts Working Act.
    There are 5,300 miles of coast line in Maine yet only 20 miles 
remain as working waterfronts. These 20 miles of working waterfront 
provide more than $750 million in state revenue each year and support 
35,000 jobs.
    More than half of these 20 miles are privately held properties 
where access is restricted and owner permission is required for use. 
Critical rights of waterfront access are often steeped in tradition, 
not written into law. These privately held access points are extremely 
vulnerable to sale for non-working waterfront related uses which 
threatening both the economy and a way of life.
    This situation is echoed around the country's 88,000 miles of coast 
line from Alaska down to California and Texas around to Maine. Fish 
houses are being replaced by waterfront condominiums, and public wharfs 
are being replaced by private docks.
    Development pressures and rising property values are profoundly 
changing the nature of our coasts and shorelines.
    Working waterfronts provide water access to support both commercial 
and recreational fishing and a host of other support industries such as 
ice, bait, and processing.
    More and more coastal land is being developed for private 
residential use, increasing pressure on industrial, recreational, and 
public access infrastructure. Without dock space the whole marine 
industry collapses, including support businesses like diesel mechanics, 
welders, shipbuilding and seafood processing.
    Since colonial times, the fishing industry has been the cultural 
heart of many coastal communities in Maine. But in Maine, as in most 
coastal states, fish stocks and the fisheries that depend on them tend 
to fluctuate.
    For example, our lobster fishery at the moment is healthy but our 
groundfish industry is struggling. When the industry struggles, so does 
the shore side infrastructure. With good management practices, we can 
reasonably hope that the fish stocks will rebound.
    However, the loss of working waterfront will likely be permanent.
    This is not just a commercial fishermen's issue; lack of waterfront 
access impacts swimmers, casual boaters, beachgoers, and weekend 
anglers. 122 million people go to the beach every year, 95 million take 
to the water in some kind of boat, and 80 million go fishing. All these 
users are competing for a small, diminishing resource.
    Around the country, states are realizing the need to protect these 
valuable assets. Florida, North Carolina, Mississippi, and Louisiana, 
to name a few, have commissioned reports and inventories of working 
waterfronts left in their states. These reports have found a decrease 
in working waterfronts, and states are developing approaches to prevent 
future loss.
    The issue is poised for national legislation to assist states and 
give them much needed assistance and resources.
    The Keep Our Waterfronts Working Act would provide assistance and 
resources to Coastal States. The objective of this legislation is to 
preserve access to coastal waters for commercial fishing operations and 
other water-dependent coastal-related businesses.
    The act would amend the Coastal Zone Management Act of 1972 to 
establish a competitive matching grant program administered through the 
Department of Commerce.
    Coastal states would apply for matching grants to purchase title or 
development rights to Working Waterfront, defined as land that provides 
access to coastal waters for water-dependent commercial activities.
    To become eligible for the grant program, a coastal state would 
develop a comprehensive Working Waterfront Plan.
    States with an approved plan would become eligible to apply for 
Working Waterfront matching grants under an expedited funding process.
    Projects funded by the Grant Program would be required to provide 
for expansion or improvement of public access to coastal waters at or 
in the vicinity of the Working Waterfront, except for industrial 
working waterfront access points such as commercial fishing piers where 
the coastal state determines that public access would be a safety 
hazard.
    The bill also provides for technical assistance to States for the 
development and revision of comprehensive Working Waterfront Plans.
    We must preserve access to our working waterfronts, protect the 
economic and cultural value they bring our communities and pass this 
heritage to future generations. We must make sure that our coasts will 
always retain the special quality of life that our working waterfronts 
help to create.
    I hope that as the subcommittee works on reauthorizing the CZMA, 
that it will consider the need for working waterfront legislation. I 
look forward to working with the subcommittee, and I thank you for the 
opportunity to testify today.
                                 ______
                                 
    Ms. Bordallo. I thank you, Congressman Allen, for your 
statement. And it clearly spells out the necessity in 
improving, protecting, and expanding commercial coastal access, 
at a time when access is threatened from private residential 
development and other activities.
    I want to thank you very much for appearing before the 
Subcommittee. I know you have a busy schedule, but you are 
welcome to join us on the dais if you do have the time.
    Mr. Allen. Well, as you said, Madame Chair, I do have a 
very busy schedule. And I will leave it to you to work through 
this.
    But I want to help in any way I can, and my staff is 
available, as well. Thank you very much.
    Ms. Bordallo. I understand. I understand. Thank you for 
your statement.
    And the Chair would now like to recognize the Hon. Wayne 
Gilchrest from the State of Maryland, the former Chairman of 
this Subcommittee on Fisheries, Wildlife, and Oceans.
    Mr. Gilchrest, would you like to make some statements?
    Mr. Gilchrest. Well, Tom Allen has a good piece of 
legislation, so we will see what we can do for the rest of this 
session to work on it, make it a reliable source of access to 
coastal areas by local people needing that reliable access.
    And the Coastal Zone Management Act is up for, I guess, 
reauthorization.
    Ms. Bordallo. That is correct.
    Mr. Gilchrest. We didn't do it the last couple of years. 
But I would like to work with you, Madame Chairman, and the 
other members of the committee, to see that this bill gets not 
only reauthorized, but reenergized, to help protect America's 
coastal areas.
    Thank you.
    Ms. Bordallo. Thank you. I thank my colleague, Mr. Wayne 
Gilchrest, who certainly we will welcome your input. You have 
the experience on this committee.
    I now recognize the second panel of witnesses. Would they 
please step forward and take their seats?
    Our witnesses on this panel include Mr. David Kennedy, 
Director of the Office of Ocean and Coastal Resource 
Management, National Oceanic and Atmospheric Administration; 
Mr. Robert Bailey, Chairman of the Reauthorization Committee at 
the Coastal States Organization; Dr. Jaime Kooser, President of 
the National Estuarine Research Reserves Association; and my 
friend from Guam, Ms. Evangeline Lujan, the Guam Coastal 
Management Program Administrator, and Director of the All-
Island Group.
    I would like to welcome Mr. Kennedy and thank him for 
appearing before the Subcommittee on short notice. 
Unfortunately, NOAA's initial witness, Mr. Jack Dunnigan, 
suffered the loss of his father and has, of course, gone back 
to California to be with his family. And I know everyone on the 
Committee joins me in extending our deepest sympathies to Mr. 
Dunnigan. Our thoughts are with him during this difficult and 
sad time.
    Mr. Kennedy, thank you again for being here. And you may 
now begin your testimony.

   STATEMENT OF DAVID KENNEDY, DIRECTOR, OFFICE OF OCEAN AND 
 COASTAL RESOURCE MANAGEMENT, NATIONAL OCEANIC AND ATMOSPHERIC 
      ADMINISTRATION, UNITED STATES DEPARTMENT OF COMMERCE

    Mr. Kennedy. Thank you, Chairwoman Bordallo and members of 
the committee. As you have mentioned, I am David Kennedy, 
Director, Office of Ocean and Coastal Management within NOAA. 
And our thoughts are all with Jack, and it is certainly not a 
problem at all for me to step in. And hopefully I can represent 
him appropriately here.
    So thank you for the opportunity to testify on the future 
of the Coastal Zone Management Act and the bills before the 
committee today.
    The Coastal Zone Management Act has served as a cornerstone 
for national coastal policy for more than 30 years. When 
enacted in 1972, it was the first attempt to balance multiple 
national interests along the coast.
    The CZMA recognizes and attempts to balance national 
objectives for development and conservation of coastal and 
ocean areas with the interests of the state, in governing near-
shore activities and land use.
    While the CZMA has served as a cornerstone for national 
coastal policy, it has become apparent that the evolving 
challenges we face in coastal management will require changes 
in our approach. We need to anticipate the problems the Nation 
will face in the next 30 years, and promote changes in 
management approaches.
    These approaches should incorporate principles of ecosystem 
and adaptive management, and focus on effective implementation 
at the local level, where most of the decisions that 
cumulatively affect coastal resources occur.
    In addition, we need to create new mechanisms to include 
the public and private sectors to help address the challenges 
we face today.
    So in July of 2006, NOAA and the Coastal States 
Organization embarked on a partnership effort to envision the 
future of coastal and ocean management. The process sought 
input from a variety of stakeholders. Following this process, 
NOAA and CSO developed a set of four cornerstones to consider 
when drafting legislative proposals for the CZMA.
    Using these cornerstones as a foundation, NOAA has begun an 
internal dialogue regarding what concepts to include in a CZMA 
reauthorization proposal. While our internal discussions are 
still in the early stages, I would like to share with you four 
main concepts that we are considering.
    First, clear and focused goals. A reauthorized CZMA should 
continue to address a comprehensive set of issues, and could 
additionally focus on two distinct priorities. Priorities that 
we have in mind, at least at the moment, is sustaining healthy 
coastal ecosystems, one of the major issues that we heard in 
all of our discussions around the country, and increasing 
coastal community resiliency.
    Two, periodic coastal assessments. CZMA requires each 
participating state to develop a program with adequate policies 
to manage coastal resources, but does not require periodic 
assessments of coastal conditions, or updating of state 
programs.
    Periodic assessments of the conditions of natural, social, 
cultural, historical, and economic resources could help direct 
planning and resource management activities at the state, 
regional, and national level.
    Three, outcome-based planning and measurable objectives. 
Today the CZMA requires participating states to have programs, 
but not action-oriented plans and measurable objectives. 
Strategic and targeted plans could be prepared by each state, 
and approved by NOAA, as a requirement for funding. Plans would 
include measurable objectives to help monitor state progress in 
achieving the goals of CZMA. National objectives would be 
established as a foundation for state programs and plans.
    And then finally, coordinated and strategic Federal agency 
involvement. We think this is extremely critical. Currently 
under CZMA, NOAA and other Federal agencies have a limited role 
in coastal management, with no responsibility for substantive 
outcomes. Research and technical assistance at the Federal 
level are not specifically tied to implementation of CZMA.
    In order to supplement the existing Federal role, a 
national-level integrated coastal and ocean management program 
should be created under the Secretary of Commerce. The primary 
objective of the national program would be to serve as the 
coordinator of the delivery of the Federal government's diverse 
expertise, and serve as a conduit for moving research to 
operations through the development of targeted products, 
services, and related technical assistance.
    The Subcommittee has also requested the Administration 
views on three bills, each of which would make separate 
amendments to the CZMA. Comments on each provision are provided 
in our written statement.
    But in general, the Administration does not support an ad 
hoc approach to amending the CZMA, because it contradicts the 
underlying premises of both ocean commissions and the U.S. 
Ocean Plan to pursue an integrated and coordinated approach to 
coastal and ocean management.
    Thank you for the opportunity to appear before you today. 
NOAA looks forward to working with you on reauthorizing this 
important Act, and we will be happy to answer any questions at 
the appropriate time.
    Thanks.
    [The prepared statement of Mr. Dunnigan follows:]

Statement of John H. Dunnigan, Assistant Administrator, National Ocean 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

INTRODUCTION
    Good afternoon, Chairwoman Bordallo and members of the Committee. I 
am John H. Dunnigan, Assistant Administrator for Ocean Services and 
Coastal Zone Management for the National Oceanic and Atmospheric 
Administration (NOAA). Thank you for this opportunity to testify on the 
future of the Coastal Zone Management Act and H.R. 5451, as well as 
H.R. 3223, H.R. 5452 and H.R. 5453.
    The Coastal Zone Management Act (CZMA) has served as a cornerstone 
for national coastal policy for more than 30 years. When enacted in 
1972, it was the first attempt to balance multiple national interests 
along the coast. The CZMA created an innovative intergovernmental 
partnership that has been of great benefit to the nation, the states, 
and the public. The CZMA recognizes and balances national objectives 
for development and conservation of coastal and ocean areas with the 
historical interests and role of the states in governing near shore 
development and land use. Under the CZMA, federally-approved state 
coastal management programs are provided assistance to coordinate their 
environmental resource management programs, and to promote sustainable 
coastal development and long-term conservation objectives. The CZMA 
also authorized the National Estuarine Research Reserve System.
State Coastal Management Programs
    Thirty-four of the 35 eligible coastal states, commonwealths, and 
territories are implementing federally-approved coastal management 
programs. NOAA is working with the final eligible coastal state, 
Illinois, to approve its coastal management program. Through the CZMA, 
NOAA provides funding for developing and implementing these programs, 
and provides technical assistance on best practices for addressing 
important coastal management issues. Funding for the coastal zone 
management program is allocated to eligible coastal states based on 
shoreline mileage and coastal population. This funding is required to 
be matched on a dollar for dollar basis, yet many states far exceed 
this match requirement and are able to leverage additional state 
resources using CZMA dollars. For example, the Maine Coastal Program 
has been successful in matching state dollars to federal dollars at a 
ratio of more than 5:1. In past years this ratio has been as high as 
11:1.
    State programs address a wide range of national objectives, 
including:
    <bullet>  Maintaining and restoring the natural beach and dune 
systems for protection from erosion and storms,
    <bullet>  Ensuring appropriate coastal development,
    <bullet>  Protecting and restoring ecologically important coastal 
habitats,
    <bullet>  Controlling nonpoint source pollution,
    <bullet>  Improving public access and recreational opportunities in 
coastal areas,
    <bullet>  Enhancing public awareness through education and 
outreach, and
    <bullet>  Revitalizing local waterfronts.
The National Estuarine Research Reserve System
    Under the CZMA's estuarine research reserve program, the states--
often in partnership with academia and federal agencies--implement 
research and education programs to better understand complex coastal 
processes and share this information with coastal decision makers at 
the federal, state, and local levels. Critical, long-term research 
takes place at the 27 federally designated National Estuarine Research 
Reserves (Reserves) in 22 coastal states and commonwealths. Connecticut 
and Wisconsin are currently working to develop new Reserves. The 
Reserves play an important role in meeting the U.S. Ocean Action Plan's 
goal to ``expand our scientific knowledge of oceans, coasts and Great 
Lakes.''
    Reserves currently protect over one million acres of estuarine 
lands and waters, and Reserve programs conduct important research, 
monitoring, education, and stewardship activities within coastal 
watersheds. The Reserves have developed system-wide efforts and 
standards to ensure data compatibility and consistent methodologies are 
used at all sites. The Reserve's System-Wide Monitoring Program 
includes 108 water-quality monitoring stations and 27 weather stations. 
The system provides important environmental data in support of the 
Integrated Ocean Observing System identified in the U.S. Ocean Action 
Plan. The Reserve system also supports a fellowship program, training 
up to 54 graduate students each year in estuarine science. This 
fellowship program not only facilitates important research, but also 
encourages the development of the next generation of scientists to 
sustain the workforce necessary to meet the nation's future coastal 
research and management needs.
Factors Impacting the Future of Coastal Management
    While the CZMA has served as a cornerstone for national coastal 
policy for more than 30 years, it has become apparent that the evolving 
nature of the challenges we face in coastal management will require 
changes in our approach. As federal partners with the states, we need 
to position ourselves to take greater leadership on coastal issues by 
anticipating the problems the nation will face in the next thirty years 
and by identifying and promoting needed changes in management 
approaches.
    Coastal management issues in the next 30 years are likely to be 
different, or in a very different context, from the last 30 years due 
to:
    <bullet>  Unanticipated effects and dynamics resulting from climate 
change,
    <bullet>  Globalization, which will result in changes to the 
nation's energy, transportation, communications and manufacturing 
infrastructure,
    <bullet>  New technologies, and
    <bullet>  The changing demographics of coastal communities (greater 
in number and density, older, more ethnically diverse, and wealthier 
with a greater economic disparity between those who live on the coast 
and those who do not).
    With greater competition for coastal resources, coastal decision-
making, resource allocations, and risk acceptability will become even 
more complex. To address these complexities, new management approaches 
are needed to incorporate principles of ecosystem and adaptive 
management.
    Achieving management objectives requires more effective 
implementation at the local level, where most of the decisions that 
cumulatively affect coastal resources occur. These objectives can be 
reached by:
    <bullet>  Building and enhancing local planning capacity for growth 
management,
    <bullet>  Incorporating natural resource planning and protection 
tools into local planning processes, and
    <bullet>  Making data and information more accessible and usable 
for local decision-makers.
Envisioning the Future of Coastal Management
    In July 2006, NOAA and the Coastal States Organization (CSO) 
embarked on an effort to envision the future of coastal and ocean 
management. The process sought input from stakeholders, coastal 
management professionals, experts from multiple disciplines, NOAA, and 
other federal agencies. The response and engagement from across the 
country was encouraging as hundreds of people shared ideas about how we 
as a nation can become better stewards of our coasts. Participants 
exhibited much enthusiasm about new and innovative ways to protect and 
manage our coastal and ocean resources. They also were clear that a 
major effort is warranted to meet these challenges.
    What We Heard
    <bullet>  Managing growth and development in coastal areas was the 
most frequently identified challenge; water quality ranked second.
    <bullet>  Local governments were identified as primary partners for 
addressing growth pressures.
    <bullet>  Climate change was the top emerging issue.
    <bullet>  Federal interagency coordination was stated to be 
ineffective, as states often have to meet different requirements from 
different agencies for similar programs such as water quality 
monitoring. The state resource managers also stated that access to 
assistance is inefficient and confusing.
What We Concluded
    Following the stakeholder process, NOAA and CSO developed a set of 
four cornerstones and 13 principles that we agreed to consider in 
drafting our respective legislative proposals for reauthorizing the 
CZMA. They are intended to reflect both what we heard as well as 
important concepts that both organizations agreed should be the basis 
for a new integrated coastal and ocean statute.
    The cornerstones identified through the visioning process are:
    <bullet>  The CZMA should ensure the long term sustainability of 
coastal resources and communities.
    <bullet>  The CZMA should be goal driven and results oriented.
    <bullet>  The CZMA should coordinate and align federal, state, and 
local governments to address issues of national importance.
    <bullet>  The National Coastal Management Program should remain a 
voluntary partnership between the federal government and the states, in 
which each bears responsibilities for achieving program goals.
    These cornerstones provide a foundation for the development of more 
detailed proposals for a reauthorized CZMA. Following the visioning 
process, NOAA has begun an internal dialogue regarding what concepts to 
include in a CZMA reauthorization proposal. While our internal 
discussions are still in the early stages, I would like to share with 
you some of the concepts we are considering.
TAKING COASTAL AND OCEAN RESOURCE MANAGEMENT TO THE NEXT LEVEL: GOALS, 
        ASSESSMENTS, PLANS, AND MEASURABLE OBJECTIVES
Clear, Focused Goals
    The CZMA currently has a very broad scope, calling for the 
development of programs to ``preserve, protect, develop, and where 
possible, to restore or enhance the resources of the Nation's coastal 
zone for this and succeeding generations.'' A reauthorized CZMA should 
continue to address a comprehensive set of issues, and could 
additionally focus on two distinct national priorities: sustaining 
healthy coastal ecosystems and increasing coastal community resilience.
Understanding Coastal Conditions: Periodic Coastal Assessments
    The CZMA requires each participating state to develop a program 
with adequate policies to manage coastal resources, but does not 
require periodic assessments of coastal conditions or updating of state 
programs. Periodic assessments of coastal trends and conditions of 
natural, social, cultural, historical, and economic resources could 
help to better direct planning and resource management activities at 
the state, regional, and national levels. NOAA would work with the 
states and other agencies to compile and prepare these coordinated 
assessments.
    To understand the true national status of our coastal and ocean 
resources, we must also have a uniform understanding of what defines 
the coastal area. Currently, each state coastal management program 
develops its own boundaries based on the needs of the state's 
enforceable policies. These range from the entire state or territory 
(Delaware, Florida, Guam, and Rhode Island), to local units of 
government (Maine, North Carolina, Washington, and Wisconsin), to 
certain physical features or a set distance from the shoreline 
(California, Massachusetts, Ohio, and Alabama). This has made it 
difficult to develop a consistent set of indicators of the coastal 
condition that can give a regional or national picture. It also has 
caused confusion among federal agencies and the regulated community in 
implementing the federal consistency provisions of the CZMA. In an 
effort to resolve these issues, each state's coastal planning area 
would be based on uniform national criteria, and coastal watersheds and 
the territorial sea would be included in state assessments and plans.
Outcome-Based Planning and Measurable Objectives
    Today, the CZMA requires participating states to have ``programs,'' 
but not action-oriented plans and measurable objectives. State programs 
must identify enforceable policies that address general areas 
articulated in national guidance, but they are not required to set and 
meet benchmarks or measurable objectives. This has hampered efforts to 
demonstrate and articulate the success of state programs.
    Strategic and targeted plans--developed at relevant scales and 
designed to meet national objectives--would be prepared by each state 
and approved by NOAA as a requirement for funding. Plans would include 
measurable objectives to help monitor state progress in achieving the 
goals of the CZMA. National objectives, such as protecting habitat and 
making communities more resilient to coastal hazards and climate 
change, would be established as a foundation for state programs. Each 
state would then prepare a management plan that would include 
strategies and measurable objectives to address the national 
priorities.
    Today, funding for coastal management is allocated according to a 
formula that is driven by state coastal population and shoreline 
mileage. While these variables are useful for calculating continued 
support for operation of basic state programs, as coastal management 
programs move forward the majority of funding would be awarded 
competitively on the basis of achievement of national objectives. 
Program performance measures, based on indicators developed through 
state assessments, would also be used to guide funding.
Federal Agency Involvement
    Currently under the CZMA, NOAA and other federal agencies have a 
limited role in coastal management with no responsibility for 
substantive outcomes. Research and technical assistance at the federal 
level are not specifically tied to implementation of the CZMA. In order 
to supplement the existing federal role, a national level integrated, 
coastal and ocean management program would be created under the 
Secretary of Commerce to provide additional leadership for our state 
and local resource management partners and federal colleagues.
    The primary objective of the national program would be to serve as 
a coordinator for the delivery of the federal government's diverse 
expertise to complement the expertise and knowledge available at the 
state and local level. The program would coordinate and build upon 
existing efforts, such as the National Sea Grant College Program, 
Coastal Services Center and others while not preempting any existing 
authorities of other agencies. It would integrate federal research and 
technical capabilities, and serve as the conduit for moving research to 
operations through the development of targeted products, services and 
related technical assistance.
Program Coordination
    Developing national goals and the more detailed objectives and 
outcomes articulated in state plans would allow other NOAA programs and 
centers to more effectively coordinate, align and contribute to these 
efforts. The result could be a more integrated effort across NOAA to 
help support the national and state goals for management of the 
nation's valuable coastal resources. In addition, the National Marine 
Protected Area System and the Coastal and Estuarine Land Protection 
Program could be incorporated into the CZMA, and it could be required 
that the plans for these programs be developed collaboratively with the 
state coastal management plans.
    Reserves offer a wealth of scientific expertise and conduct 
extensive outreach at the State and local level. Consequently, States 
would benefit from coordinating with Reserves on their state resource 
assessments and plans. The Reserves are currently authorized in a 
separate section of the CZMA, and in some states Reserves are not 
integrated with the State's coastal programs.
    Implementation of the state coastal nonpoint programs developed 
under Section 6217 should be refocused on achievable objectives. States 
should be given more ability to focus on activities that the coastal 
programs do well, such as influencing land and water use decisions and 
working with landowners for cooperative conservation. Improved 
coordination could include working with programs in the Department of 
Agriculture and the Environmental Protection Agency to target specific 
nonpoint pollution-related challenges.
    The U.S. Commission on Ocean Policy and the Pew Oceans Commission 
both called for the development of better regional governance 
structures. The CZMA should more clearly encourage and support regional 
coastal and ocean partnerships, both for federal agencies and among the 
states. State-coordinated, regional efforts should be eligible for 
competitive federal funding under CZMA. In addition to providing a 
forum for planning and resource management across jurisdictional 
boundaries, these partnerships could help leverage resources to address 
regional research needs and improve distribution of applied science to 
managers.
OTHER PENDING LEGISLATION
    The Subcommittee has requested the Administration's views on three 
bills, each of which would make separate amendments to the CZMA. 
Comments on each provision are provided below. In general, the 
Administration does not support this ad hoc approach to amending the 
CZMA because it contradicts the underlying premises of both ocean 
commissions and the U.S. Ocean Action Plan to pursue an integrated and 
coordinated approach to coastal and ocean management.
H.R. 5452: Coastal State Renewable Energy Promotion Act of 2008
    H.R. 5452 would amend the State Grant Program under the CZMA. As 
amended, the program would support voluntary state efforts to initiate 
and complete outer continental shelf surveys adjacent to a state's 
coastal zone and coastal waters. These surveys would identify potential 
areas that are suitable for the exploration, development, and 
production of alternative energy in a manner consistent with the 
enforceable provisions of Coastal Zone Management plans (approved 
pursuant to section 306A of the CZMA).
    We are concerned that this program may result in considerable 
duplication of effort. NOAA and other federal agencies already have 
extensive expertise and existing hydrographic, oceanographic and 
geographic data for many of these areas. Section 388 of the Energy 
Policy Act of 2005 provided the Minerals Management Service (MMS) in 
the Department of the Interior with the authority to grant leases, 
easements, or rights-of-way on the Outer Continental Shelf for the 
siting of alternative ocean energy activities. Thus, any new surveying 
or observations should be done in a partnership with MMS, NOAA, any 
other relevant agencies, and the states, including on a regional basis 
where appropriate. Any such effort should be consistent with the 
standards and objectives of pending legislation (H.R. 2342) to 
authorize the Integrated Ocean Observing System (IOOS). They should 
also be consistent with ongoing efforts to promote integrated ocean and 
coastal mapping, including the basic principal to ``map once, use many 
times.'' The emphasis should be on using existing data and not on 
funding new surveying activities unless clearly warranted.
H.R. 5453: Coastal State Climate Change Planning Act of 2008
    H.R. 5453 would amend the CZMA to require the Secretary of Commerce 
to establish a coastal climate change resiliency planning and response 
program. This program would provide assistance to coastal states to 
voluntarily develop coastal climate change resiliency plans (as 
amendments to CZMA management plans), and provide financial and 
technical assistance to enable coastal states to implement these plans 
through their enforceable policies.
    NOAA supports the development and implementation of plans by states 
and territories for addressing the effects of climate change. With 
respect to requiring long-term monitoring, NOAA has concerns over the 
cost to states and Reserves and how the monitoring would be integrated 
with the IOOS and other ongoing monitoring efforts. While developing 
plan content, coastal management programs should coordinate with 
appropriate federal agencies and other state or regional entities to 
ensure that they are taking advantage of existing resources. 
Specifically, we encourage states with a Reserve to incorporate the 
contributions of the Reserves' monitoring efforts into the Climate 
Change Resiliency Plans.
H.R. 3223: Keep Our Waterfronts Working Act of 2007
    H.R. 3223 would amend the CZMA to establish a new grant program to 
preserve and expand access to ``water-dependent commercial activities 
including commercial fishing, recreational fishing, aquaculture, boat-
building, or other water-dependent coastal-related businesses.'' The 
Federal grants created by the bill could cover up to three quarters of 
the cost of supporting these activities in competing against other uses 
for waterfronts, such as residential development.
    The national policy set by the CZMA currently addresses working 
waterfronts by directing state coastal management programs to give 
priority consideration to coastal-dependent uses when siting major 
facilities, including fisheries development, or new commercial and 
industrial development in areas where such development already exists 
(CZMA Sec. 303(2)(D); 16 U.S.C. Sec. 1452(2)(D)). The CZMA provides, as 
a national policy, that state programs should assist in the 
redevelopment of deteriorating waterfronts and ports, as well as 
sensitive preservation and restoration of historic, cultural, and 
esthetic coastal resources (CZMA Sec. 303(2)(F); 16 U.S.C. 1452 
(2)(F)).
    The Administration supports efforts to preserve working 
waterfronts. However, the Administration does not believe the grant 
program established by H.R. 3223 is the right tool to address this 
agreed upon goal. The program, which would have an authorization level 
of $50 million in 2009, is inconsistent with the President's Budget. 
Moreover, the Administration believes that Federal funds should be used 
for public benefit, and is concerned that H.R. 3223 appears to promote 
one type of commercial activity over others.
CONCLUSION
    Thank you for the opportunity to appear before you today. I look 
forward to working with you on reauthorizing this important program.
    I will be glad to answer any questions.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Kennedy. And thank 
you for staying within the five-minute allotment. I failed to 
mention it, but I will mention it to all the future witnesses, 
that we do have a five-minute rule. But your full, complete 
statement will be entered into the formal record.
    Mr. Bailey, it is a pleasure to welcome you before the 
Subcommittee, and you are now recognized for five minutes.

     STATEMENT OF ROBERT BAILEY, CHAIRMAN, REAUTHORIZATION 
             COMMITTEE, COASTAL STATES ORGANIZATION

    Mr. Bailey. Thank you, Madame Chairman. Chairwoman 
Bordallo, Ranking Member Brown, and distinguished members of 
the Subcommittee, thanks for holding this hearing and the 
opportunity to appear before you today.
    My name is Robert Bailey, and I manage the Oregon Coastal 
Management Program. I am here today on behalf of the Coastal 
States Organization, the CSO, which represents Governors of 35 
coastal states, Great Lakes states, islands, and territories.
    I note that you, Madame Chairwoman, and many Subcommittee 
members represent these same states and islands.
    In summary, CSO strongly urges you and the Congress to 
begin work to enact new legislation to redefine coastal 
management in this country. CSO has developed some elements and 
ideas for such a bill that we respectfully offer for your 
consideration, and we have done so in our written testimony. We 
also enthusiastically support the three related bills before 
you today.
    Now, from the vantage point of 36 years, many would say 
that the Coastal Zone Management Act of 1972 has been 
successful. Thirty-five islands, coastal and Great Lakes states 
and territories have accomplished a lot of good things through 
their Federally approved programs.
    But the world has changed, and is about to change even 
more. The coasts are being hit with a triple whammy. The first 
is an enormous reservoir of retiring baby boomers that is 
starting to scour the real estate ads in coastal communities. 
As a result, our coasts will be under even more pressure for 
development.
    Second, climate change is beginning to affect our coastal 
communities and coastlines in profound ways. Chairwoman 
Bordallo, I am sure that as a delegate of an island territory 
ringed by the coasts and ocean, you join me in understanding 
just how fragile our coasts are, and appreciating what is at 
stake for our nation, our coastal areas, and our people.
    Third, energy scarcity is driving proposals for renewable 
energy to wind, waves, and tidal power. We must take care to 
carefully fit these new uses with our traditional uses.
    Meanwhile, governmental budgets at all levels are and will 
be stretched thin, so our efforts must be efficient, effective, 
and accountable.
    Three years ago a budget review by the Office of Management 
and Budget triggered what became a terrific partnership between 
the CSO and the National Oceanic and Atmospheric Administration 
to thoroughly assess and revision coastal management in the 
U.S. Together, CSO and NOAA embarked on outreach that engaged 
hundreds of stakeholders and citizens from around the country 
to assess needs for coastal management over the next 35 or more 
years. And what they told us forms the basis of our 
recommendations to you.
    People told us that they care deeply about the coast. They 
want to take their kids to see tidepools, to wade in the surf, 
to walk the solitude of the beach. But they told us that they 
need help in protecting these treasures.
    And they also told us that coastal management efforts need 
to be better if we are to succeed. They told us that our state 
and Federal coastal programs must be prioritized and strategic. 
They have told us that our efforts must be coordinated across 
all levels of government, because people don't make a 
distinction between local, state, and Federal governments. They 
want it just to work better.
    They also want our government programs to be accountable, 
and to demonstrate results. And they told us that our programs 
need significantly increased financial support to make our work 
successful in protecting the nation's coastal communities.
    These principles guide our framework for revisioning 
coastal management in the United States, and we think of this 
as a new coastal constitution. We in CSO are willing to work 
hard to ramp up our efforts, and we believe that the continuing 
central role of state programs is crucial.
    We urge that state and island programs already approved 
remain so, and that the requirement for Federal agency actions 
be consistent with approved state programs likewise be 
retained.
    We see the National Estuarine Research Reserve System as a 
key partner in carrying out this enterprise.
    I want to turn quickly to the other three bills. CSO 
strongly supports H.R. 5453, and commends Congresswoman Capps 
for introducing this. This will significantly help coastal 
communities address the enormous challenges of climate change.
    CSO also supports H.R. 5452 to make sure that the green 
power we all want from wind, wave, and tidal energy sources 
will work for fishermen, coastal communities, and marine 
wildlife.
    Finally, CSO supports H.R. 3223 to protect working 
waterfronts. Representative Allen's bill gets it right: The 
heart of coastal communities will be gone if working 
waterfronts are eliminated. These assets must be preserved.
    Chairwoman Bordallo, Ranking Member Brown, we in CSO look 
forward to working with you and the Members of the House and 
Senate to move these bills forward.
    Thank you for this opportunity to share our views, and I 
would be happy to answer any questions.
    [The prepared statement of Mr. Bailey follows:]

 Statement of Robert Bailey, State of Oregon's Representative, Coastal 
  States Organization, and Manager, Coastal Services Division, Oregon 
             Department of Land Conservation & Development

    Chairwoman Bordallo, Ranking Member Brown, and distinguished 
members of the Subcommittee; thank you for the opportunity to appear 
before you today to discuss a new vision for coastal management in the 
United States, reauthorization of the Coastal Zone Management Act, and 
three related issues: planning for climate change on our coasts, 
planning for alternative energy development, and protecting working 
waterfronts.
    My name is Robert Bailey. I am the Manager of the Oregon Coastal 
and Ocean Management Program in the Oregon Department of Land 
Conservation and Development.
    I am here today representing the Coastal States Organization (CSO), 
an organization that represents the interests of the Governors of 
thirty-five coastal states and territories. I note that many of the 
members of this Subcommittee are from coastal, islands, or Great Lake 
states and territories, all of which are members of the CSO. My 
testimony today will provide comments on behalf of CSO as well as my 
own perspectives gained from more than 30 years of working in coastal 
and ocean management for the State of Oregon.
    First, however, I want to commend you and the Subcommittee for 
holding this hearing. This conversation about a new approach to coastal 
management is a long time coming. We all know that it is easy for the 
coasts to get lost in the press of world issues and assume they will 
always be there. But, Chairwoman Bordallo, I am sure that, as a 
Representative of an island territory ringed by a coast and ocean, you 
and the other Subcommittee members join me in understanding how fragile 
our coasts are and appreciating what is at stake for our people and our 
nation.
What's Happened Since 1972: An Experiment That Succeeded
    It is fair to say that the Congressional authors of the 1972 
Coastal Zone Management Act had no idea of how successful their efforts 
would be when seen from this 35-year vantage point. Of 36 coastal and 
Great Lake states and territories, 35 have federally approved coastal 
management programs that account for the unique needs and setting of 
each state or territory. These CZM programs have provided public access 
to coastal waters and made sure that those waters were clean, kept 
shoreline development safe from coastal hazards, protected and restored 
estuarine and wetland habitats, protected dunes, barrier islands and 
other unique coastal features, helped citizens to be better stewards of 
the coast, and, importantly, worked hard to coordinate state and 
federal efforts to conserve the Nation's coastal resources.
    The unique federal-state partnership of the Coastal Zone Management 
Program has enabled states to ensure that federal agency actions 
affecting coastal resources are consistent with approved state 
programs, which often include local regulations. This arrangement has 
been good for coastal communities, coastal states, and the Nation. It 
is a stellar example of innovative public policy that has worked 
quietly and well, notwithstanding the occasional headline or 
controversy. In this democracy of ours, where each state is a 
laboratory, the 1972 CZMA experiment has been a success.
    I also think it is fair to say that these same authors could not 
have envisioned the demands that are increasingly bearing on our 
coasts. In 1980, 120 million people lived in coastal counties. Today, 
40 million more people have crowded near our nation's coastlines, an 
increase of 30 %. Nearly 60% of the U.S. population now lives in 
coastal counties, which make up only 17% of the nation's area. There is 
clearly something special in our coasts and oceans. I remind my friends 
in Oregon that you can drive for six straight days across this country 
and never see a tidepool, an estuary, or waves crashing on an ocean 
beach. What we live with every day on the coast of Oregon and other 
coastal states and islands are truly national treasures.
    Unfortunately, our coasts are about to get hit with a triple 
whammy. The first is the enormous reservoir of retiring Baby Boomers 
with the means and desire to seek coastal living or recreation. Second 
is climate change, which will place a premium on the naturally air-
conditioned coasts even as coastal communities are stressed from rising 
sea-level, increasing storm intensity, and higher temperatures. Third 
is an energy scarcity that will impact economies and development 
patterns of coastal communities and spawn demand for renewable coastal 
energy resources of wind, waves, and tides. All the while, the public 
will demand that all levels of government work more efficiently to 
protect coastal and ocean resources and be accountable for results.
    So, the conditions for our experiment in coastal management are 
changing drastically. We in the Coastal States Organization believe it 
is time to meet these challenges with equally dramatic changes in our 
national and state coastal management efforts.
H.R. 5451: Toward a Vision for the CZMA
    Over the past three years a remarkable confluence of circumstances 
has resulted in a broad consensus among many coastal constituents about 
how this nation needs to re-tool coastal management for the next 35 
years or more. The first was the nearly tandem reports of the Pew 
Oceans Commission and the U.S. Commission on Ocean Policy that zeroed 
in on the Coastal Management Program as critical to addressing many 
issues confronting our coasts and oceans.
    The second was an assessment of the strengths and weakness of the 
National CZM program by the Office of Management and Budget that shook 
the ground under both NOAA and CSO. While the report found positive 
effects from state and federal actions to carry out the 1972 program, 
it also found serious issues about performance, accountability, and the 
level of effort necessary to truly address oncoming needs on the 
Nation's coasts.
    The third happenstance was leadership within both the Coastal 
States Organization and the National Oceanic and Atmospheric 
Administration who read the OMB assessment and recognized that in 
``crisis'' is both ``danger'' and ``opportunity.'' With so much at 
stake, CSO and NOAA took the path of opportunity and agreed to 
vigorously engage stakeholders in creating a vision for an improved 
Coastal Zone Management Act and to identify methods for improving 
program implementation at the state and national levels.
    The fourth circumstance was--and is--a climate of intense interest 
and willingness to think boldly among the public, coastal managers, 
local governments, coastal industries, federal agencies, non-profit 
foundations, state officials, and even Congressional members. These 
stakeholders have been nearly unanimous in believing that it is high 
time to think boldly about the future of coastal management in this 
country.
    The CSO and NOAA reached out to stakeholders around the country. 
Five national workshops were held, which spawned additional state-level 
conversations. In all, about 600 participants from across the spectrum 
of stakeholders participated, including municipalities, maritime 
industry, environmental organizations, and the public. NOAA met with 
many federal agencies with coastal programs and began internal 
discussions to better align NOAA resources. CSO and NOAA both met with 
a variety of organizations representing a wide range of coastal 
stakeholders. Discussions were frank and creative.
    What we all heard loud and clear was that coastal management needs 
big improvements. And in so doing coastal management must be 1). 
prioritized and strategic; 2.) accountable; 3.) coordinated, and 4.) 
supported by significant financial investments. Together, the CSO and 
NOAA worked out a set of Cornerstones and Core Principles for coastal 
management in the United States that has guided us as we have come to 
agreement within CSO on National Priorities and a framework for 
achieving them.
    We call our framework the Coastal and Ocean Legacy Act of 2008. We 
think of this as a new ``Coastal Constitution.''
PROPOSED FRAMEWORK FOR CZMA
    The Coastal States Organization urges a new national commitment to 
coastal management that includes the following elements:
Reaffirm a national commitment to keystone principles of coastal 
        management
    Keystone principles include maintaining state-enacted programs and 
authorities that meet national policies, balancing conservation and 
development, protecting coastal natural resources, and federal 
consistency with state programs. These core elements have been the 
cornerstone of implementing the 1972 Act.
Address National Priorities to meet the needs of the Nation's coasts
    The CSO agrees that coastal management must go beyond core programs 
and be focused on achieving National Priorities that broadly reflect 
the concerns of stakeholders from around the country. CSO urges that 
local, state, and federal programs be organized to meet these four 
priorities:
    <bullet>  Support healthy coastal communities and economies: By 
this we mean assisting coastal communities to plan for and manage urban 
growth, revitalize waterfronts, and reduce impacts on coastal resources 
while building for sustainable economic development and improving the 
quality of life.
    <bullet>  Protect and restore coastal natural resources: Coastal, 
estuarine, and marine ecosystems, habitats and unique resources are 
under pressure and will require significant focused effort to protect 
and, where possible, restore.
    <bullet>  Prepare for climate change on the nation's coasts: The 
Nation's coasts are on the front lines for impacts from climate change. 
Coastal communities and states must have the capacity and resources to 
plan and prepare for these impacts.
    <bullet>  Ensure coordination and integration of coastal and ocean 
programs: While seemingly implicit, this should be an explicit National 
Priority to ensure that local, state, and programs work together to 
make effective use of scarce public resources in pursuit of coastal 
management objectives.
Act strategically
    States recognize that meeting these National Priorities will 
require strategic investments and programs. So states will prepare 
multi-year strategic plans to address these priorities. These 
strategies will be based on comprehensive assessments of resources, 
conditions, needs, and opportunities, will describe outcomes and 
identify performance measurements, and will be the basis of annual 
implementation plans and funding.
Monitor effectiveness through performance measures and periodic 
        evaluation
    States understand that performance measurements will be needed to 
demonstrate progress in meeting national priorities. To ensure that 
appropriate, useful measures are used, the states propose that the 
National Academy of Sciences or the National Academy of Public 
Administration convene a panel of experts to develop performance 
criteria and metrics for the national priorities.
Engage and encourage local communities in the coastal stewardship 
        enterprise
    Local communities are vital partners in the nation's effort to 
steward coastal resources. Local governments are on the front lines as 
on-the-ground decision-makers whose land use regulations and 
infrastructure investments are pivotal in determining the scope and 
kind of coastal development. But communities need financial and 
technical assistance to be effective partners in meeting the national 
objectives.
Strengthen coordination and integration of management programs for the 
        nation's coasts
    The programs of many federal agencies that affect the nation's 
coastal zone must be aligned and integrated with each other and with 
coastal state programs. Part of the challenge of coastal management is 
to integrate non-NOAA agencies such as the EPA, USFWS, USGS, MMS, the 
USACOE, and the departments of Agriculture and Transportation. Such 
integration will not be easy, but it is absolutely necessary.
Increase investments in coastal stewardship to meet national priorities
    States understand that this new approach to addressing the nation's 
coastal issues will require significant investments in funding and 
technical support for both states and federal agencies. Investments 
must be commensurate with the dimensions of the task or our coastal 
communities will suffer. At present, federal coastal management funding 
equates to 46 cents per person per year living on the coast. We believe 
that our coasts are worth far, far more than that.
    Coastal states are ready to tackle these coastal challenges. We 
must. But we cannot do it alone. We believe that the framework we have 
developed with our partners will enable all of us to succeed in this 
most important endeavor.
H.R. 5453 COASTAL STATES CLIMATE CHANGE PLANNING ACT
    I want to turn now to H.R. 5453 and what is probably the biggest 
single reason for thinking differently about how we plan for, manage, 
and protect our coasts. Climate change.
    Climate change is more than just another issue for the coasts of 
our states and islands. It is a planetary issue with particularly 
unique effects and challenge for our nation's coasts and coastal 
communities. According to the Intergovernmental Panel on Climate Change 
(IPCC), socioeconomic and environmental impacts of climate change are 
projected to be most significant in coastal areas. As a representative 
from one of our vulnerable Pacific islands, I suspect that you 
understand clearly how critical it is to address the effects of climate 
change on our nation's coasts--right now.
    The CSO commends Representative Capps for introducing H.R. 5453 to 
amend the Coastal Zone Management Act (CZMA) to authorize assistance to 
coastal states in developing coastal climate change adaptation plans. 
With this legislation, Representative Capps has recognized that states 
have developed skills and authorities to deal with many aspects of 
adaptation through work on coastal hazards and coastal development. I 
would note that CSO recently completed a white paper summarizing the 
work already underway by coastal states to address climate change and 
to identify needed actions. In my own program, we have begun a somewhat 
bootstrapped effort to address adaptation and have already recognized 
that the scale of effort outstrips our available or foreseeable 
resources.
    The CSO applauds the provisions of H.R. 5453 that would enable 
state coastal management programs to tailor current responsibilities 
and begin adaptation planning under the CZMA, and significantly, 
provide grant assistance to implement these plans and additional 
projects to address climate-related stress factors. CSO understands 
that if we are going to face the challenges of climate change on our 
coasts, funding, as well as planning, will be essential. So, no pun 
intended, H.R. 5453 is right on the money.
H.R. 5452 the Coastal State Renewable Energy Promotion Act of 2008.
    The CSO also commends Representative Capps for introducing H.R. 
5452. This, too, is a very timely and helpful bill. For example, my 
state, Oregon, is on the front lines of efforts to develop ocean wave 
energy conversion facilities. As much as we all want clean, renewable 
energy, I know first hand that the rush to develop wind, wave and tidal 
energy is placing unprecedented pressures on coastal states to plan for 
these new uses and to balance them with existing economic and 
environmental uses and values.
    Coastal fishermen and local communities are keenly interested in 
how new energy development will affect them. H.R. 5452 would provide 
critical financial assistance to state coastal management programs to 
do the planning and assessment work necessary to develop credible 
public processes, acquire needed data, prepare assessments, and 
identify areas where energy development is appropriate and where it is 
not. In Oregon, fishermen and community leaders are demanding this kind 
of assessment and planning. And because energy industries are in a 
mini-Gold Rush in response to global energy and greenhouse gas issues, 
the need is urgent.
    I would note that even while this planning is taking place the 
Federal Energy Regulatory Commission is receiving private sector 
applications that could result in 50-year licenses for energy 
facilities located in state waters. The subcommittee might consider 
addressing this issue. States are concerned that without such planning, 
it is premature to commit ocean areas to long-term licenses. If it 
would be useful to the Subcommittee, I would be pleased to provide more 
information about the kinds of issues that we are addressing as we work 
with industry, FERC, other agencies, and ocean users in a kind of 
pioneering endeavor to site wave energy development facilities in the 
ocean on the Oregon coast.
H.R. 3223, the Keep Our Waterfronts Working Act of 2007
    Finally, I would like to acknowledge and thank Representative Allen 
and Representative Capps for introducing H.R. 3223, the Keep Our 
Waterfronts Working Act of 2007. The Findings in that Bill get it 
right: working waterfronts are under enormous pressure from the twin 
forces of continuing demand for development and changing economies on 
our coasts. Those who build and live on the coasts know that 
waterfronts have tremendous financial value, which is why traditional 
uses of working waterfronts are so vulnerable to elimination. But as 
the Bill notes, if working waterfronts are eliminated, the economy, 
culture, and the heart of coastal communities will be fundamentally 
altered.
    In Oregon we regard working waterfronts as scarce and valuable 
public resources, the same way we regard unique coastal habitats, and 
we protect them from being lost to inappropriate development. So I am 
particularly pleased to tell you that CSO strongly supports the Working 
Waterfront Grant Program that H.R. 3233 would create to help all 
coastal states address this need. We believe that working waterfronts 
are national assets and that it is essential to preserve them in order 
to protect the economic and cultural value they provide to our local 
coastal communities and to the nation.
CONCLUSION
    Chairwoman Bordallo, Ranking Member Brown, and subcommittee 
members, what I like about all these bills is that while they address 
governmental programs they are really about the real world of our 
coastal communities, our shores, and our oceans, and the kind of 
coastal world we will pass to my grandchildren and yours. These bills 
make me optimistic because they offer important tools for our coasts 
and coastal management in the U.S. CSO looks forward to working with 
all of you and the members of the House and Senate to advance them. 
Thank you for this opportunity to share our views.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Bailey. And again, 
thank you for staying within the time limits.
    Mr. Bailey. You are welcome.
    Ms. Bordallo. And thank you for your very helpful comments.
    Dr. Kooser is here to testify on behalf of the National 
Estuarine Research Reserves Association. And her colleague, Dr. 
Michael De Luca, was unfortunately unable to be here today due 
to illnesses in his family. But I would like to thank Dr. 
Kooser for coming, and invite her to testify at this point.

   STATEMENT OF JAIME C. KOOSER, Ph.D., PRESIDENT, NATIONAL 
            ESTUARINE RESEARCH RESERVES ASSOCIATION

    Ms. Kooser. Thank you, Chairwoman Bordallo and members of 
the committee.
    Again, my name is Jaime Kooser, and I serve as the 
President of the National Estuarine Research Reserve 
Association. And I also manage the San Francisco Bay National 
Estuarine Research Reserve.
    I am presenting testimony that was prepared by Mr. Mike De 
Luca, the Legislative Director of NERRA. And I want to say we 
support all of the bills that are being discussed in this 
session.
    Our comments emphasize the importance of regional 
approaches to coastal management, the importance of building 
capacity in the coastal community, and engaging the public in 
coastal stewardship.
    I also want to say that we echo many of the themes that 
have already been discussed by Mr. Kennedy and Mr. Bailey. And 
NERRA has collaborated with NOAA and the Coastal States 
Organization in the coastal visioning process that Mr. Bailey 
described. And we look forward to working together to integrate 
all of the ideas that we have for improving coastal management.
    NERRA is dedicated to science-based management of our 
nation's estuaries and coasts, and it serves as the primary 
advocate for the National Estuarine Research Reserve System, 
which is a network of 27 protected areas throughout the states 
and territories.
    Through our state-Federal partnership with NOAA, the 
reserves play a critical role in national efforts to sustain 
healthy estuaries and coastal communities. NERRA strongly 
supports amendments to the CZMA that enable coastal communities 
to protect coastal resources in the face of rapidly shifting 
environmental changes.
    As the Chairwoman has already described, much has changed 
since the CZMA was last authorized, in 1996. Devastating storms 
and natural disasters, intensifying population growth along the 
coast, and climate change are altering both the pace and the 
scope of environmental concerns.
    Because environmental issues such as fisheries management 
and habitat loss transcend watersheds and state boundaries, a 
regional approach to problem solving is necessary. We are 
already moving in that direction with collaborative efforts, 
like the Gulf of Mexico Alliance and the West Coast Governors 
Agreement on Ocean Health. And likewise, we can align technical 
capacity with regional needs, as we do with the regional 
associations that help us implement integrated ocean observing 
systems. We want to foster similar approaches in other coastal 
regions.
    Second, we recognize the need to base our coastal decisions 
on the best available science. And we often hear that phrase, 
that we want our decisions based on the best available science; 
but the question remains, how do you allow that information to 
be available to decision makers so that it can actually happen.
    And the National Estuarine Research Reserve System has 
developed a coastal training program to meet this need of 
linking science to management. We give elected officials, land-
use planners, regulatory personnel, coastal managers, and 
members of the public relevant, science-based information. We 
offer these programs in partnership with national and local 
organizations and other NOAA programs, and we want to expand 
our capacity to do CTP regionally so that we can better address 
the regional environmental concerns that we have described.
    Third, I wanted to say that I recognize the critical role 
of engaging all members of our community in protecting our 
resources. Generally people will do the right thing, if they 
know how. Because, as previous witnesses have stated, people 
really do care about the coasts, and they do want to know what 
they can do to help.
    And so there are many excellent formal and informal 
programs that exist at state and local levels, but we need more 
resources in order to be able to scale up to do the kind of 
regional-based approach that we think will help us do more 
effective problem solving.
    In summary, NERRA offers a number of recommendations in 
support of CZMA reauthorization, which are more fully 
described, of course, in our written testimony. But I did want 
to note that we want to make the NERRS a leader in leveraging 
the capabilities of protected-area networks, to engage the 
public in stewardship of our coasts, and to recognize the 
special role that estuarine research reserves can play as 
sentinel sites for adaptive management strategies for climate 
change, which is certainly an issue that is going to be 
increasingly upon us.
    In closing, reauthorization of the CZMA provides an 
opportunity to build on our past successes, so as to strengthen 
our ability to care for our coasts and estuaries.
    The National Estuarine Research Reserve System is 
passionate about our coasts and estuaries, and the people who 
depend on them. So we thank you for the opportunity to share 
that with you this morning, and look forward to working with 
you and all of the members of the committee in order to move us 
forward.
    Thank you so much.
    Ms. Bordallo. Thank you very much, Dr. Kooser.
    And finally, I would like to welcome Ms. Evangeline Lujan, 
all the way from the district that I represent, Guam. And I 
will say that this is the second time that she has testified 
before this Subcommittee, and she didn't come out here just for 
this. We make the most of these 19-hour flights to the nation's 
capital. She was here for the U.S. Coral Task Force meetings.
    And so, Ms. Lujan, I am very pleased that you took the time 
out to appear before us again. And it is a pleasure to have 
you. You may begin.

     STATEMENT OF EVANGELINE LUJAN, DIRECTOR, GUAM COASTAL 
       MANAGEMENT PROGRAM ADMINISTRATOR, ALL-ISLAND GROUP

    Ms. Lujan. Thank you so much.
    [Witness spoke a greeting in her native language.]
    Ms. Lujan. Hello, Chairman Bordallo, Ranking Member Brown, 
and distinguished members of the Subcommittee. Thank you for 
the opportunity to appear before you today to discuss island 
coastal management and reauthorization of the Coastal Zone 
Management Act.
    My name is Evangeline Lujan. I am the Administrator for the 
Guam Coastal Management Program in the Guam Bureau of 
Statistics and Plans. I am here today representing the All-
Islands Committee on Coastal Zone Management, which is 
comprised of representatives from Hawaii, Guam, American Samoa, 
the Commonwealth of the Northern Marianas, U.S. Virgin Islands, 
and the Commonwealth of Puerto Rico.
    In my testimony today, I will provide comments on behalf of 
the All-Islands Committee, as well as from my own perspectives 
gained from more than 14 years of working in coastal and ocean 
management for Guam.
    To islanders, the ocean is our heritage and our future. Our 
island's coastal zones provide economic and environmental 
services to millions of people. These valuable areas are 
sources of natural beauty, food, jobs, revenue, recreation and 
tourism, cultural activities, and shoreline protection.
    The inability of coastal management to address 
environmental issues on an ecosystem-based approach affects 
islands in a unique way.
    For example, no point on Guam is more than a few miles from 
the shoreline. The entire island is considered a coastal zone. 
The coastline is affected by activities that occur inland, as 
is true for all island jurisdictions. Thus, land-use planning, 
resource exploitation, water quality, and coastal management 
are all inter-connected.
    I would like to provide you with a few outlined items that 
are important for the island jurisdictions, as we perceive 
through the reauthorization of CZMA. It is important to 
recognize that the reauthorization of the All-Islands CZMA 
program provides a special perspective for the following 
reasons.
    Our islands, coasts, and oceans extend from the top of the 
mountain to the sea. We are both indigenous and immigrant 
populations. We recognize the importance of culture and 
tradition in management practices. Many of our jurisdictions 
include non-contiguous land masses with unique characteristics, 
limited natural resources, and a finite land base surrounded by 
ocean waters. And we are more directly affected by sea-level 
rise and climate change needing effective and immediate action 
to ensure the survival of ecosystems and cultures.
    With these distinctive characteristics in mind in 
reauthorizing the Coastal Zone Management Act, I urge Congress 
to strengthen the Coastal Zone Management Act to maintain a 
balance between coastal conservation and economic development, 
provide adequate funding for states and territorial coastal 
programs, so that levels of investments are aligned with 
economic contributions. Islands are especially susceptible to 
economic pressures to develop in inappropriate areas to 
economic pressure--I am sorry--and coastal management is 
considerably under-funded given these economic impacts to 
coastal areas.
    Increased funding for emerging issues, such as sea-level 
rise and climate change, such issues are not presently factored 
into the original CZMA. Provide funding for the non-point 
source program for islands especially, this problem is critical 
and has direct impact on our valuable coral reef ecosystems.
    Craft national priorities to support healthy coastal 
communities and economies, protect and restore coastal natural 
resources, enable states and territories to adapt climate 
change, and ensure integration of coastal and ocean programs.
    And I have a list, but in my written testimony, so I would 
like to just add this one also. Strengthen Federal consistency 
to apply to the entire island, including the ecosystem, 
including Federal lands. This will ensure that natural 
resources are managed through an ecosystem approach. For Guam, 
strengthening of Federal consistency may be critical in this 
time of military buildup.
    In reauthorizing the Coastal Zone Management Act, and in 
considering the role of the bill in coastal management, I urge 
you and the members of your committee to be mindful of the 
unique perspective and needs of island states and territories, 
recognizing that coastal jurisdictions are distinctive, and 
have very different values and needs.
    The CZMA ensures that national interests are expressed and 
carried out through local initiatives. The Guam Coastal 
Management Program and other island jurisdictions comprising of 
the All-Islands Committee look forward to working with you and 
members of the House Natural Resources' Subcommittee on 
Fisheries, Wildlife and Oceans to advance these bills.
    Again, thank you for the opportunity to testify. And I will 
be pleased to answer any of your questions. Thank you.
    [The prepared statement of Ms. Lujan follows:]

 Statement of Evangeline Lujan, Guam's Representative, Coastal States 
 Organization and Administrator, Guam Coastal Management Program, Guam 
                   Bureau of Statistics and Planning

    Chairwoman Bordallo, Ranking Member Brown, and distinguished 
members of the Subcommittee; thank you for the opportunity to appear 
before you today to discuss island coastal management and 
reauthorization of the Coastal Zone Management Act.
    My name is Evangeline Lujan. I am the Administrator of the Guam 
Coastal Management Program in the Guam Bureau of Statistics and 
Planning.
    I am here today representing the All Islands Committee on Coastal 
Zone Management representing Hawai`i, Guam, American Samoa, 
Commonwealth of the Northern Mariana Islands, U.S. Virgin Islands, and 
the Commonwealth of Puerto Rico.
    My testimony today will provide comments on behalf of the All 
Islands Committee as well as my own perspectives gained from more than 
14 years of working in coastal and ocean management for Guam.
    The island's coastal zone provide economic and environmental 
services to millions of people as valuable areas of natural beauty, 
sources of food, jobs and revenues, recreation and tourism, cultural 
activities and shoreline protection. The inability of coastal 
management to address environmental issues on an ecosystem-wide basis 
affects islands in a unique way: for example, no point in Guam is more 
than 11 miles from the shore. The entire island is considered a coastal 
zone. As is true for all other island jurisdictions, the coastline is 
affected by activities that occur inland. Thus, land management 
decisions, resource exploitation, water quality and coastal management 
are interconnected. Management of impacts to habitat is critical to the 
protection of natural resources. To islanders, the ocean is our 
heritage and our future.
    Firstly, I would like to provide a few outlined items that are 
important to the island jurisdictions as you proceed with support of 
the reauthorization of the CZMA.
OUTLINE OF TOPICS:
    It is important to recognize in the Reauthorization that the All 
Islands CZM programs provide a unique perspective because Island coasts 
and oceans extend from the top of the mountain to the sea (three miles 
seaward) which should address;
    <bullet>  Indigenous and immigrant populations;
    <bullet>  Cultural & Traditional importance in management 
practices;
    <bullet>  Island environments of non-contiguous land masses with 
unique characteristics, limited natural resources (terrestrial and 
marine), a finite land base, surrounded by ocean waters; and,
    <bullet>  Uniquely affected by sea level rise and climate change, 
needing effective and immediate action to ensure the survival of 
ecosystems and cultures.
    With these distinctive characteristics in mind, in reauthorizing 
the Coastal Zone Management Act, I urge Congress to:
    <bullet>  Strengthen the Coastal Zone Management Act to maintain a 
balance between coastal conservation and economic development.
    <bullet>  Provide adequate funding for states' and territories' 
coastal programs so that they receive the investment aligned with their 
economic contribution. Islands are especially susceptible to economic 
pressure to develop in inappropriate areas. As an island jurisdiction, 
coastal management is considerably under-funded given the economic 
impact of coastal areas. This is true not only for Guam but to all our 
island CZM programs.
    <bullet>  Provide for adequate base funding for the core programs, 
on a non-competitive basis. Competitive funding available for 
additional programs.
    <bullet>  Increase funding for emerging issues such as climate 
change. Such issues are not presently factored into original CZMA.
    <bullet>  Provide funding for the non-point source program. For 
islands especially, this problem is critical and has direct impact to 
their valuable coral reef ecosystems.
    <bullet>  Craft National Priorities to support healthy coastal 
communities and economies, protect and restore coastal natural 
resources, enable states to adapt to climate change and, ensure 
integration of coastal and ocean programs. Recognizing that ``One size 
fits all'' policies are not appropriate for different physical 
settings, most especially for islands.
    <bullet>  Monitor effectiveness of coastal programs through 
measures and evaluation.
    <bullet>  Engage and encourage local communities and indigenous 
people in coastal stewardship. Noting that there is a mix of diverse 
cultures and traditional practices. Finding ways to incorporate both 
scientific knowledge and traditional knowledge in resource management 
is important.
    <bullet>  Strengthen coordination and integration of management 
programs for the nation's coasts taking the unique needs of territories 
and islands into account. Islands, as well as other coastal 
communities, struggle with competing Interests (multiple users, 
achieving balance, and setting priorities). There is also a need for 
coordination among federal agencies and among levels of government.
    <bullet>  Strengthen federal consistency to apply to the entire 
island. This will ensure that natural resources are managed through an 
ecosystem approach. For Guam, strengthening of federal consistency will 
be critical during the military build up.
    <bullet>  Strengthen NOAA's ability to coordinate and collaborate 
with federal agencies in support of local jurisdiction's coastal 
policies.
    Secondly, I would like to provide a few outlined points that are 
important to island jurisdictions to authorize CZMA with emphasis on 
coastal climate change;
Islands Are Uniquely Affected by Climate Change.
    Islands have an urgent need for adequate coastal planning for sea 
level rise and other expected impacts from climate change. I commend 
Representative Capps for introducing H.R. 5453, a bill to amend the 
Coastal Zone Management Act of 1972 (CZMA) to authorize assistance to 
coastal states and territories to develop coastal climate change 
adaptation plans. The future of Guam's as well as other island 
jurisdictions' economic stability are reliant upon protection and 
management of coastal resources and adaptation to climate change and 
rising sea level. This legislation provides a mechanism for coastal 
management to address one of our most pressing coastal issues.
    The Intergovernmental Panel on Climate Change (IPCC) report 
confirmed what managers of island coastal programs know: small islands 
have characteristics that make them especially vulnerable to the 
effects of climate change, sea-level rise, and extreme storm events. 
Characteristics such as limited size and proneness to natural hazards 
increase the vulnerability of islands to climate change. In most cases 
they have low adaptive capacity, and adaptation costs are high relative 
to gross domestic product.
    With ``very high confidence,'' the IPCC found that especially for 
islands, sea-level rise is expected to exacerbate inundation, storm 
surge, erosion and other coastal hazards, threatening vital 
infrastructure, settlements and facilities that support the livelihood 
of island communities. Specifically, sea-level rise could lead to a 
reduction in island size, particularly in the Pacific. Island 
infrastructure is predominately located on the coast and in the 
Caribbean and Pacific islands, more than 50% of the populations live 
within 1.5 km of the shore. Almost without exception, international 
airports, roads and capital cities in the small islands of the Indian 
and Pacific Oceans and the Caribbean are sited along the coast, or on 
tiny coral islands.
    Climate change will also compromise water resources, heavily 
impacting coral reefs, fisheries and other marine-based resources (high 
confidence), and adversely affecting human health, subsistence and 
commercial agriculture, tourism, on small islands.
    H.R. 5354 would provide essential funding and management capacity 
to island coastal programs to address these front-line needs. These 
specifically are encouraged for the following priorities:
    <bullet>  Need of data/information for effective adaptation to 
Climate Change:
      <all>  Higher resolution topography useful for land use permits;
      <all>  Current, seasonal, coast-wide imagery to assess shoreline 
change and rates of change over time; and,
      <all>  Images for inland areas in order to connect land uses with 
shoreline change, needed at a resolution of land use parcel or better.
    <bullet>  Need for training, outreach and education:
      <all>  Software and training for spatial analysis using GIS;
      <all>  Island-specific funding for experts to evaluate a problem 
and provide expert advice/recommendations on how to solve it;
      <all>  A Toolkit of Best Management Practices for land use 
tailored for the islands, include links to available resources; and,
      <all>  Develop local strategies on coastal management issues, 
adapt the tools to the island, county, and local management level.
    <bullet>  Support the need for island-specific information and 
research
      <all>  Translate federal smart growth programs and tools to be 
applicable in the islands.
      <all>  Studies on the water carrying capacity of islands, 
including in-water use impacts.
      <all>  Methods to document real-life land use instead of general 
policies and information, needed to capture the impact of variances 
issued by local zoning.
      <all>  Recommendations for innovative, protection alternatives 
for shoreline change caused by sea walls on Guam.
      <all>  Information on the social science impacts (cultural, 
economic) of resource degradation.
      <all>  Island-specific case studies and examples for improving 
the governance structure for addressing land use and land use 
designations (zoning).
Conclusion
    In reauthorizing the Coastal Zone Management Act and considering 
the role of this bill in coastal management, I urge you to be mindful 
of the unique perspectives and needs of island states and territories. 
Recognizing that coastal jurisdictions are unique and have different 
values and needs, the CZMA ensures that National interest are expressed 
and carried out through local initiatives. The Guam Coastal Management 
Program and island jurisdictions looks forward to working with the 
House Natural Resources Subcommittee on Fisheries, Oceans and Wildlife 
to advance these bill.
                                 ______
                                 
    Ms. Bordallo. You all get an A-plus for staying within the 
time limit.
    [Laughter.]
    Ms. Bordallo. It is very unusual, you know. We always have 
to tap this gavel several times.
    I want to thank Ms. Lujan for her statement, and all the 
rest of you. And I do have some questions that I would like to 
begin with.
    Mr. Kennedy, I want to thank you for your statement. 
Considering that the Administration does not support any of 
these bills, I am left to conclude that the Administration has 
developed its own thoughtful proposal to reauthorize the 
Coastal Zone Management Act in an appropriate manner.
    So, number one, can you please tell me when the 
Administration will be forwarding this proposal to Congress? 
And second, for the record, can you tell the committee how many 
legislative proposals the present Administration has 
transmitted to prior Congresses that would reauthorize the 
Coastal Zone Management Act?
    Mr. Kennedy. What a way to get started.
    [Laughter.]
    Mr. Kennedy. We certainly have, as you can tell from the 
testimony, done a lot of discussing about what a new Coastal 
Zone Management Act would look like. And we currently are 
drafting such a document, and it is going to be vetted 
internally. And we anticipate that some time in late spring, 
early summer, this would be vetted within NOAA.
    But I cannot tell you, and I do not believe that we have a 
schedule that would then prepare me to be able to say exactly 
when we would submit this to Congress.
    So right now the schedule is let us make sure that the 
ideas that we have, that we have gotten collectively from all 
of our visioning and with our partners, get put into a bill 
that we have some agreement with NOAA with. And then we would 
take the next step of attempting to determine how we will 
submit it forward.
    So I apologize, but I cannot give you a specific date when 
it would come to Congress. But we are working diligently to 
develop something internally that at some point would be 
prepared to come up.
    Ms. Bordallo. Mr. Kennedy, on the first question I asked 
you, you said that, you gave an affirmative answer. But in 
checking with the committee here, since this Administration has 
taken over, we haven't received any proposals. So I just want 
that on the record.
    Mr. Kennedy. Yes, ma'am. No, you have not. And I hope I 
made that clear. We are discussing where to go internally, but 
there has been no proposal.
    Ms. Bordallo. And on the second part of the question, you 
don't have a definite date as to when this proposal will be 
concluded. Do you think it will be within the year?
    Mr. Kennedy. I think we will have clearance through NOAA 
within the year. Again, I am not prepared to say when we would 
have it available.
    Ms. Bordallo. Should Congress then move ahead with whatever 
we have on hand? Would this be your suggestion?
    Mr. Kennedy. We would like to work with you. We would like 
to discuss what you have already submitted, but we do not have 
an alternative that we are ready to submit to you. That is 
true.
    Ms. Bordallo. Thank you. Thank you, Mr. Kennedy.
    I do have a question for Ms. Lujan. I want to thank you for 
your testimony this morning, and I appreciate your being here 
to give us an island perspective on some of the issues that are 
before the committee.
    Could you be more specific on how to strengthen the Coastal 
Zone Management Act to maintain the balance between coastal 
conservation and economic development?
    And the second part of the question is, how might greater 
consideration of cultural traditions be factored into this Act?
    Ms. Lujan. Thank you for the question. I think on Guam, 
especially within our programs on the islands, economic 
development and the balance with the environment is very 
critical. In all our decisions, we have to take huge 
consideration as to maintaining that balance.
    Island economies are very small. They depend a lot on the 
Federal government, and they depend a lot on tourism. And 
especially right now, we are in a very important phase of our 
history on Guam, where the military is going to be coming in. 
And there is a lot of pressure on our natural resources.
    But as we have proceeded through the last 20 years of the 
CZMA and the implementation within islands, we have developed 
strong partnership with all the other Federal agencies and 
local agencies in ensuring that decisions are made to take into 
consideration the most valuable asset of our economy. And 
fortunately, we see it often, because it is in tourism.
    And in tourism we are able to see that people come to our 
islands for sand and surf, clean water, clean air. And so in 
implementing it on Guam, you really have to take into 
consideration what it means when you put up a development, how 
much resources will be lost or gained by any kind of 
development. And it is very critical. It is a very delicate 
balance. It is also very political at times. And so sometimes 
we have to really do a good assessment about how that will 
work, and how it will infringe on very fragile island 
environments and ecosystems.
    The cultural aspect is so critical. As you see, there is a 
wide variety of culture and heritage, and identities and 
different types of people that we have to ensure get 
represented in the way of life that we want to have.
    I think the most important thing for islanders is having a 
good quality of life. We come to the mainland, and we see a 
variety of cultures and lifestyles. And I think when we go 
home, we appreciate the slower pace type of lifestyle; the 
ability to get engaged with the different types of communities, 
and also have the very wide variety of cultures that exist 
harmoniously within our islands.
    And in order for you to ensure that that is maintained, 
that needs to be incorporated in all your decisions, and in the 
way that we develop our island and the way that we determine 
what our economy is going to be. There are times I think that 
decisions are made where you, you may not assume the entire 
full benefit of an economy. Because knowing that you have to 
protect the indigenous people that live there, because their 
language and their culture are the reasons that we exist 
together in a community, and we have to protect them.
    Ms. Bordallo. Thank you very much, Ms. Lujan. That was very 
well put. And she brought out the fact that because of our 
distance from the mainland United States and our culture, I 
think whenever we legislate here in the U.S. Congress, we 
should take into effect the territories, and how they will 
react to the laws that we are putting into place.
    I would like to invite everyone standing back there--I 
never like to see people standing for a long period of time--
you can take the chairs up around the table here. Please come 
forward. Yes, you could be Members of Congress for a few hours.
    [Laughter.]
    Ms. Bordallo. I am sorry, I should have mentioned this 
earlier. The committee reminded me, and I forgot. Good, because 
it may be a long morning.
    The Chair now recognizes the Ranking Member, Mr. Brown, for 
any questions he may have.
    Mr. Brown. Thank you, Madame Chairman. Before I start the 
questions, I guess I would like to introduce our newest Member: 
Rob Wittman from the historic First Congressional District of 
Virginia. And welcome to the Subcommittee, and to the 
committee. I understand you have a fisheries background, and we 
look forward to your expertise.
    Thank you all very much. That was interesting dialogue. And 
like the Chairlady said, we are grateful that you all kept the 
train on time.
    And before I start my question, I certainly would like to 
welcome Ms. Lujan myself. We really appreciate the Chairlady. 
And she has been certainly encouraging me to come out to Guam, 
and one day I might. And I think in about two or three weeks, 
she is going to come to Myrtle Beach, which is my Congressional 
District. I represent the coast of South Carolina, and so, you 
know, we are certainly interested in coastal issues.
    I guess South Carolina has about a 200-mile coastline, and 
we are grateful in South Carolina that we have been able to 
partner with the state and the Federal and local efforts to 
preserve at least a third of that coastline. So we are grateful 
for that opportunity.
    And Mr. Bailey, I would like to get some input from you 
about how you address in your coastline there in Oregon. I know 
that we partner with the local people, particularly in the Ace 
Basin, which is about 135,000 acres, that we are encouraging 
them to--in fact, we have given them some incentives, financial 
incentives and tax incentives--to place their property into 
this, this bank, so to speak.
    And what we are doing, we are actually buying their 
development rights. So that we will know that those pieces of 
property will be preserved forever. And we have had Mr. Yawkey, 
you know, to preserve I guess about 10,000 acres up to 
Georgetown. And so we are blessed in our part of South 
Carolina.
    We recognize that my Congressional District is like the 
21st-largest in the Nation now. And of course, everybody, you 
know, in Oregon and other places too, everybody is wanting to 
move to the coast. And so it is absolutely important that we 
develop some process to, you know, be sure that we leave our 
next generation with some of those good qualities of life that 
we enjoy.
    But tell me how you address an issue.
    Mr. Bailey. Representative Brown, I appreciate the 
question. The coasts of the U.S.----
    Ms. Bordallo. Excuse me. Could I ask all the witnesses to 
come closer to their mics? Some are working, and some are not 
working so well. Thank you.
    Mr. Bailey. Are we on? All right. Is it rolling?
    In Oregon we embed our coastal management program really 
within a statewide system of land-use planning, where all 
cities and counties adopt local land-use plans. And those land-
use plans are based on a set of state-wide standards to provide 
for adequate housing, you know, economic growth, 
transportation, protecting agricultural lands, and so on.
    But on the coast, then, we are, about 35 years ago some of 
the principles were developed into law that really require us 
to set back from the ocean shore, that dynamic dune line, the 
beach erosion. Sands shift and blow over time. So we really 
rely on local governments to make those land-use decisions. We 
try to provide them as much information as we can. As Dr. 
Kooser said, the best available science on dune dynamics, how 
the beaches are moving, what we think are the erosion rates, 
and try to provide them with the best technical information on 
setting back from the bluffs, and so on. But the local 
governments, the cities and counties make that land-use 
decision.
    Now, is that going to be enough for sea-level rise and 
climate change? We are not sure it is. And this is really 
resetting the clock for all of us.
    So one of the things we are very interested in, and one of 
the reasons we are interested in Rep. Capps' bill, is we are 
really looking to ramp up our efforts on understanding this 
very dynamic ocean shore. And do we need different tools along 
that back there, or can we simply continue to rely on our 
current planning and zoning? Are we going to need to buy 
properties and help homeowners and property owners relocate? We 
are not sure of that yet. But we do need to continue to work 
with that local-level government.
    Mr. Brown. Are you all engaged in beach renourishment?
    Mr. Bailey. No, we don't. We have enough sand moving around 
right now, that so far we are not doing beach renourishment.
    Mr. Brown. So you are satisfying the ocean rise and the 
erosion by a setback, further setback line?
    Mr. Bailey. That is correct. That is our strategy for now, 
and I think that is probably the strategy we will pursue. We 
have been talking with a number of local governments, and they 
are already beginning to look at erosion rates along their 
ocean shore. We just had worked with a small city last week 
that adopted a much tougher ocean erosion safety line along 
their beachfront, and they did that themselves. They went 
beyond our recommendation, because they think it is important.
    Mr. Brown. So you don't make any effort to protect the big 
hotels and other properties along the seacoast?
    Mr. Bailey. The way our program works, Rep. Brown, is that 
when our coastal management program was passed in 1977, and 
enacted into law, the assumption was a property that was 
developed prior to that date, they are eligible for protection. 
Riff-raff, shorefront seawalls, whatever it takes. We call them 
tacos, the soft taco approach, where you have big fabric 
structures to protect.
    But after 1977, the assumption was that local governments 
and property owners were on notice that if they built in this 
environment, they needed to be built back far enough to take 
into account erosion rates, and sort of sand over topping, 
and--that has been, by and large, successful. We have gotten, 
there is a couple places on the coast where it is dramatically 
different. Pre-1977, those people are ringed with riff-raff. 
After 1977, they are well back of that line, and it has not 
been a problem.
    But again, as I say, sea level rise is going to recalibrate 
all of our assumptions, I think.
    Mr. Brown. Madame Chairman, I know my time is gone. I just 
would just leave with one further question.
    Other than dollars, do you think the Federal government 
should have any further reinforcement, I mean enforcement 
responsibilities?
    Mr. Bailey. Enforcement? At the current time, the Federal 
government, at least as far as beachfront protection, they are 
not involved. It is strictly a state and local decision. And 
no, I don't think anybody is ready for additional, or for new 
Federal intervention in that process. And I am not sure they 
want it, either.
    Ms. Bordallo. I thank the Ranking Member of the committee, 
Mr. Brown.
    And now the Chair recognizes Congresswoman Lois Capps of 
California.
    Mrs. Capps. Thank you, Madame Chair. Before I begin, could 
I inquire that you have such an excellent panel of witnesses, 
will you be having a second round?
    Ms. Bordallo. Yes.
    Mrs. Capps. OK. Then I can go as long as I want. I have 
several questions for two witnesses.
    [Laughter.]
    Mrs. Capps. I won't go as long as I want in this round. I 
will note that I have another chance at it.
    I will start, then, with Mr. Kennedy. I am going to get 
specifically to an issue in southern California today.
    Earlier this month the California Coastal Commission 
objected to a plan to build a toll road through San Onofre 
State Beach in San Diego County, because it was inconsistent 
with our state's coastal program. That project sponsor, the 
Transportation Corridor Agency, has appealed the decision to 
the Secretary.
    This is the first appeal to the Secretary under the 
regulations adopted in the Energy Policy Act of 2005. So my 
questions are asking you to explain the timeframes on this 
appeals process, and how the Secretary will develop the record 
to make a decision in this particular appeal of the case.
    Mr. Kennedy. Yes, indeed, this is the first appeal. And 
basically what has happened is there is a limited timeframe now 
associated with this appeal process.
    Mrs. Capps. Well, that is what I want to inquire, the 
specifics of that timeframe.
    Mr. Kennedy. Yes. And so that timeframe initially is 250 
days.
    Mrs. Capps. And we are already, the clock is already on?
    Mr. Kennedy. Well, the clock is just starting now, yes. 
Just at the receipt of the actual appeal, then the clock 
starts, and we have 250 days.
    There is the potential for extensions that would run that 
out as far as 325 days, but that is it.
    Mrs. Capps. And that is the absolute maximum?
    Mr. Kennedy. Yes, that is the maximum. By then we have to 
have a decision.
    So what happens is, once the appeal is received, we----
    Mrs. Capps. Has the appeal been received?
    Mr. Kennedy. Yes, there has, one has just been received.
    Mrs. Capps. Yes, that is what I----
    Mr. Kennedy. I don't know the exact date, but this month.
    Mrs. Capps. OK.
    Mr. Kennedy. Then, basically, a schedule is set to start 
the process. And the process includes receiving input from all 
affected parties. They basically have the right to submit 
testimony, if you will, for each of their particular positions. 
And then, within that timeframe that I just mentioned--and 
there is a schedule that is all set on how this works, works as 
in getting the materials in and then processing and developing 
the whole event--the Secretary makes a final ruling within that 
timeframe.
    Mrs. Capps. And all the parties do understand this, as of 
right now.
    Mr. Kennedy. I believe they do, yes.
    Mrs. Capps. OK. I just have to say that I hope, if you can 
pass the word along, that the Secretary won't override this 
objection. Because it goes to the heart of what the CZMA is all 
about.
    This project, which has been proposed, is inconsistent with 
the objectives and purposes of our CZMA. And one of the core 
principles, and I am quoting now, of the word ``visioning,'' of 
the visioning process, was retaining the state's rights through 
Federal consistency. And this is, as I said, the hallmark of 
the CZMA.
    Now I will turn to another topic with you, please. A 
regional governance received an A-minus, and that was actually 
the highest grade, from the Joint Ocean Commission yesterday. 
And that is good. And I want to ask you, how can the next CZMA 
reauthorization legislation support this kind of partnership, 
which has been complimented, if I may interpret that, to 
address regional issues? How can it compliment, for example, 
what is happening with the West Coast Governors' Ocean Plans?
    Mr. Kennedy. I was at the roll-out of the report card, and 
I think the Federal governance got a D.
    Mrs. Capps. Yes, that is why I am highlighting the 
positive.
    Mr. Kennedy. So I think we would be foolish if we haven't, 
and we have, looked at some of these regional endeavors. And so 
I would say that we have looked closely. NOAA has been involved 
in many of those regional efforts.
    Mrs. Capps. That is right. Can they, is it too much to hope 
that they would be included in the reauthorization, or re-
strengthening of that?
    Mr. Kennedy. I think specifically naming them might be too 
much to hope. But certainly as we have thought about 
reauthorization, a regional component to support what is 
already out there--not to replace, but to support----
    Mrs. Capps. Right, right.
    Mr. Kennedy.--and to somehow be able to have built in the 
idea that either direct or funding support be made available to 
continue to sustain and develop those very successful programs, 
is something we do endorse.
    Mrs. Capps. That is good to hear. Thank you very much. And 
I am counting on that second round, Madame Chair.
    Ms. Bordallo. You will get the second round.
    The Chair now recognizes Mr. Wittman from Virginia.
    Mr. Wittman. Thank you, Madame Chairman.
    Mr. Bailey, I just wanted to ask you a question to get your 
perspective on things. In Virginia the CZMA program has been a 
very useful program through the years; it has helped us to 
protect wetlands. It has funded some of our non-point source 
protection programs. It has helped us with oyster reefs, and it 
has helped us in a mapping system there. So we see a number of 
utilities with it.
    We also see some continuing challenges in our coastal 
areas. Just in the Virginia area, we have had a 60 percent 
population increase in our coastal areas, which creates a 
number of significant challenges.
    And I wanted to get your perspective on how you see this 
increasing population in our coastal zone affecting natural 
resources. And then, since its last reauthorization, I want to 
know if you believe the CZMA has been able to keep up with 
these trends, to make sure that we are able to offset the 
impacts of these population increases in our coastal zones.
    Mr. Bailey. Thank you for the questions, Congressman. To go 
to the second part of your question first, in general, the 
framework of the Coastal Management Act, as we play it out in 
Oregon, I think gives us at least the adequate sort of legal 
tools and planning processes, and all that stuff, from the 
ground level up to the state level, to do the job.
    What we lack in the middle are the resources to really 
identify the key resources that are at risk. We have 
communities, as you are suggesting, that are building out like 
crazy. Although, interestingly enough, what we are finding on 
the Oregon coast is that in many communities, the majority of 
those are second homes and vacation homes. So we are using up a 
big footprint of ground, and impacting resources, for second 
homes and retirement, or just simply investment. And we are not 
getting the kind of livable communities that we need.
    So when real people, as it were, are looking to develop 
communities, to live there, to work there, then we are 
impinging on some of the wetlands and the forested areas.
    What we do in Oregon is we require--well, first of all, it 
is a little bit of an anomaly probably nationally. We have 
urban growth boundaries around even the smallest of the coastal 
communities. And those are projected based on their 20-year 
assumption about population.
    Well, along comes this demand for, really, second-home 
housing that fills up those urban growth boundaries. So when 
the City of Yachats or the City of Newport was doing a 
population estimate, suddenly they are having to expand that 
urban growth boundary.
    So we have been providing them funding, although not nearly 
enough, to do the inventories of what we call buildable lands. 
Where are the buildable lands? We want to stay out of the 
wetlands, we want to stay away from steep slopes. We want to be 
providing efficient sewer and water services, so that we are 
not leap-frogging out and then relying on septic tanks.
    So the whole buildable lands inventory thing, we need help 
on that. We have the process in place, but we don't quite have 
the tools to do it.
    So that is really how it works. We are relying on good 
information, a good process, and then making, at the city 
council level, that tough decision about what is going to get 
developed, and then what is not.
    Mr. Wittman. Second question.
    Mr. Bailey. Yes.
    Mr. Wittman. You talked a little bit earlier about local 
land-use planning and the link with CZMA activities. Do you 
believe that there is, that there is an effective mechanism 
within the current CZMA to give the tools to localities to make 
land-use decisions in a way that will allow them to consider 
the impacts of this development in a meaningful sort of way?
    Mr. Bailey. Again, Congressman, I think it is a question of 
the structure is there. I feel pretty good about that. And I 
have been a local elected official myself, making these 
decisions. And what you need is the information, the ability to 
really back up the decision you are going to make, because the 
public is going to demand it. At least in Oregon, they don't 
tolerate a sloppy decision on land use. You have the neighbors 
coming in, you have interest groups coming in.
    So it is really a question of better information, doing a 
better job of identifying the key resources and impacts, and 
then educating and informing the local decision-makers as to 
the consequences of their decision, and the balance they have 
to make. I think the structure is there. We need a reenergized 
and more, really, resources, as they say, in the system to make 
it work.
    People want to do the right thing. But as my colleague here 
said, they need better information to do the job.
    Ms. Bordallo. Thank you very much, Mr. Wittman. I have a 
couple of questions, and then we will go through a second 
round. So get ready with your questions.
    Mr. Bailey, I want to thank you for your statement. And I 
would like to ask you about the coastal states, and I want to 
add, and territories, organization. And NOAA's national 
stakeholders workshop.
    What was the tenor of these meetings? Were people demanding 
action?
    Mr. Bailey. Madame Chairwoman, I think it is safe to say 
that in some respects, they were. I mean, nobody had picket 
signs saying we demand action. But they were enthused, they 
were concerned. They were happy for, and really thrilled with, 
the opportunity to weigh in on such an important issue.
    And I think what we heard was, they weren't there just to 
take up space. They were there because they want action. And I 
think your characterization of it as demand I think is correct.
    In fact, we were amazed that even in what I would consider 
large urban areas, where people sometimes can get disconnected 
from the real world around them, people were there, and 
passionate.
    So I think your characterization of demand is probably 
accurate.
    Ms. Bordallo. Good. In the Coastal States Organization's 
proposed framework for coastal zone management, you describe 
the need for states to prepare multi-year--states and 
territories--to prepare multi-year strategic plans to address 
priorities, such as protecting and restoring coastal natural 
resources.
    Have all of the states and territories signed on to this 
idea? And would it be mandatory or voluntary to prepare these 
multi-year strategic plans?
    Mr. Bailey. I think it is safe to say that all the states 
and territories agree with the idea that strategic plans are a 
good idea, and that we ought to be doing them.
    Now, the level of mandated outcomes from those is, I think, 
still open to debate. But I don't think anybody disagrees with 
the idea that we need to know where we are going in five to six 
years. It is often, sometimes we talk about 10 years, but who 
knows.
    At least in the five- to six-year arc, I think it is safe 
to say that there was no disagreement around the table that 
strategic planning can help us all be better and more effective 
in what we do.
    Now, what is within those plans and the degree to which 
states have flexibility to identify their own strategies to 
meet these objectives, I think that is the key. And that is 
what we are talking about, is that yes, Oregon's strategic plan 
will look different from California's, will look different from 
Guam's, will look different from Maine's. But we are going to 
make those strategic plans, we are going to make them fit our 
needs, based on these national priorities.
    Ms. Bordallo. Thank you.
    Mr. Bailey. You are welcome.
    Ms. Bordallo. Dr. Kooser, I want to thank you for your 
statement, especially your insights into the National Estuarine 
Research Reserve System.
    My question to you is, in terms of building capacity among 
coastal decision makers, can you explain how the reserve's 
coastal training program interacts with this, if at all, with 
NOAA's Coastal Services Center?
    Ms. Kooser. Yes. I am glad you asked the question, thank 
you.
    In my longer testimony I, in fact, named a number of our 
partners, because we not only partner with NOAA's Coastal 
Services Center, but also with Sea Grant and the coastal 
programs within NOAA, as well as other sections of NOAA that 
have programs that relate to the work that we do.
    And those partnerships are very vital for us, because one 
question that I am often asked is, why are there different 
parts of NOAA that are doing what may seem to be similar 
activities, in the sense of well, gee, are we really 
coordinated with each other.
    And I want to emphasize that the amount of work that we 
need to do in order to accomplish that kind of coastal training 
program is so large, we need to engage all of those different 
parts of NOAA, because all of us are contributing a different 
element of the overall program that we need to be able to make 
happen.
    In other words, there is so much work to be done, we are 
all doing different parts of it. And because we are 
collaborating in partnership with each other, we are actually 
achieving that synergy that you want to have in effectively 
using resources, as we work on programs together.
    The Coastal Training Program has been one of our biggest 
success stories, and I feel like the demand for our training 
programs is just growing. And as we continue to deal with the 
kinds of issues that Mr. Bailey and others have described, I 
think that we are going to have even more people wanting to 
have a workshop that helps them figure out oh, what do I need 
to do about this aspect of sea-level rise.
    And so with that, I will ask if I have, if you have any 
further question.
    Ms. Bordallo. Thank you very much, Doctor. All right. We 
are having votes in about five minutes. However, as a Territory 
Representative, I do not vote on the main legislation; I vote 
on amendments only.
    But our Ranking Member will have to leave, and he does have 
a couple of questions here. So Mr. Brown, please go forward.
    Mr. Brown. Thank you, Madame Chair. I was interested in, I 
guess, Ms. Kooser, on your assumption about the rise in the 
ocean. And do you have a feel of how fast it is rising, and 
whether there is any deterrent to that acceleration? Or, how do 
you sense it? Are you all tracking over there in San Francisco 
the rise, and exactly how much is rising a year?
    Ms. Kooser. Thank you for your question. And I wanted to 
say that my colleague is here from the Bay Conservation and 
Development Commission, and I want to acknowledge the work that 
they have done in San Francisco Bay. Because they have actually 
developed maps that show anticipated sea-level rise, so that 
you can look at a before, during, and after, so to speak.
    The first picture is how the San Francisco Bay looked in 
the 1850s, and then, with development and landfill, how the 
shape of the bay changed as it was filled in. But now that sea 
level is rising, it is not surprising that the waters are 
anticipated to flow back into the areas where they had once 
been. And so the after picture looks surprisingly similar to 
the original picture.
    And to answer your question about the rate of change, there 
are many different kinds of models that are out there with 
information regarding the factors that would affect sea-level 
rise. And that is a little bit harder to predict, but we have a 
couple of different variations on that, what that map would 
look like year by year, based on the different models that are 
in use.
    One thing I want to also add is that there is work now on a 
Bay Area Climate Change Action Plan. And I think that that is 
one of the ways in which we are addressing the anticipated sea-
level rise.
    The National Marine Sanctuary Program is collaborating with 
the National Estuarine Research Reserve Program and the Coastal 
Program, and also the Local Association of Bay Area Governments 
and other agencies like the Air Resources Board, so that we can 
have a program for addressing climate change in the Bay that 
addresses each of those separate elements.
    And I think that that is very important, because there are 
many different ways in which each person, each locality might 
be thinking oh, my gosh, what are doing about sea-level rise? 
But then the question becomes, how do we integrate that at a 
regional level, so that we can be more effective in the use of 
the resources, the financial resources and the people resources 
that we have to actually address that problem.
    Mr. Brown. So you feel like that this is a cyclic movement 
of the oceans. I know in South Carolina, for instance, I guess 
probably about at least 80 miles inland one time used to be 
under the sea. I mean, we got evidence of, you know, fossils 
and marine life, and this sort of thing. And so we are not sure 
exactly whether this cyclical movement will cause it to be 
impacted that much, and I guess that could happen over 
thousands and millions of years really, rather than just, just 
a short period of time.
    So I am looking at the pictures now, of your assumption 
that something is going to happen within 100 years, do you 
think?
    Ms. Kooser. Yes. That is my, that is my----
    Mr. Brown. And so you all are planning now, you are going 
to put seawalls up, or are you just going to let the water come 
in normal?
    Ms. Kooser. You have asked a great question, because 
obviously one way of adapting to the sea-level rise is to build 
seawalls. And if you have the maps in front of you, you will 
notice that the San Francisco International Airport and the 
Oakland International Airport are two obviously important 
infrastructures that we see anticipate being underwater, 
because of their location in the Bay.
    Mr. Brown. Sure, right.
    Ms. Kooser. And so those are, given the importance of that 
to our economy, it is not surprising that we would be thinking 
about how best to protect those kinds of infrastructure 
investments, so that we can maintain our economy.
    And so I, in my own mind it is like a patchwork. As you 
move around the Bay, you are thinking well, this is where we 
can build seawalls to protect this, and then maybe we will have 
setbacks here. Or maybe this is where development rights will 
be bought up.
    For example, in the Delta, that is a question right now, 
because there is a lot of pressure for development within the 
Delta of the San Francisco Estuary. And people are anticipating 
that that is an area where there will be a lot of subsidence. 
And so as the land is already subsiding, there are already 
levee systems developed in the Delta, and those are going to be 
under increased pressure with sea-level rise.
    And so that is going to call for a different approach to 
addressing both the need for development and the environmental 
resource protection. Again drawing on my comments from my 
colleague here from Guam about the balance between the two.
    Mr. Brown. Right. Well, thank you very much for that 
insight.
    And Madame, if I could just ask Mr. Kennedy one question. I 
didn't have a chance to do that yet today. Thank you for being 
here.
    But H.R. 5452 appears to change the existing role of the 
states and the Federal government in the Coastal Management Act 
as it relates to planning for alternative energy activity.
    Under the bill it appears that if states can survey in 
Federal waters and make the determination about what areas of 
Federal waters would be off limits to alternative energy 
facilities, does the Administration support such a role 
reversal?
    Mr. Kennedy. I think on the surface, to your statement the 
answer is probably, is no. We don't support that.
    However, in the discussions that we are having, we believe 
that in thinking through where we are going to go with the 
Coastal Zone Management Act, that there has to be more of a 
partnership in that interface; that we have to make sure that 
both parties are communicating and discussing those types of 
issues on a much more regular basis, with better information 
shared between them.
    So from that perspective, we certainly support there has to 
be more of a dialogue, and states have to be at the table as we 
discuss what is going to happen off-shore, because of the 
impact.
    Mr. Brown. Right. Well, let me tell you, thanks to the 
panel. This has been a great dialogue. And Madame Chair, I 
appreciate you putting it together. And I have to apologize for 
leaving. I will leave Mrs. Capps here.
    Ms. Bordallo. I thank the Ranking Member. He has to go and 
vote, and he has another appointment. But I will give Mrs. 
Capps the opportunity. She has to also vote, but the committee 
will continue.
    Mrs. Capps. Thank you, Madame Chair. Mr. Bailey, you 
discussed, as you discussed, there is strong momentum to bring 
new off-shore energy sources on line. I want to support that, 
as you know, too.
    But I also want to support development that occurs in a 
timely manner, in the right locations, and fully protects the 
public's interests.
    You are the expert, because you are a coastal manager. And 
I want you to tell us now why a bill, the bill I have 
introduced, H.R. 5452, could lead, and hopefully will lead, to 
responsible off-shore renewable energy development.
    I have three other questions, so a brief answer would be 
great.
    Mr. Bailey. Thank you very much. Yes, we are facing this 
head-on in Oregon. We have seven applications in the works 
right now for off-shore wave energy development.
    As you can imagine, these are through the FERC process, the 
Federal Energy Regulatory Commission process, where the 
applicant basically doesn't have to talk to anybody. They can 
file an application, and the next day the crabbers, crab 
fishermen, local communities are saying, holy cow, that is 
right in the middle of my, our valuable crab grounds.
    So actually, we have gotten the attention of the industry, 
I must say. But what we need now is to back up and do some 
comprehensive planning; to take a look at the current uses, the 
resources of these areas. The sweet spot for wave energy 
development in Oregon happens to straddle the 50-meter isobath, 
which in some places is half in state waters and half in 
Federal waters. And on either side of those two, it is a 
different regulatory regime.
    So we have to do some good planning to account for 
commercial fisheries, to protect those; to locate energy 
development; and to protect the marine wildlife habitats, as 
well.
    Mrs. Capps. Let me ask you an even more specific question.
    Mr. Bailey. Yes, ma'am.
    Mrs. Capps. Off-Shore Renewable Energy Coalition suggests 
that we encourage states to dedicate specific personnel to off-
shore renewables as a way maybe to get, and put that in the 
legislation. Many programs are operating with little funding, 
and it is happening now.
    What do you think of this?
    Mr. Bailey. Yes.
    Mrs. Capps. Yes. OK.
    [Laughter.]
    Mrs. Capps. Took care of that one. Let me turn to another, 
the other bill that I have introduced, the Climate Bill, which 
will help states develop adaptation plans, which will include 
several factors.
    Some states have expressed interest in perhaps going 
further than adaptation planning, and wanting to develop 
themselves reduction or mitigation strategies. Do you think we 
should allow more flexibility in the bill to help accomplish 
this kind of goal?
    Mrs. Capps. Oh, I think we can use all the tools we can 
get. And if a state would like to use some funding to build 
capacity to do that kind of mitigation and reduction 
strategies, they certainly ought to be able to do it.
    Our big--in the Coastal Management Program in Oregon, we 
are going to be working on adaptation. We are not going to be 
working on----
    Mrs. Capps. You are going to.
    Mr. Bailey.--mitigation and reduction. Except to say that 
throughout the statewide land use program, trying to link land 
use policy to transportation and other ways of reducing the 
impacts of automobiles, for instance, is a way of reduction.
    Mrs. Capps. Exactly.
    Mr. Bailey. But primarily we are interested in adaptation 
right now.
    Mrs. Capps. OK. A final thought that I would like your 
comment on.
    This is what you are talking about, and what I hope we can 
get to, is really preparing for advanced planning. Or it is 
really kind of like pre-disaster mitigation, isn't it? It is 
cheaper to do, and I think about how you set out so smartly in 
Oregon to protect your coastline right from the beginning.
    This is what we need to do now as we think about renewable 
energy. It is cheaper to do the planning and prevention, right, 
than to try to fix it after somebody makes an unwise decision.
    Just one final word about, how could the Federal government 
give the right kind of assistance in this area? To the regions, 
to the states.
    Mr. Bailey. To the states. Two things. One is, obviously 
some additional financial tools and financial resources that we 
can use at the local level to do that kind of assessment. And 
as you say, if a city or a county is going to be building for 
instance, and there is a number of them facing this, new water 
treatment facilities or sewage treatment plants, they are down 
in that zone of vulnerability. And if they are going to be 
using Federal money to help leverage their investment, we don't 
want them putting it in the wrong place.
    Mrs. Capps. Right. You want to make the decisions, but you 
need some assistance to help make the right decision.
    Mr. Bailey. We do. And we likewise need, then, the ability 
to rope in a number of the other Federal agency programs, not 
just NOAA.
    Mrs. Capps. Right.
    Mr. Bailey. But the Corps of Engineers, Transportation and 
others----
    Mrs. Capps. Right.
    Mr. Bailey.--to help us in these decision making so we are 
not working at cross purposes.
    Mrs. Capps. That goes right back to my question to the 
Representative on the road proposed to go through--everybody 
has to be at the table.
    Thank you so much, all of you, for being here today.
    Mr. Bailey. Thank you.
    Ms. Bordallo. Thank you. I thank the gentlelady from 
California, Mrs. Capps, and I know she has to run off to vote. 
But we are going to keep this Subcommittee meeting ongoing. I 
am a Territorial Representative, and we only vote on amendments 
on the Floor.
    All right. I have, my first question here is for Ms. Lujan.
    Ms. Lujan, I agree that monitoring effectiveness of coastal 
programs through measures and evaluation is important. Do you 
think that the island jurisdiction should be treated 
differently with regards to performance criteria?
    Ms. Lujan. I think that it is important that all of us meet 
national standards, and that we all--in many other programs, 
performance measures are incorporated.
    Our agency deals with different sections or different 
varieties of Federal programs. And a lot of them are social 
programs and educational programs. And some of those things are 
very easy to count. The performance measures for them are how 
many students receive this, or they take a test. It is easy to 
evaluate that.
    I think on the Guam and other islands, and especially the 
way that our coastal programs are treated, it is very difficult 
for us to obtain some types of performance measures that are, 
they don't necessarily apply to islands.
    One of them happens to be, for example, on Guam public 
access to beaches. On Guam, in 1971 I think Paul Bordallo and 
Carlos Titan introduced the Seashore Reserve, which set aside 
10 meters from the mean high-water mark as public property.
    And so we don't necessarily have access issues. And I think 
that this is the same in many other islands, as well. And some 
of that, in American Samoa for example, the beaches and the 
coastal, and the direct, the waters belong to the communities.
    Some of these things that are very different from other 
states and territories--I mean, other states--they don't 
necessarily apply to Guam. And so I think there needs to be in 
place in the performance measures flexibility, and be more 
adaptive to these island situations. Because if we are going to 
count how many public access, it is all accessible to the 
public. It is only on Federal properties. And I mean, it is 
very difficult to try to get public access on Federal 
properties. We don't have enough funds to have as many lawyers 
as the Federal government does to have that.
    [Laughter.]
    Ms. Lujan. And so I don't know. If the CZMA program is 
prepared to give us the funding to do such a thing, I think 
then we should be able to do that.
    But our island won't grow. I know in Hawaii, their island 
pretty much grows because of the volcano. But it won't, we 
cannot see any kind of measurement. We already are at the 100 
percent of all our properties. And so that particular component 
of the performance measure may not apply to Guam, or may not be 
standardized the way that you would do it.
    It would be nice if it is as easy as counting, but it is 
not. In many instances it is not. Certain types of legislation 
that states have, that they are able to enforce, are not 
necessarily.
    And I think that one of the things that is so critical that 
we can't measure are the value of the public, and how much that 
they have embraced some of the policies or some of the concepts 
of allowing certain types of development to happen, or certain 
types of practices to occur that is not necessarily measurable. 
The aesthetic value, the cultural value of a resource. You 
can't necessarily pinpoint that in an Excel spreadsheet.
    And so I think not just for territories, I think certain 
types of consideration should be given for jurisdiction in 
general.
    Ms. Bordallo. Thank you, Ms. Lujan, for those very 
excellent comments.
    Mr. Kennedy, I have a few questions before we release the 
second panel and go into the third panel.
    You recommended in your statement that each coastal state 
and territory's planning area should be expanded based upon 
uniform national criteria that would include coastal watersheds 
and the territorial sea. Can you further elaborate, or describe 
the factors or the elements that would make up these national 
criteria?
    Mr. Kennedy. As I mentioned, we still are discussing this, 
and there is no finalized plan. But conceptually, we talked a 
little while ago about regional, and how we have seen 
tremendous success in regions getting together to address their 
common problems.
    And that is somewhat what we are talking about here, in 
that we think that a number of the issues, certainly as we have 
talked to folks in our business around the country, many of the 
issues really transcend a state boundary or an identified state 
coastal zone. They are a watershed issue. And that watershed in 
many cases is bounded by two or three states.
    And so what we are looking at is an attempt to try and 
embrace the issue as it relates to the whole watershed, and not 
just stop the debate and/or the coordination at an individual 
state boundary.
    And so conceptually, what we are looking to do is try and 
encourage that broader look at some of the issues.
    Ms. Bordallo. Thank you, Mr. Kennedy. I have another 
question. If I understand the Administration's position, NOAA 
would maintain some level of base funding for coastal state 
management programs; but over time, a larger percentage of 
funding would be awarded competitively.
    Exactly what percent of funding does the Administration 
intend to aware competitively? Do the coastal states support 
this transition to a competitive process?
    Mr. Kennedy. We don't have an exact percent, but again I 
can talk to you a little bit about the concept.
    And that is that we basically have three tiers of funding. 
And one would be kind of a base or maintenance fund, which, 
quite frankly, as we have developed this whole idea, we have 
said from the beginning that the funding that we currently have 
is not adequate to address the kind of problems that we are 
asking the states, and the states are telling us that they have 
to address.
    So as I talk about this issue, I must tell you that we 
would, were projecting that the existing funds could not make 
this whole process work the way that we are describing it. So 
you would have base funds that are roughly maybe what the 
states currently get to maintain their infrastructure.
    Then there is a second tier, which is to help assist in 
this planning concept that we are talking about. We don't 
expect that to be done with no new money; there has to be some 
money to actually develop these plans, do the assessments, and 
get that right.
    And then the third tier is competitive funding. And that, 
then, would be that tier--and again, no percentages--where we 
are looking at trying to encourage some of these regional 
discussions, and helping with maybe supporting funding more 
specific proposals to look at our priority areas. And that 
could be done, again, across states or by individual states. 
Put that more on a competitive basis, to try and focus some of 
those issues.
    Ms. Bordallo. Mr. Bailey, what is your perspective on this?
    Mr. Bailey. Excuse me. I think it is safe to say that CSO 
definitely supports this approach. We want to maintain core 
program functions. That is going to take some serious money 
that is not sort of open to competition.
    The states' programs are embedded in law. We have local 
governments working on this. We need to maintain the core 
capacity.
    David is right that the next level of strategic planning is 
going to take significant resources, especially the first time 
out. And we want to be able to do that, and have the best 
possible plan.
    The third level, the competitive funding, I prefer to use a 
different term than competitive, which often implies winners 
and losers. I like to think of it, and I think most of the 
states are thinking of this more as proposal-driven funding. 
What do we intend to do, and what are the outcomes to meet 
these various objectives that we have identified in our 
strategic plan? And those are going to take significant more 
dollars to accomplish if we are going to get the job done.
    But in general, we are on the same page as NOAA in terms of 
thinking about the three levels of funding that it is going to 
take.
    Ms. Bordallo. Thank you, Mr. Bailey. You know, competitive 
is what drives people, you know. And also, the same competitive 
model, would that be applied to grants awarded to the National 
Estuarine Research Reserves? Mr. Kennedy or Mr. Bailey? Yes, 
Dr. Kooser.
    Ms. Kooser. Thank you. The National Estuarine Research 
Reserve System is a part of the CZMA, as are the coastal 
programs. And so generally, our funding has had the same types 
of, the way it has been given to us has been similar over time.
    In other words, we have a core amount of money that goes to 
fund our programs. Although I will say that at the present 
moment, the core amount of funding is not really adequate to 
address all of the needs that the 27 Estuarine Research 
Reserves presently have at the moment, and there are 
anticipated that we will have more reserves coming on line. So 
I will say that as far as looking at the core funding part of 
it, we would welcome an additional amount of resources to just 
do what we are doing now.
    And then, in keeping with what Mr. Bailey has said, I would 
say that we recognize that to do the kinds of needs assessments 
that you would want to have to compliment what is going on in 
the states, that the reserve program would be able to really be 
well-positioned to absolutely support the coastal programs in 
doing that. Because when they are talking about having baseline 
assessments, it is the Estuarine Research Reserves that have 
been the heart of doing research that is going to inform the 
types of data needs that would be part and parcel of those 
kinds of strategic plans.
    And so I see us as a key partner in actually helping the 
coastal states to do those kinds of strategic assessments. And 
so we, too, would be thinking about participating in that 
second tier.
    And I agree with, again with Mr. Bailey, about proposal-
driven, in the sense of if there is more funding available, 
there are some states that have--for example, in California we 
have three National Estuarine Research Reserves, and we really 
collaborate very well together. And it is quite possible that 
we would be able as a group, for example, to say you know, 
there is this really excellent project that we can take on. And 
if we had more resources available, we could do that.
    Whereas another state might feel like well, in this 
particular planning year, we are not necessarily able to do 
that. And so having that kind of flexibility and being able to 
apply for that kind of additional funding would be a welcome 
resource.
    Ms. Bordallo. Doctor, if you could give me just a quick 
answer to this. When will the new reserves be designated?
    Ms. Kooser. The new reserves that I have been referring to 
is Wisconsin, and they are in the designation process now. And 
I do not know the exact anticipated date of their designation.
    The other state is Connecticut, and they are still in the 
planning process.
    Ms. Bordallo. Thank you very much, Doctor. And I would like 
to remind the witnesses that whenever we refer to the states, 
we must add the territories.
    [Laughter.]
    Ms. Bordallo. It is very important. And you know, you can 
get into a lot of trouble with legislation here in Congress. If 
it is not specifically stated that the territories are 
included, then I have to do my extra work.
    Ms. Kooser. Thank you for the reminder. Because in fact, 
there is a National Estuarine Research Reserve in Puerto Rico. 
So thank you.
    Ms. Bordallo. Very good. Mr. Kennedy, I will just wind up 
this panel with a question for you, and I would just like to 
have a straight yes or a no on these questions.
    Mr. Kennedy. Oh, boy. OK.
    [Laughter.]
    Ms. Bordallo. Just a yes or a no. Regarding H.R. 5452, for 
the record, the surveys that states and territories would 
develop for renewable energy would be entirely voluntary. Is 
that correct?
    Mr. Kennedy. I don't know the answer to that, I am sorry to 
tell you.
    Ms. Bordallo. That is all right, you just don't know.
    Mr. Kennedy. Really I don't think I should answer that, 
because I don't know the answer.
    But I will tell you what. I know this much. For the record, 
we will be happy to get back to you with the answer.
    [Laughter.]
    Ms. Bordallo. Also, these surveys would only indicate areas 
for renewable energy that would be consistent with a state and 
territory coastal program. Is that correct?
    Mr. Kennedy. Again, I think I need to get back to you, for 
the record.
    Ms. Bordallo. All right. The third one.
    Mr. Kennedy. Oh, boy.
    Ms. Bordallo. Finally, nothing in H.R. 5452 changes 
existing Federal or state or territory permitting or licensing 
authorities. Is that correct?
    Mr. Kennedy. I think that is correct. But again, for the 
record, I want to make sure and confirm that, and get back to 
you.
    Ms. Bordallo. OK. Should we give him a report card grade?
    [Laughter.]
    Ms. Bordallo. Thank you, Mr. Kennedy and Mr. Bailey, Dr. 
Kooser, and of course Ms. Lujan, for your testimony. You had 
very, very excellent testimonies today.
    Ms. Lujan. Thank you.
    Ms. Bordallo. Thank you. I would like to call on the last 
panel, the third panel. Who is the third panel? Thank you.
    The third panel includes Dr. Robert Stokes, the Chairman of 
the Board, Restore America's Estuaries; Mr. Jim Connors, Senior 
Planner at Maine State Planning Office, Maine Working 
Waterfront Coalition; and third, Ms. Carolyn Elefant, General 
Counsel for the Ocean Renewable Energy Coalition.
    We will begin, and I hope you are as good as the last 
panel. Five minutes. We do include your full formal statement 
for the record.
    I recognize Mr. Stokes to testify. And there is a timing 
light in front of you, so if you would be aware of that. And 
you can begin.

  STATEMENT OF ROBERT STOKES, CHAIRMAN OF THE BOARD, RESTORE 
                      AMERICA'S ESTUARIES

    Mr. Stokes. Thank you, Madame Chairwoman. My name is Robert 
Stokes, and I am Chairman of the Board of Restore America's 
Estuaries. I am also the President of the Galveston Bay 
Foundation, located in Webster, Texas. We are a non-profit bay 
conservation organization.
    I am pleased to be here today to discuss Restore America's 
Estuaries comments regarding legislation you are considering to 
amend the Coastal Zone Management Act.
    Restore America's Estuaries is a national alliance of 11 
community-based organizations that protect and restore coastal 
and estuarine habitat. We join with government agencies, 
corporations, civic organizations, scientists, and local 
volunteers to conduct restoration projects with real impacts.
    Since its creation, Restore America's Estuaries and its 11 
member organizations have invested more than $28.5 million in 
local restoration projects, restored more than 56,000 acres of 
estuarine habitat, and mobilized more than 250,000 volunteers 
across the country in coastal restoration and education 
activities.
    Estuaries and other coastal ecosystems are critically 
important across the country, both ecologically and 
economically. Estuaries provide essential habitat for over 75 
percent of the nation's commercial fish catch. They help 
stabilize shorelines and provide flood control, and they 
provide numerous recreational opportunities.
    While incredibly valuable, estuaries are in a perilous 
state due to an increasing level of stress. Some of the causes 
of the decline in the health and productivity of these systems 
include wetland loss, shoreline armoring, sea-level rise, 
pollution, invasive species, and over-harvesting of resources.
    A growing threat to our nation's estuaries is climate 
change. Climate change threats to estuaries include changes in 
rainfall, temperature, sea level, soil conditions, and 
especially sea-level rise.
    Restore America's Estuaries strongly supports 
reauthorization of the Coastal Zone Management Act. We need to 
modernize and bring change to the CZMA by providing new tools 
to match today's critical needs. We believe these tools can be 
far more action-oriented, and involve a broader array of non-
governmental partnerships than currently exists.
    Restore America's Estuaries respectfully requests that you 
consider the following key recommendations.
    To begin with, we have seven key recommendations regarding 
H.R. 5451. The first is straightforward and fundamental. We 
need to provide adequate funding to implement the Coastal Zone 
Management Act.
    I heard Mr. Bailey earlier refer to the triple whammy faced 
by coastal states as we move forward. We need appropriate 
funding to address this triple whammy.
    Second, we must conduct comprehensive ecological and 
socioeconomic assessments of our nation's coastal lands and 
waters. Coastal management decision making needs to be based on 
the best information available. These assessments should be 
ecosystem-based, comprehensive, and include both ecological and 
socioeconomic parameters.
    Third, we should establish coastal habitat restoration as a 
specific national priority. Habitat restoration is a proven and 
viable tool for improving the health of our nation's estuaries. 
The inclusion of coastal habitat restoration as a national 
priority in the Coastal Zone Management Act will help provide a 
link between aligning national and state-level restoration 
planning.
    Coastal habitat restoration should be included as a new 
Congressional finding and statement of policy.
    Fourth, we need to develop state habitat restoration 
strategies. Having long-term habitat restoration strategies 
with specific goals and objectives is crucial for proper 
planning and prioritizing.
    Fifth, we must make additional efforts to preserve critical 
coastal lands and waters. The Coastal Zone Management Act 
should authorize the Coastal and Estuarine Land Conservation 
Program, known as CELCP, to secure the long-term protection of 
lands that have significant conservation, recreation, historic, 
economic, and aesthetic values.
    But we also recommend that as lands are given priority 
rankings, those that can be restored to effectively enhance 
ecological function should be given priority.
    Sixth, we should give non-governmental organizations a 
meaningful role in planning and implementing restoration 
strategies. Non-governmental organizations have proven to be 
essential as convening bodies that can reach out and bridge 
government, private sector, and scientific community interests 
to collaboratively develop and implement habitat restoration 
strategies.
    Our seventh suggestion would be to strengthen the Federal 
role in coastal management. The CZMA establishes and promotes a 
NOAA-state partnership. We need improvements at the Federal 
level to coordinate and collaborate between Federal agencies 
involved in coastal management, and between Federal, state, and 
local entities. This includes clarifying roles of the different 
Federal agencies working on coastal issues. We strongly 
encourage you to empower NOAA to lead these efforts.
    We have three, excuse me, quick comments on H.R. 5453. 
First, habitat restoration should be an integral part in our 
efforts to combat climate change. Healthy estuaries help 
counter climate change by capturing carbon from the atmosphere. 
Scientists have found that tidal salt marshes are particularly 
effective in helping to counter climate change. We recommend 
tidal salt marsh restoration as an important strategy to 
capture and hold carbon from the air.
    Second, a new CZMA must address climate change by providing 
assistance to coastal states to develop plans and implement 
projects to adapt to the impacts of climate change.
    And then third, we should explicitly include coastal 
habitat restoration as an eligible activity for coastal 
adaptation project grants.
    Madame Chairwoman, I have additional comments in my written 
testimony, and I will leave it at that. And I will be glad to 
answer any questions.
    [The prepared statement of Mr. Stokes follows:]

          Statement of Robert Stokes, Chairman of the Board, 
  Restore America's Estuaries, and President, Galveston Bay Foundation

    Good morning Madame Chairwoman and Members of the Subcommittee. I 
am Robert Stokes, Chairman of Restore America's Estuaries Board of 
Directors. I am also the President of the Galveston Bay Foundation, 
which is located in Galveston Bay, Texas. The mission of the Galveston 
Bay Foundation is to preserve, protect, and enhance the natural 
resources of the Galveston Bay estuarine system and its tributaries. I 
am pleased to be here today to discuss Restore America's Estuaries' 
comments regarding the legislation you are considering to amend the 
Coastal Zone Management Act (CZMA).
    Before I present our recommendations, I would like to provide you 
with a little background about Restore America's Estuaries and discuss 
several issues of interest to our organization.
    Restore America's Estuaries is a national alliance of 11 community-
based organizations that protect and restore coastal and estuarine 
habitat. Our mission is to preserve the nation's network of estuaries 
by protecting and restoring the lands and waters essential to the 
richness and diversity of coastal life. Restore America's Estuaries has 
been working since 1995 to restore our nation's greatest estuaries and 
bring them back to life. We join with government agencies, 
corporations, civic organizations, scientists and local volunteers to 
conduct restoration projects with real impacts. We seek to achieve a 
return of abundant fisheries, strong local economies, and shorelines 
that are resilient to storms and flooding.
    Restore America's Estuaries is results-oriented. Since its 
creation, Restore America's Estuaries and its 11 member organizations 
have:
    <bullet>  INVESTED more than $28.5 million in local restoration 
projects;
    <bullet>  BUILT more than 300 oyster reefs and planted over 2.6 
million oysters;
    <bullet>  RESTORED more than 56,000 acres of estuarine habitat;
    <bullet>  MOBILIZED more than 250,000 volunteers, including more 
than 80,000 young people in coastal restoration and education 
activities each year; and
    <bullet>  CONVENED the largest biennial national gathering for the 
coastal restoration community. Our next National Restoration Conference 
will be in Providence, Rhode Island, October 11-15 of this year. We 
expect over 1,200 restoration professionals from across the country to 
participate.
    All this is done through partnerships and community involvement. My 
own organization, the Galveston Bay Foundation, typically hosts as many 
as 25-30 habitat restoration events each year, some with as few as a 
handful of Boy Scouts, or as many as 300 citizens and local business 
employees. Our annual signature restoration event is called Marsh 
Mania, a nationally recognized, community-based wetlands restoration 
and education event of the Galveston Bay area. The goal of Marsh Mania 
is to involve local citizens in hands-on wetlands restoration 
activities while increasing their awareness and appreciation of wetland 
habitats and functions. The first Marsh Mania was held in 1999, that 
year known as ``Marsh Bash.'' This one-day event set a national record 
when 1,500 volunteers planted nearly 70,000 stems of smooth cordgrass 
to create 14.5 acres of new habitat at eight sites around the bay. In 
the nine years since it began, Marsh Mania has involved more than 4,700 
community volunteers in the restoration of 107 acres of vital wetlands 
at 41 coastal sites around Galveston Bay.
    At the national level, Restore America's Estuaries has been a 
leader in bringing all sectors of the restoration community together to 
advance the knowledge, science, policies, and best practices in coastal 
and estuarine habitat restoration. Restore America's Estuaries engaged 
in a 2-year initiative to create a multi-sector consensus document, A 
National Strategy to Restore Coastal and Estuarine Habitat, which 
outlines the objectives and methods for reaching the goal of restoring 
one million acres of our nation's coastal and estuarine habitats. In a 
previous effort, we worked closely with the Estuarine Research 
Federation to build a consensus framework for habitat restoration 
through a collaborative process between scientists and field 
practitioners to define scientifically sound and technically feasible 
principles of estuarine habitat restoration. These principles are 
delineated in the publication, Principles of Estuarine Habitat 
Restoration.
Importance of Estuaries
    Estuaries are where fresh water rivers meet the salty sea in 
shallow protected bays. Native American Indians called these beautiful 
places ``Between-Land'', not quite land and not quite water. Estuaries 
and other coastal ecosystems are critically important to keeping the 
U.S. competitive, through their roles as centers of population growth, 
commerce, military activity, recreation, and ecosystem services (e.g., 
providing natural resources and shoreline protection). Many of the 
estuarine resources such as salt marshes, flats, and beaches are also 
important because they help stabilize shorelines and provide flood 
control.
    In my home state of Texas, the coastal wetlands of our estuaries 
serve as nursery grounds for over 95 percent of the recreational and 
commercial fish species found in the Gulf of Mexico, and provide 
breeding, nesting, and feeding grounds for more than a third of all 
threatened and endangered animal species as well as supporting many 
endangered plant species, and provide permanent and seasonal habitat 
for a great variety of wildlife, including 75 percent of North 
America's bird species. Coastal wetlands also serve important functions 
ranging from reducing waterborne pollutants to providing natural 
buffers against flooding and erosion. Texas coastal wetlands are also 
extremely important economically. In Galveston Bay alone, the 
recreational and commercial fishing industries combined are valued at 
over $3 billion annually, and support over 40,000 jobs in the area.
Threats to Estuaries
    Estuaries and their associated natural resources and important 
ecosystem services are in a perilous state due to an increasing level 
of stress. In addition to physical impacts (e.g., wetland loss, 
shoreline armoring, and sea-level rise) to these ecosystems, nutrient 
and other chemical pollution (e.g., pharmaceuticals and personal care 
products), invasive species, and over-harvesting of resources are major 
causes of declines in the productivity and health of these systems.
    Along the Gulf coast habitat is still being lost, and in the 
estuary I know best, Galveston Bay, we've experience a significant loss 
of wetlands over the last 50 years. Between the 1950s and the 1990s, 
the Galveston Bay system experienced a net loss of nearly 35,000 acres 
of its wetlands, due to a variety of human and natural causes. Recent 
research indicates that wetland loss is continuing at rapid rates. 
Because of this loss, habitat degradation has been identified as the 
most critical of all the problems currently facing Galveston Bay. 
Although we have had many successes, the losses are great and they 
continue. These losses have dire consequences for our environment, our 
economy, our way of life, and our health.
    Estuaries around the country have also lost varying degrees of 
habitat and biological function. For example, 70 percent of the eel 
grass beds and 50 percent of the salt marshes around Narragansett Bay 
in Rhode Island have been lost due to human activity, and the Raritan 
Bay area in lower New York Harbor has lost over 80 percent of its 
original wetlands. In New Jersey, only a mere 2 percent of the historic 
native oyster populations have survived after suffering from disease, 
over-harvesting, and habitat destruction. In the Chesapeake Bay over 16 
million bushels of oysters were harvested in the early 1900's, but the 
harvest has collapsed to only 45,000 bushels in 2006. In Long Island 
Sound more than 40 percent of the original wetlands are gone. The story 
continues on the west coast as well. San Francisco Bay has lost 95 
percent of its original marshland.
A growing threat to our nation's estuaries is climate change.
    Climate change--caused by human greenhouse gas emissions--threatens 
the health of our nation's estuaries, the fish, and wildlife, as well 
as the surrounding communities. The impacts of climate change will 
exacerbate the already increasing stresses on our sensitive coastal 
resources. Estuary wildlife and the habitat they depend on are 
threatened by changes in rainfall, temperature, sea level, soil 
conditions and air pollution. For example, altered rain and snowfall 
patterns throughout the U.S. will affect the volume and timing of fresh 
water flowing into our estuaries, consequently changing salinity and 
sediment conditions, which will impact sensitive habitats and species. 
While no one knows how precipitation patterns might be altered, 
changing fresh water flows would affect the distribution and abundance 
of some shellfish such oysters, as well as rare species, that depend on 
high salinity salt marsh habitats.
    Sea level rise is of particular concern. As sea level rises, the 
frequency and duration of coastal flooding and inundation will 
increase, severely impacting sensitive coastal resources and adjacent 
properties. For example, in San Francisco Bay, sea level rose about 
seven inches over the last century at the Golden Gate, and the 
Intergovernmental Panel on Climate Change and the 2006 California 
Climate Action Team project it could rise another two to three feet by 
2100, which could cause coastal flooding of Bay wetlands and shoreline 
cities.
Reauthorization of the Coastal Zone Management Act
    Support for the management and stewardship of our keystone coastal 
ecosystems that bridge land and sea has never been more important due 
to the accelerating pace of environmental change now occurring. While 
environmental degradation of the coastal area has continued in recent 
years, the Coastal Zone Management Act (CZMA) has been a valuable tool 
to policy makers and environmental managers in balancing human 
activities with environmental health to help reduce the rate of 
degradation. Establishment of the National Estuarine Research Reserve 
System through the CZMA has been particularly successful in setting 
aside valuable estuarine areas for long-term protection and supporting 
science-based coastal management through long-term research, 
monitoring, education, and stewardship.
    But having said that, it has been almost forty years since the CZMA 
was first passed, and we desperately need to modernize and bring change 
to the CZMA by providing new tools to match today's critical needs. We 
also believe these tools can be far more action-oriented and involve a 
broader array of nongovernmental partnerships. I encourage you and the 
Members of this Subcommittee to think broadly, and boldly, as you 
consider reauthorization of the CZMA.
    Our recommendation on the proposed legislation to amend the CZMA 
fall into three broad areas: 1) reauthorization of the CZMA is 
essential; 2) coastal habitat restoration is a viable tool to restore 
the health of estuaries and should be recognized as a national 
priority; and 3) nongovernmental organizations have the capacity to 
leverage state and Federal programs. Restore America's Estuaries 
respectfully request that you consider the following key 
recommendations.
H.R. 5451--Coastal Zone Reauthorization Act of 2008
Provide adequate funding to implement the CZMA.
    As population and development pressure along the nation's coasts 
continues to rise, increased funding will be required to fully address 
the complex problems facing the coastal zone. It is crucial that 
Congress provide stable and adequate funding to implement the programs 
authorized under the CZMA to better address growing challenges to our 
nation's estuaries and coasts.
Conduct comprehensive ecological and socioeconomic assessments of our 
        nation's coastal lands and waters.
    Coastal management decision making needs to be based on the best 
information available. Hundreds of decisions are made every day 
throughout our nation's coastal zone that affects the health and 
sustainability of estuaries. Yet, in most cases, little is known about 
the estuarine resources involved, how they might be impacted, or how 
they are changing over time. Restore America's Estuaries believes it is 
absolutely critical that a comprehensive baseline condition of our 
nation's estuaries be established as soon as possible. These 
assessments should be ecosystem based, comprehensive, and include both 
ecological and socioeconomic parameters. Ecological parameters should 
include: habitat types and extent, condition of those habitats, causes 
and rates of habitat decline, services being provided by the habitat, 
and opportunities for habitat restoration within the ecosystem. 
Socioeconomic parameters should include human use indicators (i.e., 
fishing licenses, boat launchings, beach use, etc.), land uses, 
population migration rates, etc. It is also essential that these 
comprehensive assessments build on existing data and information. Much 
research and data collection has been done to determine the state of 
our coasts, and this information should be fully utilized in developing 
comprehensive assessments in order to achieve fast progress toward 
accomplishing the goals set forth by a new CZMA.
Establish coastal habitat restoration as a specific national priority.
    Habitat restoration is a proven and viable tool for improving the 
health of our nation's estuaries. It is time for coastal management to 
recognize and embrace this tool on equal footing as our efforts to 
preserve and protect critical habitats. Habitat restoration was set 
forth as a national priority through the Estuary Restoration Act. We 
believe that the inclusion of coastal habitat restoration as a national 
priority in the CZMA will help provide a link between aligning 
national- and state-level restoration planning. Coastal habitat 
restoration should be included as a new Congressional Finding and 
Statement of Policy that highlights the need for adaptation to sea 
level rise and the important role of habitat restoration to reduce 
global warming from greenhouse gases.
Develop state habitat restoration strategies.
    Having long-term habitat restoration strategies with specific goals 
and objectives is crucial for proper planning and prioritizing. In 
2002, Restore America's Estuaries released a multi-sector consensus 
document, A National Strategy to Restore Coastal and Estuarine Habitat, 
which outlines the objectives and methods for developing comprehensive 
restoration plans. A copy of that document has been provided to you. 
Developing state restoration strategies that can be incorporated into 
broader comprehensive coastal management strategic plans provides 
planners and practitioners with a framework for comprehensive and 
inclusive planning to identify restoration needs and opportunities down 
to the estuary level. The development of these strategies should take 
into account other water resource requirements such as the Clean Water 
Act, Total Maximum Daily Loads analysis to help establish restoration 
needs and priorities. Currently, through the Coastal and Estuarine Land 
Conservation Program, states develop plans to address their priorities 
for land acquisition, and a similar focus on restoration planning 
should be undertaken by states. Sound science must be an essential 
component of the planning process and implementation of the strategies.
Preserve critical coastal lands and waters now and into the future.
    The CZMA should authorize the Coastal and Estuarine Land 
Conservation Program (CELCP), within NOAA's Office of Ocean and Coastal 
Resource Management, to secure the long-term protection of lands that 
have significant conservation, recreation, historic, economic, and 
aesthetic values to the residents of coastal communities. Protection of 
critical coastal and estuarine areas provides numerous public benefits 
by improving water quality, increasing access to shoreline areas, 
conserving wildlife habitat, and sustaining recreational and commercial 
fisheries.
    We recommend that as lands are given priority rankings, those that 
can be restored to effectively enhance ecological function be given 
priority. While land conservation and protection is absolutely critical 
to maintain water quality and ecosystem functions, restoring a property 
will improve water quality and ecosystem functions. Many 
nongovernmental organizations have played an active role in this 
program and are poised to continue to provide support for land 
conservation. As Congress considers authorization of CELCP, we 
recommend that you allow land owned by nongovernmental organizations to 
be used as non-federal match. We also support having costs associated 
with habitat restoration of a property be eligible to be used as non-
federal match.
Give nongovernmental organizations a meaningful role in planning and 
        implementing restoration strategies.
    Nongovernmental organizations have proven to be essential as 
convening bodies that can reach out and bridge government, private 
sector, and scientific community interests to collaboratively develop 
and implement habitat restoration strategies. Restore America's 
Estuaries has demonstrated the ability to facilitate action. Mobilizing 
this power across our country's coastal areas in a concerted way would 
provide additional support to Federal and state agencies in their 
efforts to restore the health of our estuaries. One way to recognize 
and strengthen the nongovernmental role in coastal habitat restoration 
is to provide the explicit authority to establish cooperative 
agreements between NOAA and nongovernmental organizations to carry out 
the purposes of the CZMA.
Strengthen the Federal role in coastal management.
    The CZMA establishes and promotes a NOAA/state partnership. To date 
this partnership has worked with the states assuming, and appropriately 
so, most of the responsibility for the planning and implementation of 
their coastal plans. But this partnership equation is no longer 
sufficient to make progress against many stressors affecting the 
coastal zone. We need improvements in coordination and collaboration 
between Federal agencies involved in coastal management and between 
Federal, state, and local entities. This includes clarifying roles of 
the different Federal agencies working on coastal issues. Essentially, 
we need an effective network of communication that operates vertically 
and horizontally and provides for efficient information exchange that 
gives state and local entities the tools and information necessary to 
address local challenges. It is time for NOAA to step up and lead 
efforts to provide integrated and coordinated support to the states for 
research, monitoring, science translation, education, training, 
capacity building for local officials, and technology. We strongly 
encourage you empower NOAA to lead these efforts.
H.R. 5453--Coastal State Climate Change Planning Act of 2008
Habitat restoration creates healthy estuaries to combat climate change.
    Healthy estuaries help counter climate change by capturing carbon 
from of the atmosphere and providing natural flood protection. 
Scientists have found that tidal salt marshes are particularly 
effective in helping to counter climate change, and recommend tidal 
salt marsh restoration as an important strategy to capture and hold 
carbon from the air. According to scientists, every acre of restored, 
healthy salt marsh captures and converts at least 870 kilograms of 
carbon dioxide into plant material annually--equivalent to the 
greenhouse gas emissions from driving 2,280 miles. Restored tidal salt 
marshes also provide natural flood control and may reduce the need to 
build seawalls to protect developed shoreline areas against sea level 
rise.
Address climate change through adaptation planning.
    A new CZMA must address climate change by providing assistance to 
coastal states to develop plans and implement projects to adapt to the 
impacts of climate change. H.R. 5453, the Coastal State Climate Change 
Planning Act provides a good start to developing an adaptation planning 
framework. We suggest that coastal state adaptation plans take into 
account disaster response and recovery programs to make sure that 
rebuilding is done in a way that reflects our need to adapt to climate 
change. Plans should consider relocation of infrastructure and people 
out of hazardous areas as a recovery response, and use these relocation 
strategies to facilitate habitat restoration since many of these 
locations were originally wetlands and vegetated buffers that provided 
for healthy environmental quality. Recognizing the key role that 
healthy estuarine habitat plays in combating climate change through 
carbon sequestration, we encourage Congress to specifically include 
development of strategies for habitat restoration to mitigate climate 
change as part of the adaptation plans.
Explicitly include coastal habitat restoration as an eligible activity 
        for Coastal Adaptation Project Grants
    Habitat restoration needs to be part of the solution to combating 
climate change. We strongly support the inclusion of habitat 
restoration as an eligible activity for the coastal adaptation project 
grants. H.R. 5453 does include several restoration-related activities 
that are eligible for the adaptation project grants, such as activities 
to address the loss, degradation, or fragmentation of wildlife habitat; 
however, we recommend the explicit inclusion of habitat restoration as 
an eligible activity. With the strong track record and accomplishments 
of nongovernmental organizations in implementing habitat restoration 
projects, we recommend that these organizations also be eligible for 
funding in addition to state agencies.
H.R. 3223--Keep Our Waterfronts Working Act of 2007
    Restore America's Estuaries recognizes the need to ensure coastal 
access and water-dependent coastal-related business. We particularly 
endorse the ability of nonprofit organizations to qualify to receive 
working waterfront grants to assist state or local governments and/or 
hold title to or interest in property. This clearly recognizes the new 
and demonstrated role that nonprofit organizations can play to help 
local coastal communities.
    Thank you for the opportunity to address you today. I would be 
happy to answer any questions.
                                 ______
                                 
    Ms. Bordallo. Your entire statement will be entered into 
the record. Thank you, Mr. Stokes.
    Mr. Stokes. Thank you.
    Ms. Bordallo. And now, as Chair, I recognize Mr. Connors. 
You may begin your testimony.

STATEMENT OF JIM CONNORS, SENIOR PLANNER, MAINE STATE PLANNING 
           OFFICE, MAINE WORKING WATERFRONT COALITION

    Mr. Connors. Thank you very much, Chairman Bordallo. I 
welcome the opportunity to come to Washington to get out of my 
house doorway, which has two feet of snow at the moment sitting 
there. So this is a welcome relief, actually. It might feel 
cold to you.
    Ms. Bordallo. A better solution would be go to Guam.
    [Laughter.]
    Mr. Connors. I would love to do that. I usually go to South 
Carolina, but your co-chair is not here to appreciate that.
    I am here this morning representing the Maine Working 
Waterfront Coalition. This is a broad-based coalition of 
fishing industry associations, non-profit organizations, state 
agencies, and individuals dedicated to supporting and enhancing 
Maine's working waterfronts through policy, planning, 
investment, and education.
    We are here to testify on H.R. 3223, which we strongly 
support. We feel that this bill, and we compliment Rep. Allen 
and Capps for entering this bill, would have three significant 
impacts in the discussion about CZMA.
    First, it would recognize the importance of the issues 
related to the loss and decline of working access to the 
coastal areas, and bring attention to the problem in a formal 
program element.
    Second, the bill would establish working access as a 
priority to CZMA, in addition to existing ports and harvest 
programs and public access programs.
    And third, the bill creates, would create a program with 
funding and access to NOAA programs and tools that can augment 
and support state-level efforts to preserve working 
waterfronts.
    And mostly what I hope I can accomplish here today is to 
portray the experience we are having in Maine with an active 
working waterfront protection program.
    The committee asked, my testimony includes some additional 
research-based information, where we have surveyed local 
communities about access needs and losses. And that is reported 
in the testimony, so I won't recite that here.
    I did want to emphasize that, as Rep. Allen indicated and 
the bill indicates, the genesis of the problem is the shift of 
population to the coastal zone, competing demands for a limited 
resource, economic pressures on traditional water-access-
oriented businesses, particularly commercial fishing, but also 
other waterfront enterprises, such as mariners, boat yards, and 
other businesses that have to be on the water to conduct their 
enterprise. And that the focus of the Maine's work so far has 
really been at the issue of commercial access to the coast.
    So you asked, the committee asked, in the invitation 
letter, for us to comment on three or four elements of the 
bill. One was on the scope of the bill. And the point I wanted 
to make here is that it is important, I think, for the 
committee and Congress to keep in mind that we are talking 
about commercial working access when we are talking about 
working waterfronts. And when time allows, we would like to be 
able to explain a little more clearly what we mean, what public 
access really means in that particular kind of setting.
    Second, the committee asked for comments on the state plan 
requirements, and the coalition does support a planning 
function. But I think it would like to see a planning function 
that models or supports the program being implemented at the 
state level. The coalition did have some reservations about the 
comprehensiveness of the planning requirement that is in the 
bill at the moment. That does seem like a lot of work, and it 
could actually be an impediment to getting a program up and 
running. So I think some refinement on what the planning 
requirements might be would be useful.
    Third, in the arena of comments on the application process 
on H.R. 3223, we just reinforced the interest in it being a 
responsive bill. Rep. Allen mentioned the fact that the bill 
needed to be able to turn around fairly quickly to help provide 
support in a complimentary way to existing state programs. We 
think that is very important. And we hope that the program 
could be responsive in that instance. Which might be difficult 
for aa government competitive grants-type program, but we do 
want to just sensitize the committee's awareness of that 
particular issue.
    And then finally, on CZMA, as I have already alluded to, we 
feel that this program is really lacking in the current 
pantheon of NOAA programs, and this really needs to be added 
into that array of opportunities. It would be a very valuable 
addition to CZMA programs.
    So I would be happy to answer any questions.
    [The prepared statement of Mr. Connors follows:]

              Statement of Jim Connors, representing the 
                   Maine Working Waterfront Coalition

    Good morning Chairwoman Bordallo and members of the House 
Subcommittee on Fisheries, Wildlife and Oceans. My name is Jim Connors. 
I am representing the Maine Working Waterfront Coalition today to 
provide testimony on H.R. 3223, Keep Our Waterfronts Working Act of 
2007.
    The Working Waterfront Coalition (WWC) is a coast-wide group of 
fishing industry associations, nonprofit organizations, state agencies, 
and individuals dedicated to supporting and enhancing Maine's working 
waterfronts through policy, planning, investment, and education.
    Over the past few years the Coalition has worked closely with 
political leadership in the Legislature and the Governor's Office, as 
well as the fishing industry to create new tools and programs aimed at 
protecting and securing working access to the tidal waters. The 
Coalition has been successful in helping to envision and create an 
active working waterfront protection program, using public bond funds 
approved by the voters of Maine.
Section 320, (a) Findings and Purpose:
    The Problems confronting working waterfronts is well summarized in 
the Findings and Purpose section of the bill. To support these findings 
we offer the following research based information.
    In 2001, The Maine State Planning Office engaged the services of 
Coastal Enterprises Inc. to conduct a survey of 25 coastal fishing 
communities that are representative of the array of commercial fishing 
centers found along the coast from Kittery to Eastport. The purposes of 
this study were to (1) document the status of working waterfronts and 
the present and future threats of change or loss, (2) to identify 
municipal responses and technical needs for dealing with problems, and 
(3) to make recommendations regarding the best ways of monitoring 
changes and trends in the future. The study was conducted by 
interviewing knowledgeable people in each selected community in order 
to better understand the status of their working waterfronts, and how 
the towns are handling changes confronting their commercial fisheries.
    A summary of major findings follows:
    The loss of commercial fishing access takes many forms, which adds 
to the complexity of tracking change and formulating effective public 
policy. A number of types of loss are identified:
    1.  Loss of access to inter-tidal areas due to posting of private 
lands, and new land owners closing off/contesting established public 
access ways, traditionally used by clam and worm diggers;
    2.  Loss of tenuous lease or use arrangements with other private 
pier and wharf owners;
    3.  Conflict and competition for use of public facilities, 
especially those with limited parking and equipment storage space;
    4.  Conversion of working wharves to residential/recreational or 
other commercial use.
    Threats to established commercial access facilities and sites are 
real, persistent, and pervasive. The surveyed communities identified a 
list of problems:
     1.  Intense development pressure to use waterfront lands and 
facilities for non-commercial fishing/water dependent uses;
     2.  As fishing families sell waterfront facilities, access use 
moves to town/public piers, which increases use pressure on these 
facilities;
     3.  The use of public wharves must balance and serve both 
commercial and recreational use, which can lead to conflicts;
     4.  Limited parking areas, combined with increased tourism use, 
can intensify potential conflicts;
     5.  In some areas with heavy recreational boating use there are 
limited moorings available;
     6.  Boats are getting bigger (both commercial and recreational), 
which requires more berthing and mooring space;
     7.  Increased cost for coastal towns for legal challenges over 
access rights;
     8.  Sales of higher value property triggers re-valuation, leading 
to higher taxes;
     9.  Municipal and private wharves have costly infrastructure and 
upkeep; and resulting challenge to keep them economically self-
sustaining;
    10.  Towns and individual fishermen cannot afford inflated market 
price for waterfront property.
    There is strong support and concern for protecting commercial 
fishing access. 64% of the 25 towns surveyed indicated that commercial 
fishing access is a problem now, and 80% of the towns surveyed are 
planning to address this issue.
    Commercial fishing access is provided through publicly owned 
facilities, privately owned commercial piers and through arrangements 
with other privately owned wharves. 25% of access usage is at publicly 
owned facilities, and 75% at privately owned facilities. Of the usage 
of privately owned facilities, 35% occurs at commercial business 
facilities, and 40% at other privately owned wharves.
    (Taken from A Review of the Effectiveness of the Maine Coastal Plan 
in Meeting the State's Public Access and Working Waterfront Policy 
Goals. 2002)
    In 2007 in preparation for the National Symposium on Working 
Waterways and Waterfronts the National Sea Grant Network conducted a 
coastal zone-wide survey to characterize the scope of coastal access 
issues and the effects on coastal communities. In a report entitled 
Access to the Waterfront, issues and Solutions Across the Nation they 
highlighted three issues:
    <bullet>  Concerns over the loss of access for commercial fishermen
    <bullet>  Problems with conflicts over recreational access
    <bullet>  Shrinking access for the public
    The report goes on to discuss three important conclusions:
    1.  The tools and solutions to address and resolve access loss and 
conflicts will need to be localized;
    2.  Given the wide spread nature of the problems, there is a need 
for national strategies to support local efforts;
    3.  Although there are many tools being used, there are more 
innovative solutions yet to be identified and developed.
Scope of the Bill
    The Committee has asked for Comments on the scope of the bill. We 
offer comments on three important elements of the bill:
    1.  Keeping an emphasis on working access for commercial fishing 
and other water dependent uses and businesses;
    2.  Differentiating between commercial facilitated access vs 
general public access; and
    3.  Comments on the definition of working waterfront.
    We recognize that the problem of maintaining working access to the 
coast varies from state to state and includes issues related to the 
loss of recreational boating access, particularly in areas experiencing 
re-development into condominiums and dockaminiums. We think that a 
national program has to cover the needs of commercial fishing and those 
water dependent business that serve the recreational and boating needs 
of the public at large, such as marinas and boatyards.
    The Maine WWC is specifically concerned about the plight of 
commercial fishermen, who must have adequate working access to conduct 
their fishing operations. Fishermen are in a unique position in which 
they sell their catch into markets with set prices that they cannot 
influence. At the same time they face all of the cost associated with 
harvesting and landing the catch. They are caught between set market 
based prices and their production costs. They do not have the 
opportunity to push costs forward through to the consumers (such as a 
fee for business might) so they get pinched by rising costs such as 
increasing property values and taxes that have to be absorbed in the 
narrow gap between production costs and market price. It's no wonder 
that fishermen are being squeezed off the waterfront.
    We think that the program should be focused on commercial water 
dependent uses that need to be on the waterfront to successfully 
conduct their businesses. This is not to say that certain assurances of 
``public access'' cannot be incorporated into the outcomes of the grant 
program. But the issue of public access in general, at publically owned 
sites, is and has been a fundamental part of CZMA that should continue 
to be a coastal program priority but separate from a working waterfront 
program. The emphasis in this bill should be on ``commercial'' working 
access. That is, assuring that access is secure for businesses that 
require access to tidal waters. We think that the public access 
requirement should be removed as an element of this working waterfront 
program, but certainly retained as a key element of CZMA, otherwise it 
is a deal killer! H.R. 3223 provides an opportunity to recognize the 
importance of dealing with the problems being faced by fishermen and 
other water dependent businesses by creating a program that fills an 
existing gap in CZM programs between public access programs and major 
port and harbor development programs.
    Definition of Working Waterfront--Members of the Maine WWC 
participated in a Working Waterways & Waterfronts Symposium Conference 
held in Norfolk, VA 5/8,9,10,11/07. The concept of working waterfront 
was a unifying concept, but we learned that people have differing views 
of what makes up a water dependent use based on their particular local 
access issues and needs. In a wrap-up planning session the participants 
described working waterfront in terms ranging from commercial fisheries 
activities through marinas, boatyards, commercial sports fishing 
services, ferry services, tourist oriented nature cruising, to heavy 
industrial uses. A common theme of working waterfront is ``commercial'' 
access for water dependent businesses. For the marine industries the 
water access may be for recreational leisure time pursuits, but for 
those waterfront companies they are a business serving the public at 
large for a fee. Which in a way is part of the supply of public access 
which is facilitated by the business enterprise. I want to be clear 
that this bill is aimed at addressing the water access needs of 
businesses that need physical access to the water.
    One small point, in the Definitions section, aquaculture needs to 
be added to the definition of the term ``working waterfront'', to be 
consistent with the use of this term in the body of the bill.
State Plan Requirement
    The Committee has asked for comments on enhancements to 
requirements for the development of a state plan.
    In general, the WWC supports a planning function that positions the 
state to deliver a good and efficient program. But it needs to be a 
plan that is practical and useful, more of a functional ``program'' 
plan rather than a ``comprehensive'' water access plan. We are 
concerned that preparing (and updating) a big, expensive, comprehensive 
access plan as a requirement for participating in the grant program 
will be a major impediment to coastal states that could otherwise put 
the program to good use. We agree that state Coastal Programs should be 
doing this type of planning, but it creates a major hurdle to 
implementing the grants program.
    As written, the current bill is asking for more planning work than 
is really needed to guide a Federal Program at the state level. We 
would ask the committee to consider the difference between a plan to 
guide the operation of a program and a plan that is a comprehensive 
analysis of the coast and access needs. A good example of a program 
participation is provided by the current Coastal Estuarine Land 
Conservation Program, which is administered by NOAA.
    The Maine Working Waterfront Access Pilot Program offers an example 
of a program that is competitive, guided by a set of project selection 
criteria, and responsive to opportunities to work with fishing 
businesses, property owners, municipalities, and willing sellers as the 
opportunities arise. More information can be found at the program 
website: www.wwapp.org
Comments on the application process
    The Committee has asked for comments on the application process. 
The WWC offers comment on five elements of the application and granting 
process;
        Responsiveness to immediate opportunities
        State responsibilities, capacities, assurances, and process
        Non-profit organization as a qualified holder
        Creation of a Working Waterfront Covenant
        Violation of a Working Waterfront Covenant
    The WWC recognizes that NOAA has a long, well established record 
for running competitive grant programs, which the Committee should 
value and take full advantage off. As written, however, the WWC has 
several suggestions for your consideration regarding the application 
and granting process:
    Responsiveness to immediate opportunities--The bill as written 
correctly implies that there is a need to be responsive as 
opportunities arise or a need for action is paramount. We know that 
there is a difficult balancing act between administering a competitive 
grants program and the responsiveness needed to proceed in a timely 
manor when a critically important opportunity arises. The 
responsiveness (or lack thereof) of a government funding program is an 
issue for the WWC and other working waterfront advocates when they see 
the need to move quickly to take advantage of an opportunity. We have 
found that working waterfront projects must be fairly patient when 
dealing with government programs (usually for good reasons related to 
due diligence and program capacities), but still we ask the committee 
to consider carefully how the program can be operated to be responsive 
to crisis situations.
    State responsibilities, capacities, assurances, and process--The 
grant program, as envisioned, would be run in cooperation with the 
appropriate state Coastal Program, or other state, regional, or other 
unit of government. It is up to the coastal state to figure out how to 
run a working waterfront program. The state retains the responsibility 
to assure the grant funds are used as proposed, make certain 
certification of matching funds, hold the working waterfront Covenant 
(or designated holder) and enforcement responsibilities (including 
policing qualified holders). In Maine, and a few other states, 
compatible working waterfront programs exist which could assume and 
exercise these responsibilities, but in other coastal states creating 
and implementing a working waterfront program will be a relatively 
greater challenge.
    Non-profit organization as a qualified holder--the bill provides 
that a state may designate a non-profit organization (such as a land 
trust or working waterfront heritage trust) as a qualified holder of a 
property or an interest in a property. Recognizing and authorizing this 
role for a non-profit non-governmental entity is a significant step for 
Congress. Certainly in Maine and across the country, duly incorporated 
501,c land trusts are playing a vital role in conserving the nations 
resources. In one Maine working waterfront project the holder (owner) 
of the protected property is a new nonprofit foundation dedicated to 
the continued operation of the property as working waterfront. So the 
model exist and a track record for nonprofits is established, the WWC 
feels that a nonprofit fishing heritage trust has a role to play in the 
future as the experience with these programs unfolds.
    Working Waterfront Covenant--The bill calls for the use of a 
working waterfront covenant as a means to gain permanent protection of 
the subject property. This is a relatively new mechanism for holding 
property interests with its roots in conservation easements and 
affordable housing covenants. The Maine Legislature has enacted 
statutory language to guide the purpose and scope of a working 
waterfront covenant. A model covenant has been created by the Land for 
Maine's Future Program, and specific covenants are currently being 
prepared for six working waterfront projects. The first one was 
consummated last week and a second is due to close on March 12th.
    Violation of the Covenant--this section needs further work, guided 
by consideration of due process, legal practice, and enforcement 
experience with Conservation easements. Reference to the Maine model 
covenant would be useful.
CZMA
    The committee asked for views of how the CZMA might be amended, in 
general, to better attain the goal of preserving working waterfronts 
and marine-dependent uses and the public's access to them.
    The WWC is not in a good position to comment on the re-
authorization of the CZMA. We understand that many good minds have been 
hard at work on this task. The WWC does feel that a working waterfront 
program has a place in the CZMA and state coastal programs. Various 
members of the WWC have a long, successful, and productive working 
partnership with the State's Coastal Management Program and we would 
not want to see that change.
    The program envisioned in H.R. 3223 seems like a natural fit with 
the purposes and goals of the CZMA. A working waterfront program would 
be an additional tool to help the state achieve its objectives. A 
working waterfront program element in the CZMA, with funding support 
would send a strong message to state programs about the importance of 
these issues.
In summary
    We think that H.R. 3223 has three significant impacts:
    First it recognizes the importance of the issues and brings 
attention to the problem;
    Second, the bill establishes working access as a priority in the 
CZMA (in addition to ports and harbor programs, and public access 
programs);
    And third, the bill creates a program with funding and access to 
other NOAA programs and tools that can augment and support state level 
efforts to preserve working waterfronts.
    The Maine Working Waterfront Coalition is pleased to be able to 
help craft this important program and stands ready to continue to 
assist as its experience and expertise allows.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Connors, for your 
careful consideration of H.R. 3223.
    And finally, I would like to invite Ms. Elefant to present 
her testimony.

 STATEMENT OFCAROLYN ELEFANT, GENERAL COUNSEL, OCEAN RENEWABLE 
                        ENERGY COALITION

    Ms. Elefant. Thank you, Madame Chairwoman. As you said, my 
name is Carolyn Elefant, and I am legislative and regulatory 
counsel to the Ocean Renewable Energy Coalition, or OREC. Our 
organization is dedicated to the commercial, to advancing and 
promoting commercialization of marine renewables in the United 
States, which include off-shore wind, wave, tidal, and current.
    OREC is grateful to the committee for inviting us and 
giving us this opportunity to testify, specifically on H.R. 
5452. We support the bill's goals of streamlining the marine 
renewables licensing process, and most importantly channeling 
funding to the states, states and territories, so that they can 
evaluate proposed projects more efficiently, while still 
carrying out their responsibilities under the CZMA.
    However, OREC believes that many of the goals of 
streamlining marine renewables are better carried out through 
giving funding for data collection and creating designated 
marine renewable personnel, rather than through the proposed 
zoning concept contained in H.R. 5452.
    Now, as this legislation recognizes, regulatory delay and 
uncertainty has been a major impediment to developing our 
marine renewable resources in the United States. And there is 
one thing I do want to be clear about. When people hear about 
regulatory delay, they assume it is because industry is not 
being cooperative.
    And what I want to point out is, the obstacles in this case 
isn't because of intransigence on the part of our developers; 
rather, because of their commitment to comply with the litany 
of Federal, state, and local regulations.
    Our companies have devoted significant resources to 
complying with environmental regulations; and in fact, the cost 
of compliance comprises 30 percent to 60 percent of some of the 
prototype and demonstration projects currently under 
development.
    So it is for that reason that we really applaud the goals 
behind H.R. 5452 to try to streamline the process and move 
ahead.
    We believe that funding coastal states to survey the 
elements outlined in Section 2[b] of the legislation will help 
developers more readily identify suitable sites, and cut down 
on the need for them to gather information and try to figure 
out what they need to do to comply with the statute. And most 
importantly, the data will allow coastal states, and also 
territories, to fulfill their responsibilities under the CZMA 
mandate more efficiently, and with more confidence in their 
decisions.
    However, OREC doesn't support the concept of zoning, at 
least at this time. And one reason is just because the industry 
is so nascent. Right now there is not a single commercial off-
shore renewable project in the United States, and for that 
reason it is important that any streamlining process remains, 
allow for maximum flexibility.
    There are other problems that we have with the zoning 
concept. For example, while we are confident that states would 
implement it responsibly, an unfortunate reality is sometimes 
zoning is vulnerable to politicization. And also, a zoning 
process, especially one that would rightly involve multiple 
agencies and stakeholders, can be very time-consuming and 
create delay at a time when the industry is really picking up 
some momentum.
    So this is our preferred approach. We do like the idea of 
funding studies for the elements outlined in the legislation. 
We would like to see states have the ability to study, to 
survey all of these different criteria, and to make that 
information available within their agency to other agencies 
that are partners in the process, and most importantly to 
developers.
    We are confident that if developers have information about 
a sensitive environmental area, or about an area that might be 
optimal for development, that they will take that information 
into account when they make their development decisions. And 
that, in turn, will help expedite the process.
    We also support the idea of funding designated marine 
renewable energy personnel within state agencies. That is 
something that is very important, because it helps to build a 
body of institutional knowledge within the agency. And those 
experts can help guide our developers, and they can work as 
part of a partnership.
    Ultimately, we do view the state coastal agencies as 
partners in the development of marine renewable resources. And 
with well-staffed, well-informed, and well-funded agencies that 
can provide data on the environment, transmission 
infrastructure, and other elements, states and developers can 
work together and make informed decisions about marine 
renewable energy projects. And it is for that reason that we 
support the goals of H.R. 5452, if not the precise mechanism 
for carrying those out.
    Like my colleagues on the panel, I am also happy to answer 
questions.
    [The prepared statement of Ms. Elefant follows:]

   Statement of Carolyn Elefant, Legislative and Regulatory Counsel, 
                Ocean Renewable Energy Coalition (OREC)

    My name is Carolyn Elefant and I am legislative and regulatory 
counsel to the Ocean Renewable Energy Coalition (OREC). OREC is the 
national trade association for the marine renewables energy industry in 
the United States with a mission of promoting the commercialization of 
marine renewable technologies such as offshore wind, wave, tidal and 
current. Founded in April 2005 with three members, OREC now represents 
forty companies, including marine renewables developers within the 
United States, Canada and Europe, environmental consultants, law firms, 
engineering firms, investor owned and municipal utilities and 
investment bankers. OREC members share the common goal of helping our 
nation build a domestic marine renewables industry to eliminate our 
dependence on foreign oil, diversify our energy supply and develop an 
important source of emission free energy.
    OREC is grateful to the House Subcommittee on Fisheries, Wildlife 
and Oceans for extending an invitation to our organization to 
participate in these hearings and specifically, to offer testimony on 
The Honorable Congresswoman Capps' bill, H.R. 5452, the Coastal States 
Renewable Energy Promotion Act.
    We support the legislation's goals of streamlining the marine 
renewables licensing process and most importantly, channeling funding 
to the states so that they can evaluate proposed marine renewable 
projects more efficiently while still carrying out their mandate of 
ensuring responsible and orderly development in coastal zone areas. 
However, OREC believes that these goals are better achieved through 
funding for data collection and creation of a designated marine 
renewables expert position within state agencies rather than the zoning 
concept described in the legislation.
    My testimony is organized in three parts. First, I will describe 
the present regulatory impediments to marine renewables development. 
Second, I will discuss some of the problems inherent in the zoning 
concept and explain why this mechanism is not appropriate, at least 
right now while the marine renewables industry is in a nascent stage. 
Third, I will offer alternative suggestions for directing funding to 
states in a way that will help them carry out their statutory mandate 
under the CZMA and also help developers identify suitable project 
sites.
Part I: Regulatory Delays and the Impact on the Industry
    To date, regulatory delay and uncertainty poses one of the primary 
impediments to the emergence of the marine renewables industry. Let me 
be clear--regulation poses an obstacle not because our member companies 
seek to evade regulation, but rather, because they are absolutely 
committed to ``doing development right.'' OREC's member companies have 
devoted considerable financial resources to complying with the litany 
of applicable federal, state and local laws and taking into account the 
interest of multiple stakeholders who use our nation's coastal waters. 
But complying with so many agencies proves costly--our present 
statistics show that permitting costs can account for as much as 30 to 
60 percent of the total project cost, which is a deterrent to private 
investment.
    The length and uncertainty of the regulatory process also deters 
private investment. Thus far, companies like Verdant Power or Finavera 
have spent more than seven years in an effort to obtain authorization 
to install 6 turbines or four buoys. Part of the lag comes from state 
agencies--not because they oppose development, but simply because they 
lack the resources and staff to evaluate these projects. The burden 
then shifts to developers to gather sufficient information--which can 
also prove time consuming and expensive. And there is no guarantee of 
when or if an authorization for the project will issue. OREC is aware 
of several instances where this regulatory delay and uncertainty has 
killed private financing arrangements, which is a huge blow to the 
entire marine renewables industry.
Part II: The Proposed Legislation's Goals
    OREC applauds H.R. 5452 for recognizing the critical importance of 
expeditiously developing marine renewables and the need to streamline 
the regulatory process. We believe that funding coastal states to 
survey the elements outlined in Section 2(b) of the legislation 
<SUP>1</SUP> will help developers more readily identify suitable sites, 
thereby cutting down the need for costly information gathering studies. 
Most importantly, this data will allow coastal states to fulfill their 
responsibilities in issuing certifications under the CZMA certification 
more efficiently and confidently.
---------------------------------------------------------------------------
    \1\ These elements include surveys of the hydrographic, bathymetric 
and seismic characteristics of an area, environmental characteristics, 
other marine uses and availability of infrastructure and transmission 
to support renewable energy development.
---------------------------------------------------------------------------
    However, OREC does not support the concept of zoning--at least at 
this time, when the marine renewables industry is new and so much 
remains unknown about siting, operation and the environmental effects 
of projects. Quite simply, a zoning process locks the industry in a 
place at a time, when flexibility is paramount because technologies are 
still evolving.
    For example, a zoning process might block off an area which at 
present, lacks transmission access or may appear to have inadequate 
power potential. But a few years forward, a new technology may emerge 
that is capable of efficiently capturing the power resource or 
transmission access may improve. Alternatively, a zoning process may 
block an area deemed environmentally sensitive. However, a technology 
might later emerge that could prove compatible with the environmental 
characteristics of the area.
    By freezing conditions in place, zoning also arguably deters the 
emergence of more benign technologies. If certain areas are permanently 
off limits, developers have no incentive to innovate and come up with 
designs that might even have the affect of improving a sensitive area. 
Many of OREC's members have, over time, improved or changed the design 
of their projects to respond to environmental considerations, which 
represents a positive development.
    Moreover, while OREC is confident that states would responsibly 
implement a zoning process, the unfortunate reality is that sometimes, 
the zoning process is vulnerable to politicization. Stakeholders intent 
on preventing any renewable development offshore might attempt to 
unduly influence the zoning process. Though we stress that we do not 
anticipate this type of mischief, past experiences suggest that it is a 
possibility.
    Finally, a zoning process--particularly one that involves multiple 
agencies and stakeholders--can take time. OREC is concerned that 
development of projects would be put on hold pending completion of 
zoning. Any delay at this time will stop the marine renewables industry 
and quite likely, send many member companies overseas in search of 
greener pastures, or more aptly ``bluer waters'' that will allow for 
expeditious siting, testing and development of projects.
III. OREC's Preferred Approach
    As we have emphasized throughout, we commend the intent of H.R. 
5452 and its recognition that states need funding so that they can 
evaluate the effects, and eventually realize the benefits of marine 
renewables development in coastal waters. We believe that the 
legislation will work more effectively in the following manner.
    First, states should be given funding to study all of the elements 
listed in Section 2(b)(1)-(7). States would then make this data 
available both in-house, to resource agency staff and to developers. 
Developers could use this data to make informed decisions about where 
to site a project. For example, where a data survey shows baseline 
information about an area used by migratory mammals, a developer could 
choose to do the following: (1) it could decide to avoid the site 
entirely or (2) it could site a project there, but realize that it 
would need to evaluate potential effects and devise mitigation. A 
rational developer would recognize that option 2 poses more risk than 
option 1, but a developer might determine that the risk is worthwhile 
if for example, the resource offers substantial power potential or 
convenience to transmission. Because marine technology companies still 
bear the full cost of developing this new technology that will benefit 
our entire nation, ultimately, they are best suited to make the final 
decision about siting.
    Second, OREC would also like to encourage states to designate 
specific personnel dedicated to marine renewables development. The 
legislation might consider suggesting this option. A dedicated marine 
renewables office within each state coastal planning office will help 
build a body of institutional knowledge that will expedite 
certification decisions and give states more confidence in the 
decisions that they make.
IV. Conclusion
    OREC views the state coastal agencies as partners in the 
development of marine renewables resources. Well staffed, well informed 
and well funded state agencies that can provide data on the environment 
and infrastructure allows both states and developers to work together 
and make informed decisions about marine renewable energy projects in 
an expeditious manner. For that reason, OREC supports the goals of H.R. 
5452.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Elefant, for your 
testimony before the committee. And I do have some questions. 
And I understand Congresswoman Capps will be returning to the 
committee; she has some questions, as well.
    But I will begin with Mr. Stokes. I want to thank you for 
your support of the reauthorization of the CZMA.
    Do you have any idea how much it would cost to conduct a 
comprehensive ecological and socioeconomic assessment of our 
nation's coastal lands and waters?
    Mr. Stokes. I don't have a specific idea.
    Ms. Bordallo. Do you have a ballpark figure?
    Mr. Stokes. It would be difficult for me to even give a 
ballpark figure. I could go back and think about it a little 
bit, but I know we are talking, we are talking about investing 
some dollars to ensure that our future actions are appropriate.
    You know, in the State of Texas we have elements of some of 
this stuff going on already. So it is not like we would be 
recreating the wheel. But we need more collaboration. We have a 
lot of very good research entities, academic entities that are 
doing some type of this research already. Either, you know, 
using Coastal Management Program grants, or other sources of 
funding.
    It may not be as expensive as what you would think, because 
it may simply be coordinating a lot of what is going on out 
there. But again, I don't have a specific dollar figure for 
you, and I apologize.
    Ms. Bordallo. Could you provide this when you----
    Mr. Stokes. I would be glad to go back and see if we could 
put something together----
    Ms. Bordallo. To the committee?
    Mr. Stokes.--and bring it back to you.
    Ms. Bordallo. Thank you. And similarly, do you have a sense 
of what it would cost to develop state habitat restoration 
strategies for all 34 coastal states and territories?
    Mr. Stokes. Again, I am hesitant to put a dollar figure on 
that. But I mean, again, we have elements of this already in 
place.
    For instance, my organization, the Galveston Bay 
Foundation. We have something called the Habitat Conservation 
Blueprint that we put together about 10 years ago, that talks 
about literally over 170 different places around Galveston Bay 
that could benefit from a restoration project.
    You know, we haven't taken the step of prioritizing 
necessarily all 170 of those places. But again, I think it is 
taking advantage of some of the existing information that is in 
the community, and really taking it a step further.
    Ms. Bordallo. Again, the committee would like to have the 
figures once you have them.
    Mr. Stokes. OK.
    Ms. Bordallo. I understand from the committee here that the 
territories are defined in the CZMA. So I am resting a lot 
easier up here.
    Mr. Stokes. Good, good.
    Ms. Bordallo. The third question I have, does Restore 
America's Estuaries support H.R. 1907, the Coastal and 
Estuarine Land Protection Act?
    Mr. Stokes. Yes, absolutely. We are supportive of bringing 
the Coastal and Estuarine Land Protection Act within the 
Coastal Zone Management Act, because we think protecting land 
is a comprehensive part of coastal stewardship.
    However, if, for other reasons, it needs to be a stand-
alone bill, we are very supportive of the program in general.
    Ms. Bordallo. Thank you. And I have a couple of questions 
for Mr. Connors. I want to thank you also for your testimony 
before the committee.
    You mentioned that public access is a fundamental part of 
the CZMA, and should continue on as a priority, but separately 
from a working waterfront program.
    Should access that is appropriate not be facilitated by 
this grant program?
    Mr. Connors. Well, thank you for the opportunity to address 
that distinction.
    I think that the coastal zone programs through CZMA have 
had very active and high-level priority activities around 
public access. So when we use that term public access, we mean 
for all sorts of uses: view sheds, physical access to the 
shore, access across into the water for recreational pursuits, 
and that sort of thing.
    And the distinction we were trying to draw here is to say 
that working access is really related to commercial enterprise, 
those businesses that are operating on the waterfront and need 
to have that space and that opportunity to get back and forth 
from the water to carry out their activities.
    Some of those enterprises serve the general public in the 
sense that they are open for business, at a fee, such as a 
marina or a boat yard. And so in one sense you could think of 
them as providing a form of facilitated public access. That is, 
as part of their business enterprise. But they have to be there 
to carry out that enterprise. That type of public access could 
be distinguished from the kind of public access that we often 
operate looking for as a public arena, as a publicly owned boat 
ramp, a public park, a facility or an area that is open to the 
general public to come and to go. So we are just trying to draw 
that distinction, that when we are talking about working 
waterfronts, we are really talking about businesses conducting 
their business.
    I left a little room in the testimony to be able to say 
that it is not unreasonable to consider that in a government 
granting program, that you couldn't somehow continue to assure 
that that facilitated public access, at a reasonable fee to the 
general public, couldn't be guaranteed as part of a business 
operation. I don't know exactly how that might work out, and it 
might not be acceptable to some business operators. But you 
could conceive of a marina operator, for example, that could 
designate part of the property for a general access to the 
public, and another part of the property more dedicated to 
specific services, and so forth, for its customers.
    So that is the distinction I am trying to draw.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Connors.
    A member from California, my colleague, Lois Capps, has 
just returned. And she does have some questions of the panel.
    Mrs. Capps. Thank you all for your testimony. Ms. Elefant, 
I want to start with you if I could, please.
    You state that zoning could lock in, your words, the 
renewable energy industry when flexibility is needed. How would 
the identification of areas found suitable for renewable energy 
development lock in industry?
    Ms. Elefant. Well, right now the industry is in a very 
nascent phase. As I point out in my testimony just before the 
committee, there are no commercial renewable, off-shore marine 
renewable projects in the U.S., either wind, wave, or tidal, 
right at this time. And in fact, the only project that is in 
place is a commercial-size project in the East River comprised 
of six units. So that is all we have so far.
    The industry is still learning a lot about what works and 
which spots are appropriate. And what might appear, look 
appropriate today, based on some of the technologies we have, 
may turn out to be less than optimal at some future point.
    Now, we certainly do not foreclose the possibility that at 
some point, as these technologies reach commercial stage, that 
zoning might be appropriate. We are just concerned at this 
time, when we don't know enough about the technologies. And 
also where a lot of the projects that are being proposed, at 
least with wave and tidal and current, at least thus far, and 
probably for the next five to 10 years, are going to be small-
scale demonstration projects.
    Mrs. Capps. Thank you. Just to push it a little further. 
When you say that zoning may block transmission access, would 
you support surveys of off-shore areas that are updated 
regularly? In other words, kind of keep up with as the 
technology develops, and as the industries figure out what they 
want to do?
    Ms. Elefant. Right. Well, certainly for something like 
transmission, which is prone to change, and also where there is 
information available about planning. I mean, that would be 
something that would be easy to update the surveys for.
    Again, you know, certainly having regular updates would be 
an improvement; but at the same time, we still would have some 
concerns about putting in zones, even with updated----
    Mrs. Capps. For example, can I give an example?
    Ms. Elefant. Sure.
    Mrs. Capps. If this was, if the update was sort of 
scheduled for every five years, would that account for changes 
in technology and electricity delivery? For example, that 
might--is that a good time, or too little, or too long?
    Ms. Elefant. Probably at this stage, it really is too long. 
One of the arguments we have made to MMS, which is doing sort 
of five- to seven-year planning, is it really should be more 
frequent.
    But the other thing is, again, until we can start getting 
at least a little bit of operational experience with some of 
these projects, we don't really known entirely what to look for 
in the zoning process. And obvious things to avoid, you know, 
like a nesting area for endangered species.
    Mrs. Capps. Right, right.
    Ms. Elefant. I mean, certainly having data. And when I say 
that, you know, it states gather data, our developers will take 
that into account. They are not going to site a project on a 
nesting area for endangered species because no investor is 
going to finance something like that. And the technology is 
risky enough, you know, having this type of backlash is just 
going to, you know, it will sort of, the market will regulate 
the decisions at that point.
    Mrs. Capps. One final question for you. You mentioned that 
states and other stakeholders might influence the development 
of the zoning process, which would prevent projects from 
advancing.
    On the contrary, we have heard from stakeholders and states 
that it would be more helpful to do this under statutory 
directives. In other words, CZMA, they want that partnership to 
facilitate renewable energy, rather than an ad hoc approach 
currently underway.
    You don't agree with this, right? And why?
    Ms. Elefant. Well, I guess, as I said, we don't agree with 
it right at this time, just because we would like to see some 
flexibility.
    We also have some concerns about having a planning process 
at a time when there is no technology in place. Our industry, 
back in the 1970s, actually there was ocean thermal energy 
conversion legislation. It put into place a whole comprehensive 
scheme for licensing and permitting. And it turned out nothing 
was ever built. The technology wasn't ready, the scheme was too 
comprehensive.
    Mrs. Capps. I have got you.
    Ms. Elefant. And so we just have concerns that a lot of 
resources are going to be devoted to zoning and planning at 
this time, when really what we need to see is get some 
technologies in the water, and see really will they work; and 
if they work, what their potential is, if they are economically 
feasible at this time.
    Mrs. Capps. You have made your point well. Thank you.
    Ms. Elefant. OK, yes.
    Mrs. Capps. I have one more question, and I might run over 
time. If I could ask, approach Mr. Connors now.
    There is a race to the coastline going on right now. We 
have heard from Mr. Bailey that such advance planning of the 
kind I have been asking Ms. Elefant about would reduce future 
consistency conflicts, and lead to better projects that protect 
the environment and grow the industry.
    Now, public access is a focal point of the CZMA, and it is 
recognized prominently in my bill, or in the bill H.R. 3223. 
But you suggest removing that requirement as an element of the 
Working Waterfront Program. The shortage of access to the water 
impacts broad segments of the population, not just those 
directly tied to the water for its livelihood. We heard this 
from our first, very first witness.
    How can we enhance public access and commercial working 
access through existing and some new grant programs?
    Mr. Connors. Thank you for asking that question. I would 
like to say again that we suggested that that particular 
section of the bill that directly specified public access be 
provided at these particular kinds of places, where the 
business enterprise wouldn't be suitable, or just wasn't 
physically, perhaps, possible.
    I also do public access planning and work for our coastal 
program. And we have in place a number of programs that would 
be considered part of what you heard was core programs. And 
certainly every state I think has a public access program for 
all of the purposes. Those certainly need to be retained, and I 
think that what we offered in the testimony was that that is an 
important element of CZMA that needs to be retained and 
supported where necessary.
    We certainly need to make sure that the public, the various 
publics, are getting access to the water.
    I think the coalition's concern here was that there was a 
danger perhaps of trying to do too much in this one program; 
and that by keeping it more focused on commercial problems, and 
that we still would have other programs available to use, would 
be appropriate.
    Mrs. Capps. Thank you. I was offered the opportunity to go 
further, which I would love to do, but I am going to thank our 
Chairwoman for allowing me this indulgence of going over time.
    Thank you. And thank you all.
    Ms. Bordallo. I thank my colleague, Mrs. Capps, from 
California.
    I have just a couple of more questions before we wrap up 
this Subcommittee hearing.
    To Mr. Connors, can you speak further to the balance 
between administering a competitive grants program and a need 
to proceed in a timely manner when a critically important 
opportunity arises? Are you asking for some type of emergency 
grant authority? Or what would trigger the use of such an 
authority?
    Mr. Connors. Well, what is underlying that point is the 
fact that the opportunity to work with a, in our case 
commercial fishing business, really is driven by the willing 
seller at a fair market value. And those provisions, by the 
way, are good provisions.
    And what happens is that you have to have a project that is 
fairly patient, in the sense that it can wait for the dollars 
to make it through the process. So, and probably what underlies 
a process of grant-making, to make it as quick as possible, it 
was adequate capacity in the program manager's hands to get the 
paperwork done, because there is a process of due diligence 
that has to be undertaken. But basically, program capacity.
    NOAA has a long track record of providing competitive 
grants. And we all participate in that process. And I really 
don't know the precise mechanism for an emergency. You could 
have a hold-back of a certain percentage of grant, you know, of 
appropriated funds for emergency. But emergency is always a 
little difficult to define, so I am not going to push too far 
on that. I just want to make sure that the committee is 
sensitive to the fact that these projects do have a quick turn-
around time sometimes, perhaps a little quicker even than a 
land conservation project, because you have business owners 
trying to turn the property over, and you have people trying to 
buy it, and you can hold them up.
    Ms. Bordallo. Very good, thank you. Mr. Stokes, I have one 
question for you, as well.
    In your statement you said that a way to strengthen the 
non-governmental role in coastal habitat restoration is to 
provide the explicit authority to establish cooperative 
agreements between NOAA and the non-governmental operations.
    Is this authority not already provided to NOAA under 
Section 310 of the CZMA? And do you mean for this authority to 
be more specific to environmental restoration activities?
    Mr. Stokes. I think there are elements of the authority 
there. I think we have partnerships with NOAA, and we felt like 
it would just be more helpful to explicitly have that listed, 
and certainly as it applies to restoration activities.
    Ms. Bordallo. So you do want to be more specific, is that 
what I am hearing here?
    Mr. Stokes. Yes.
    Ms. Bordallo. Yes. Well, again, I want to thank Mr. Stokes, 
Mr. Connors, and Ms. Elefant--is that the way----
    Ms. Elefant. Elefant, that is right.
    Ms. Bordallo. Elefant.
    Ms. Elefant. Yes.
    Ms. Bordallo. For your testimonies this morning. And thank 
you for your patience in waiting for the third panel to be 
seated. But we appreciate all your input.
    Also, to the members of the Subcommittee, if any of you may 
have--they are not here right now, but I am sure their 
committees will pass the word--if any of them have additional 
questions for our witnesses, we will ask you to respond to 
those in writing. And the hearing record will be held open for 
10 days for these responses.
    If there is no further business before the Subcommittee, 
the Chairwoman again thanks the members of the Subcommittee and 
our witnesses this morning.
    The Subcommittee stands adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]
    [A letter submitted for the record by Frank Blum, Executive 
Director, South Carolina Seafood Alliance, follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    .eps[A letter submitted for the record by Hugh 
Cowperthwaite, Fisheries Project Director, Coastal Enterprises 
Inc., follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [A statement submitted for the record by Michael P. De 
Luca, on behalf of the National Estuarine Research Reserve 
Association, follows:]

Statement submitted for the record by Michael P. De Luca, on behalf of 
          the National Estuarine Research Reserve Association

Introduction
    Chairwoman Bordallo and Members of the Subcommittee, thank you for 
the opportunity to testify today on behalf of H.R. 5451, the Coastal 
Zone Management Act Reauthorization Amendments, and related coastal 
amendments. My name is Mike De Luca and I serve as the Legislative 
Director for the National Estuarine Research Reserve Association 
(NERRA). I also manage the Jacques Cousteau National Estuarine Research 
Reserve and serve as the Senior Associate Director of the Institute of 
Marine and Coastal Sciences at Rutgers University. With the broad 
expertise in working waterfronts, climate change, and coastal renewable 
energy represented by the other witnesses today, my comments will focus 
primarily on H.R. 5451. I will emphasize the importance of regional 
approaches to coastal management, the need to capitalize on emerging 
ocean technologies for coastal applications, and the importance of 
broadening efforts to build capacity among the coastal management 
community and engage the public in stewardship of our coasts.
    Appended to my testimony is a draft NERRS subtitle for 
consideration in the CZMA developed by NERRA. The draft aims to codify 
core programs established since the last reauthorization of the CZMA, 
establishes a regional role for the NERRS to leverage the capabilities 
of protected area networks on behalf of regional coastal and estuarine 
conservation issues, and seeks support for technologies for research 
and monitoring, education and training, and stewardship activities. I 
respectfully request that this Appendix and my complete written 
statement be included as part of the written record.
National Estuarine Research Reserve Association
    NERRA is dedicated to science-based management of our nation's 
estuaries and coastal systems, and serves as the primary advocate for 
the National Estuarine Research Reserve System (NERRS), a network of 27 
(soon to be 29) regionally-based programs representing diverse 
estuarine and coastal ecosystems throughout the U.S. and its 
territories. Through a state-federal partnership codified in the 
Coastal Zone Management Act, the reserves play a critical role in 
national efforts to sustain healthy estuaries and coastal communities. 
NERRA strongly supports amendments to the CZMA that enable coastal 
states and communities to protect coastal resources in the face of a 
rapidly shifting environment and new demands for renewable energy 
resources.
Comments on CZMA Reauthorization Amendments
    Much has changed since the CZMA was last authorized in 1996. 
Devastating storms, natural disasters, declining natural resources, 
booming population growth along the coast and changing climate have 
altered the pace and scope of environmental change. This has led to 
alteration and loss of coastal resources, and degraded water and 
habitat quality throughout much of the nation's coastal zone. The rapid 
pace and scale of change demands regional approaches to coastal 
conservation, use of innovative technology, broad efforts to build 
capacity among coastal decision-makers, and heightened public awareness 
to engage citizens in active stewardship of our coasts. Collectively, 
these actions can help to reduce the vulnerability of coastal resources 
and communities to unwanted change, but will require substantive 
resources.
Regional Approaches to Coastal Conservation
    The broad national mandates that constitute the CZMA are 
administered through state-based programs. Many successful coastal 
management strategies, tools, and programs have resulted from past 
support. Successes, as well as some failures, are shared through a 
variety of information and learning networks. Today, an increasingly 
broad suite of regional environmental issues transcend state boundaries 
and bear on coastal ecosystem health, and the quality of life and 
economic vitality of coastal communities. These include sediment and 
water contamination, fishery management, nutrient enrichment, declines 
in natural resources, habitat loss, beach erosion, and harmful algal 
blooms.
    A myriad of government, academic and private agencies and 
institutions deliver coastal programs and services at many scales. Two 
excellent regional mechanisms have emerged to coordinate coastal 
activities in the Gulf of Mexico and on the West Coast--the Gulf of 
Mexico Alliance and the Western Governors Association. Although 
relatively new, these organizations show promise as regional conveners 
and a means to leverage resources on behalf of regional coastal issues. 
Long-term support will be required to stabilize these organizations and 
to foster similar approaches in other coastal regions.
    Broader regional networks also are in place that coastal managers 
can capitalize on to align technical capacity with regional needs. One 
example is the Regional Associations created to implement the 
integrated ocean observing system. User needs and management priorities 
vary from region to region and the Regional Associations are presently 
engaging a broad representation of industries, government at all 
levels, academic institutions, and the public. Broader representation 
from the coastal management community is needed in the leadership of 
these and other regional structures to focus capacity on regional 
coastal issues.
    It should also be noted that the NERRS have expressed strong 
interest in leading efforts to leverage the capabilities of protected 
area networks to address regional coastal and estuarine conservation 
issues. Capabilities that could benefit these networks include mapping 
and characterization of marine and coastal protected areas, engagement 
of citizens in stewardship of marine and coastal protected areas, and 
building capacity of coastal managers to conserve, manage and protect 
coastal and estuarine ecosystems.
Innovative Technology
    Advances in undersea research and technology have enabled us to 
enter a new era in oceanography--that of the well-sampled ocean. New 
samplers, sensors, autonomous vehicles and ocean observatories now 
allow us to sample the ocean at time and space scales never before 
achieved. Technology development, including development of samplers and 
sensors for the emerging network of ocean observing systems, represents 
an opportunity for the coastal management community. Emerging 
technologies such as coastal ocean observing platforms and autonomous 
undersea vehicles have begun to provide timely information on coastal 
processes. When complete, this system will enable integration of real-
time physical and biological data from chemical, optical, and acoustic 
sensors, satellites, undersea robots, and a high-frequency radar system 
for synoptic measurement of surface currents. Real time data from 
arrays of sensors and forecast models will be used to mitigate the 
effects of flooding and erosion from hurricanes, tsunamis, and other 
severe storms. The sources, fates, and effects of pollutants will be 
better understood using better means of tracking sediments and 
pollutants in the ocean. High resolution surveys of ocean habitat using 
autonomous underwater vehicles, and use of the observing system will 
advance tracking and sampling of fish populations. The maritime, 
coastal recreation, and power industries require accurate forecasts to 
maintain efficient and reliable operations. All coastal stakeholders 
will benefit from better observations of our coastal ocean 
surroundings.
    As a result of observing system technology, efforts are under way 
to develop a predictive capability to enable resource managers and 
coastal decision makers to use science-based decisions to address 
management issues. The success of these efforts will benefit from 
expansion of the estuarine components of the observing system (e.g., 
NERRS System wide Monitoring Program), provision of technical 
assistance to develop coastal information products in response to 
management needs (e.g., scale up of the NERRS Coastal Training 
Program), and use of regional networks to bring the capacity of the 
science and technical community to bear on the needs of the coastal 
management community.
    To date, technology development efforts at NOAA have been driven by 
operational research needs in the ocean and Great Lakes, and the 
undersea research needs of the academic community. This has led to 
development of an impressive inventory of undersea assets and 
capabilities in response to scientific demand. A mechanism is required 
to harness this capacity on behalf of pressing coastal issues. One 
approach is to align the capabilities of the National Undersea Research 
Program with the information needs of coastal managers. This can be 
accomplished in a number of ways, but certainly could benefit by 
inclusion in the CZMA.
Build Capacity Among Coastal Decision-makers
    One of the most significant challenges in managing the nation's 
coasts today is the need to link science-based information to local 
coastal communities. Decisions made by coastal communities can have 
profound, long-term consequences for estuarine and coastal 
environments. Issues such as nonpoint source pollution, stormwater 
management, fisheries management, habitat loss and alteration, and 
shoreline management are the subject of constant debate by the public, 
the media, and coastal decision-makers. A common feature of these 
debates is the need for better information and training about the 
coastal environment. Elected officials, land use planners, regulatory 
personnel, coastal managers, and agricultural and fisheries interests 
are key decision makers who often do not have adequate access to 
relevant science-based information, training, or available technology 
to make informed decisions affecting the coast. Building on past 
success with services for coastal decision-makers (such as workshops on 
global climate change or the transfer of management-oriented research 
to coastal decision-makers in many states using an interactive format 
via the Internet), the NERRS has developed a Coastal Training Program 
(CTP) to meet this need.
    The CTP enhances existing NERRS training delivery systems to 
provide the best available science-based information, tools, and 
techniques to individuals and groups that are making important 
decisions about resources in coastal watersheds, estuaries, and 
nearshore waters. Programs have taken the form of workshops, seminars, 
distance learning, technology applications and demonstrations. 
Opportunities for information exchange and skill training are expanding 
coastal management networks and collaboration across sectors, and 
improving local understanding of the environmental, social, and 
economic consequences of human activity in the coastal zone. These 
programs also make use of field experiences, relevant research and 
monitoring, and facilities provided by the site-based reserves.
    The CTP was designed to increase the current capacity of Reserves 
to deliver technical training services to under-served constituent 
groups. Reserve staff continues to work closely with State coastal 
programs and others to identify critical issues in the region and key 
coastal decision-makers that could benefit most from relevant science 
and training. Participants in CTP have included state and local elected 
and appointed officials, agency staff, volunteer boards, members of 
NGOs, business organizations, and state and regional professional 
associations whose daily decisions impact coastal resources.
    Reserve staff implement the CTP in partnership with national and 
local organizations. At the national level, NOAA's Estuarine Reserves 
Division provides strategic and budget planning and support in 
partnership with NOAA's Coastal Management Programs, Sea Grant, and the 
Coastal Services Center. At the local and regional levels, individual 
Reserves are developing CTP partnerships with State coastal programs, 
Sea Grant programs, local universities and researchers, professional 
organizations, local government agencies, non-profit organizations, and 
a variety of others with expertise, skills, training sites, and 
logistical support. Support is needed particularly to support delivery 
of CTP programs at these regional scales.
Citizen Engagement in Coastal Stewardship
    Many of us in the hearing room today are well aware of the value of 
coastal resources to the environmental quality and economic vitality of 
coastal communities. What continues to be surprising though, is the 
general lack of awareness of this value among the public, especially 
those who reside in or vacation in coastal areas. My home state of New 
Jersey has 130-miles of shoreline and our beaches receive millions of 
recreational visits annually. Despite our close connection to the shore 
for recreation, and its dramatic effect on our weather, recreation, and 
economy, New Jersey students are not required in the state science 
education standards to learn about our coasts and oceans. In general, 
concepts and topics about the coastal ocean are hardly taught in K-12 
schools, and rarely appear in a meaningful way in curriculum materials, 
textbooks, assessments or standards. The burden of advancing coastal 
and estuarine literacy is increasingly the responsibility of the 
coastal and estuarine science and management communities and educators 
who are willing to teach ``outside the box.''
    Many of us are very familiar with grass roots education efforts 
that have made a difference with recycling programs, litter control, 
seat belt use, and cigarette smoking to name a few. The common 
denominator among these programs was heightened awareness about how 
changes in individual behavior could produce broad societal benefit. 
Support for broad national efforts is needed to increase understanding 
and awareness of estuarine systems and improve decision-making among 
key audiences (K to Gray) to promote stewardship of the nation's 
coastal resources. Many excellent programs exist at the local and state 
levels, but lack the resources and delivery system to scale up 
nationally, and to be made regionally relevant. Formal and informal 
education and interpretation programs must be tailored to key audiences 
around priority coastal resource issues and incorporate science-based 
content. We must also make new technologies and real time, real world 
coastal science information accessible to the classroom and the general 
public. Programs such as the CoolClassroom that harness real-time data 
streams from ocean observing systems for classroom applications are 
good models. These programs do not have to be created, they just have 
to be tailored to coastal issues. These programs do not have to build 
new administrative structures, they just need to be advanced in 
partnership with existing organizations such as the National Marine 
Educators Association, Centers of Ocean Sciences Education Excellence 
and the NERRS.
Summary Recommendations
    NERRA offers the following recommendations in support of CZMA 
Reauthorization.
    <bullet>  Codify the research and monitoring, education and coastal 
training, and stewardship programs as core elements of the NERRS.
    <bullet>  Establish a role for the NERRS to lead efforts to 
leverage the capabilities of protected area networks to address 
regional coastal and estuarine conservation issues
    <bullet>  Authorize traditional funding for construction and land 
acquisition as a core NERRS element
    <bullet>  Authorize funding for technologies for research and 
monitoring, education and training, and stewardship activities.
    <bullet>  Provide incentives for regional approaches to coastal 
management
    <bullet>  Capitalize on emerging ocean technologies for coastal 
applications
    <bullet>  Align the capabilities of the National Undersea Research 
Program with the information needs of coastal managers
    <bullet>  Broaden efforts to build capacity among the coastal 
management community
    <bullet>  Broaden efforts to engage the public in stewardship of 
our coasts
    <bullet>  For grants under section 315, authorize funding for FY 
2009 at a level of $40 million for operations, $15 million for 
construction, land acquisition and improvement, and technology, and $10 
million for regional coordination, with authorized levels increasing in 
the out years per the attached appendix.
    With respect to authorization levels, the annual appropriation for 
the NERRS has remained flat since FY 2002 when the budget was $ 16.4 
million. Costs for operations and the addition of new sites have 
impeded efforts to expand existing successful programs (SWMP and CTP) 
in response to growing demand, and have stifled growth of system wide 
initiatives such as KEEP, an emerging K-12 education program. Two 
additional sites may be designated soon compounding the static budget 
situation even further.
H.R. 5452 Coastal State Renewable Energy Promotion Act of 2008
    This represents a laudable effort to survey coastal state and 
federal waters to assess areas for potential development of renewable 
energy sources. Data to be collected, such as hydrographic and 
bathymetric surveys, characterization of sensitive marine ecosystems, 
and surveys of existing marine uses will have many other uses beyond 
the intent of this amendment. Given the need to develop regional 
approaches to coastal management, and the value of these types of data 
for regional programs, the amendment should direct the Secretary to 
establish consistent standards for data collection to optimize use and 
value of the data.
    NERRA also notes that the cap on annual grants of $750 thousand may 
not be suitable to survey certain areas that are relatively 
inaccessible to conventional survey equipment. For example, the Hudson 
Submarine Canyon off the coast of New Jersey and New York requires 
advanced undersea technology to sample and survey. A single cruise to 
this important marine ecosystem may easily exceed the proposed cap.
    NERRA also notes that a bill to authorize integrated ocean mapping 
is pending in Congress. Mapping and survey activities conducted under 
the authority of these two bills should be coordinated.
H.R. 5453 Coastal State Climate Change Planning Act of 2008
    Climate change has been an issue of strong interest for the NERRS, 
especially in relation to the role of reserves as long-term reference 
sites. The NERRS receive regular consideration by funding agencies as 
preferred systems in which to conduct long-term research. This is based 
primarily on the relatively low level of human disturbance at reserve 
sites, history of targeted research on estuarine variability, and the 
commitment to a long-term monitoring program that helps to characterize 
the natural variability that governs structure and function of 
estuarine ecosystems. NERRA recommends that the amendment recognize the 
role that reserves can play as pilot and demonstration sites for 
adaptive management strategies for climate change. Coastal states 
should be encouraged to capitalize on reserve sites for this purpose, 
as well as for assistance with training programs that can be supported 
by the existing Coastal Training Program and monitoring programs that 
can be informed by the existing System wide Monitoring Program, the 
only national monitoring program for estuaries in the U.S..
H.R. 3223 Keep Our Waterfronts Working Act of 2007
    Working waterfronts have increasingly become difficult to sustain 
with rising property taxes and competing interest from private 
developers to build residential, waterfront properties. Many benefits 
are derived from working waterfronts and a grant program to help 
preserve, protect and expand access for this stakeholder group is 
certainly warranted. Inclusion of a public access requirement in the 
vicinity of a working waterfront is a good and necessary element of a 
working waterfront plan.
Closing
    Reauthorization of the CZMA provides an opportunity to enhance the 
capabilities of coastal communities by:
    <bullet>  Providing effective regional mechanisms and harnessing 
new technologies to meet information needs
    <bullet>  Strengthening the capacity of the state-federal 
partnership to support research and monitoring, education and coastal 
training, and stewardship efforts relevant to local, state and 
especially regional needs, and
    <bullet>  Improving the access and delivery of science-based 
information to build capacity to forecast and inform community 
responses to changes in coastal systems.
    Existing capabilities within the NERRS, combined with regional 
approaches to coastal management and application of emerging 
technologies to coastal management issues can help build science-based 
capacity for decision-making, actively engage the public in coastal 
stewardship, and enable us to make informed decisions with respect to 
the dynamic drivers that govern change and stability in our coastal 
systems.
    I'd like to thank Chairwoman Bordallo and members of the Committee 
for the opportunity to present testimony on behalf of amendments to the 
Coastal Zone Management Act. I will be pleased to answer any questions 
the Committee may have at this time.
Appendix. NERRS Subtitle for inclusion in CZMA Reauthorization
Title I. The National Estuarine Research Reserve System 1/23/08
1. Purpose
    The purpose of this Title is to support science-based management of 
the nation's coastal and estuarine systems through a national network 
of estuarine research reserves. The network shall play a critical role 
in efforts to improve the understanding, management, and protection of 
coastal and estuarine resources. Each reserve shall conduct research, 
monitoring, education, training and stewardship programs tailored to 
meet local, regional, and state information needs. Reserve programs 
shall support coastal management through a process that engages a 
diverse community of coastal stakeholders, and that complements or 
supports the state-based coastal zone management programs.
2. Establishment and Responsibilities of the National Estuarine 
        Research Reserve System
    A National Estuarine Research Reserve System (hereinafter referred 
to as the ``Reserve System'') is established as a state-federal 
partnership program between the National Oceanic and Atmospheric 
Administration (hereinafter referred to as NOAA) and the coastal 
states. The Reserve System shall be dedicated to science-based 
management of our nation's estuaries and coastal systems, and shall 
represent the diverse estuarine and coastal ecosystems throughout the 
U.S. and its territories. State-federal cooperation shall be used to 
develop system-wide plans, partnerships, initiatives and any other 
national activities of the Reserve System.
    The Reserve System consists of those estuarine research reserves 
designated under section 3 of this act and in operation as of January 
1, 2008.
    Primary responsibilities of the Reserve System are to:
    <bullet>  Deliver science-based information to local, state, and 
national decision-makers to further the sound management of coastal and 
estuarine resources and communities,
    <bullet>  Serve as a national model for the stewardship of coastal 
and estuarine resources and best management practices using a system of 
protected areas,
    <bullet>  Support research and monitoring relevant to local, 
regional and national needs,
    <bullet>  Provide effective mechanisms to assess the research, 
technology and information needs of coastal communities at local and 
regional scales, and
    <bullet>  Increase the nation's awareness of coastal and estuarine 
environments through education programs for educators, students, adult 
learners and the public.
3. Designation of National Estuarine Research Reserves
    As of January 1, 2008, the Secretary may designate a coastal and 
estuarine area as a national estuarine research reserve if ``
    <bullet>  the Governor(s) of the coastal state(s) nominates the 
coastal and estuarine area for such designation,
    <bullet>  the Secretary finds that
      <all>  the area is a representative coastal or estuarine 
ecosystem that is suitable for long-term research, monitoring, 
education and training, and stewardship, and contributes to the 
biogeographical and typological representation of the Reserve System,
      <all>  existing state laws provide adequate, long-term protection 
of reserve ecosystems including relevant watersheds and coastal ocean 
areas, and ensures a stable environment for research, monitoring, 
education and training, and stewardship,
      <all>  the reserve designation will promote public awareness and 
understanding, science-based actions and decisions, and provide 
suitable opportunities for public education, interpretation, and 
training,
      <all>  the coastal state(s) in which the reserve is proposed has 
complied with any regulations promulgated by the Secretary to implement 
this section.
    The Reserve System shall be complete when there is at least one 
reserve in each coastal and Great Lakes state. Coastal and Great Lakes 
states with more than one major biogeographic region may establish an 
additional reserve(s) to represent these areas.
4. Research and Monitoring
Research
    The Reserve System offers a wide range of relatively pristine 
estuarine environments in which to conduct both basic and applied 
research, and provides a stable capacity for research through long-term 
protection of coastal and estuarine resources. An overarching priority 
for the Reserve System shall be to collaborate with scientists to 
conduct and support research activities within reserve boundaries and 
adjacent areas that address significant coastal management concerns 
through coordinated research and monitoring, and to make results of 
this research available to inform science-based management of coastal 
and estuarine systems.
    Research and monitoring efforts of the Reserve System shall focus 
on integrating themes that can be addressed at local, regional and 
national scales in response to coastal resource management needs. 
Examples of integrating themes include but are not limited to:
    <bullet>  Estuarine and coastal ecosystem response to climate 
change;
    <bullet>  Land-sea-air linkages and interactions with estuarine and 
coastal ecosystems; and
    <bullet>  Human interactions with estuarine and coastal ecosystems.
    Site-specific research and monitoring programs shall be directed at 
improving understanding of ecosystem function and responses, 
restoration success, anthropogenic impacts on critical estuarine 
resources, and human health connections to these resources. Reserve 
education and training programs shall ensure that findings from the 
research and monitoring programs are incorporated into timely education 
and outreach materials and workshops.
Monitoring
    The Reserve System shall establish and maintain a System-wide 
Monitoring Program to advance knowledge of coastal and estuarine 
ecosystem function, detect trends in water and habitat quality, support 
ecosystem modeling, science-based ecosystem management, education and 
training programs, and to serve as a reference site for long-term 
studies. The System-wide Monitoring Program shall be designed to 
identify short-term variability and long-term trends in coastal 
environmental quality and health at national, regional, and local 
levels, and focus research efforts on three critical areas: 1) coastal 
and estuarine water quality, 2) coastal and estuarine biodiversity, and 
3) coastal and estuarine land use and habitat change. System-wide 
monitoring data collected by the Reserve System shall be managed and 
accessed via a central repository and made available to state and 
federal agencies, universities and coastal communities.
    The System-wide Monitoring Program shall be operated as a backbone 
element of the nation's coastal ocean observing system, support 
development of information products for coastal managers and 
stakeholders, and support enrichment of science education and public 
awareness of coastal and estuarine issues.
    The Reserve System shall establish and maintain training 
opportunities for graduate students including the conduct of research 
that responds to coastal management priorities identified by the 
Reserve System and individual reserves.
    Results of research and monitoring programs shall be synthesized on 
a periodic basis for the coastal management and research communities.
5. Education and Coastal Training
Education
    The Reserve System shall establish educational programs for K-12 
educators and students, adult learners, and the general public to 
enrich science education, advance ocean literacy and raise awareness of 
coastal and estuarine issues. The Reserve System shall support 
education opportunities for the next generation of coastal and 
estuarine researchers, educators, natural resource managers, and the 
public.
Coastal Training Program
    The Reserve System shall establish and maintain a Coastal Training 
Program to build capacity of coastal communities to address issues of 
coastal protection and development, meet the need for science-based 
information to inform coastal decision-making at the federal, state, 
and local levels, and to improve local understanding of the 
environmental, social, and economic consequences of human activity in 
the coastal zone. Specifically, the Coastal Training Program shall 
advance science-based management of coastal and estuarine ecosystems, 
build technical capacity and transfer best management practices to the 
coastal management community. This program shall respond to coastal 
management needs at national, regional, and local scales.
6. Stewardship
    The Reserve System shall provide long-term protection of natural 
resources within a national network of protected areas, serving as a 
model for sustainable management practices to coastal communities. 
Stewardship efforts shall be conducted through an integrated program 
involving protection, management, and restoration of estuarine and 
coastal ecosystems and their associated uplands.
    Stewardship efforts of the Reserve System shall focus on 
integrating themes that can be addressed at local, regional and 
national scales in response to coastal resource management needs. 
Examples of integrating themes include but are not limited to:
    <bullet>  Effects of invasive species,
    <bullet>  Restoration science, and
    <bullet>  Public use of coastal and estuarine habitats and 
resources.
7. Technical Assistance
    The Reserve System shall provide science and technical assistance 
to improve the capacity of coastal communities to protect and conserve 
coastal resources through research and monitoring, education and 
training, and stewardship programs. Where suitable, these programs 
shall be conducted in collaboration with relevant partners to leverage 
resources, complement the mutual interest of other protected area 
programs, and to avoid duplication of effort. Particular emphasis 
should be given to partners that manage marine protected areas, and to 
partners that have coastal management responsibilities. Support shall 
be provided by the Secretary to foster interagency collaboration on 
coastal management programs, activities and services, and to support 
seamless networks of marine protected areas.
Cooperative Institute for Coastal and Estuarine Environmental 
        Technology
    The Cooperative Institute for Coastal and Estuarine Environmental 
Technology shall collaborate with the Reserve System to develop and 
apply innovative coastal and estuarine technology, and to support the 
development, application, training, technical assistance, and transfer 
of coastal management technology, information, and practices.
Coastal Service Center
    The Coastal Service Center at NOAA shall collaborate with the 
Reserve System to develop and apply innovative coastal management 
products and services, and to support the development, application, 
training, technical assistance, and transfer of coastal management 
products, information and services.
Regional Associations of the Integrated Coastal Ocean Observing System
    The Regional Associations of the Integrated Coastal and Ocean 
Observing System shall cooperate with the Reserve System to develop and 
apply information products and services in response to the needs of 
coastal managers, and to support development, application, training, 
technical assistance, and transfer of coastal information.
8. Promotion and Coordination of the Reserve System
    The Secretary of Commerce shall take such action as is necessary to 
promote and coordinate the use of the Reserve System for research and 
monitoring, education and training, and stewardship purposes including:
    <bullet>  Requiring that NOAA give priority consideration to 
research and monitoring, education and training, and stewardship 
activities that use the Reserve System to conduct or support activities 
that relate to coasts and estuaries,
    <bullet>  Consulting with other federal and state agencies to 
promote use of one or more reserves within the Reserve System by such 
agencies when conducting research and monitoring, education and 
training, and stewardship activities, and
    <bullet>  Establishing partnerships with other federal and state 
agencies to coordinate and collaborate when conducting estuarine 
research and monitoring, education and training, and stewardship.
9. Construction, Land Acquisition and Improvement, and Technology
    Designated reserves shall acquire and improve property, and 
construct and renovate facilities to strengthen protection of key land 
and water areas, enhance long-term protection of the areas for research 
and education, and provide for facility and exhibit construction to 
further education and research goals. Designated reserves shall also 
acquire, upgrade and operate major equipment in support of system-wide 
programs and site-specific programs.
    A competitive process shall be established to support construction 
and renovation of core facilities and capabilities for the Reserve 
System in support of research and monitoring, education and coastal 
training, stewardship, and interpretation programs, activities and 
services. Similarly, a competitive process shall be established for 
land acquisition and improvement to add key land and water areas 
essential to conserve, manage and protect ecological integrity of 
reserves, including adjacent watersheds and coastal ocean areas. The 
Reserve System shall also establish a mechanism to support acquisition, 
replacement and upgrading of equipment, and operation of shared major 
equipment for research and monitoring, education and coastal training, 
and stewardship programs and activities.
    The Reserve System shall establish, maintain, and periodically 
update priorities for the construction and renovation of facilities, 
the acquisition and improvement of key land and water areas, and the 
acquisition, upgrading or replacement of equipment vital to research, 
environmental monitoring, and education.
10. Regional Coordination
    The Reserve System shall lead efforts to leverage the capabilities 
of protected area networks to address regional coastal and estuarine 
conservation issues. Existing mechanisms shall be used where possible 
to:
    <bullet>  support a seamless network of marine and coastal 
protected areas
    <bullet>  map and characterize marine and coastal protected areas
    <bullet>  engage citizens in stewardship of marine and coastal 
protected areas, and
    <bullet>  increase the technical capacity of coastal managers to 
conserve, manage, and protect coastal and estuarine ecosystems.
    The Secretary shall provide financial assistance for the Reserve 
System to contribute science, training and education capabilities to 
protected area networks, and to coordinate and convene regional-scale 
programs, activities and services of this section.
11. Financial Assistance
    The Secretary shall make grants to a reserve for the following 
purposes:
    <bullet>  to operate and manage a reserve, and to support research 
and monitoring, education and training, and stewardship activities 
consistent with the guidelines stated in sections 4, 5, 6, and 7 above,
    <bullet>  to acquire and improve such lands and waters, and any 
property interests therein, as are necessary to ensure the appropriate 
long-term management of an area as a reserve, as stated in section 9,
    <bullet>  to construct and renovate appropriate reserve facilities 
as stated in section 9,
    <bullet>  to acquire, upgrade, replace, operate and maintain 
equipment or shared major equipment for research and monitoring, 
education and coastal training, and stewardship programs and activities 
as stated in section 9, and
    <bullet>  to contribute reserve science, training and education 
capabilities to protected area networks, and to coordinate and convene 
regional-scale programs, activities and services of section 10.
    The amount of financial assistance to operate and manage a reserve 
may not exceed 70 percent of the costs incurred.
    The amount of the financial assistance with respect to the 
acquisition and improvement of lands and waters, or interests therein, 
for any one reserve, may not exceed an amount equal to 50 percent of 
the costs of the lands, waters and interests therein.
    The amount of financial assistance to construct and renovate 
reserve facilities may not exceed an amount equal to 70 percent of the 
costs of the construction.
    The amount of financial assistance under this section provided from 
amounts recovered as a result of damage to natural resources located in 
the coastal zone may be used to pay 100 percent of the costs of 
activities carried out with such funding.
    The Secretary may--
    <bullet>  enter into cooperative agreements or contracts with any 
nonprofit organization established to benefit a reserve or the reserve 
system, authorizing the organization to solicit donations to carry out 
projects, other than general administration of the reserve or the 
System, that are consistent with the purpose of the reserve and the 
System, and
    <bullet>  accept donations of funds and services for use in 
carrying out projects, other than general administration of a reserve 
or the System, that are consistent with the purpose of the reserve and 
the System.
    Donations accepted under this paragraph shall be considered as a 
gift or bequest to or for the use of the United States for carrying out 
this section.
12. Evaluation
    A periodic review of system-wide programs shall be conducted by 
NOAA to evaluate performance and responsiveness to program priorities 
of the Reserve System. Performance metrics shall be established for all 
system-wide programs. The Secretary shall periodically review and 
evaluate the operation and management of each reserve including the 
research and monitoring, education and training, and stewardship 
activities conducted with the reserve.
13. Authorization of Appropriations
For Fiscal Year 2009
    $ 40 million for section 2.
    $ 15 million for section 9.
    $ 10 million for section 10.
For Fiscal Year 2010
    $ 45 million for section 2.
    $ 18 million for section 9.
    $ 15 million for section 10.
For Fiscal Year 2011
    $ 50 million for section 2.
    $ 20 million for section 9.
    $ 20 million for section 10.
For Fiscal Year 2012
    $ 55 million for section 2.
    $ 25 million for section 9.
    $ 20 million for section 10.
For Fiscal Year 2013
    $ 60 million for section 2.
    $ 30 million for section 9.
    $ 20 million for section 10.
                                 ______
                                 
    [A statement submitted for the record by Lynne Hale on 
behalf of The Nature Conservancy, follows:]

      Statement of Lynne Hale on behalf of The Nature Conservancy

    The Nature Conservancy (The Conservancy) is an international non-
profit dedicated to protecting ecologically important lands and waters 
for nature and people. Our success in protecting over 117 million acres 
of land and 5,000 miles of rivers worldwide and operating over 100 
marine conservation projects globally has depended on our ability to 
use a science-based approach to pursue pragmatic solutions with our 
partners in all levels of government and the private sector. We would 
like to thank the Subcommittee for holding this hearing to review 
recent proposals to reauthorize and amend the Coastal Zone Management 
Act (CZMA) and are pleased to submit the following written statement 
for the record.
    Since it was first enacted in 1972, CZMA has played an important 
role in creating the context in which The Conservancy has worked with 
its partners on coastal and marine issues. CZMA creates a framework in 
which coastal states, in partnership with the National Oceanic and 
Atmospheric Administration (NOAA), strive to sustain the values of the 
coast, weigh tradeoffs, and make decisions to manage the multiple uses 
that must be accommodated in coastal areas, including conservation of 
wetlands and other important coastal and marine habitats, economic 
development, and appropriate access to public resources, among others. 
Since its enactment over 35 years ago, the essential elements of CZMA--
the voluntary nature of the state-federal partnership; the importance 
of the federal consistency provision for approved state programs, and 
the central role of public participation--have proven sound and provide 
a strong foundation on which to build. This foundation of programs, 
policies, and processes enable coastal managers to face today's 
challenges as well as those that will surely arise in the future. While 
the legislation discussed here today propose important changes to 
funding and additional programs and authority, The Conservancy believes 
CZMA as a whole needs to be updated and amended to reflect the lessons 
learned over the last 30 years, to include specific provisions that 
will better enable it to meet future challenges. As such, we offer 
suggested principles for consideration in a broader reauthorization 
process, followed by more specific comments on the proposed legislation 
discussed here today.
Principles for CZMA Reauthorization
Multi-objective Planning for Ecosystem Function and Human Uses
    The Conservancy supports a reauthorized CZMA that reaffirms the 
vision of management of coastal and ocean areas for ecosystem functions 
and human uses through multi-objective planning. The power of the 
original CZMA was its acknowledgement of the need for land-use planning 
that considers multiple objectives and competing needs. This was 
essentially an early expression of the concept that is now discussed as 
Ecosystem-Based Management (EBM). Despite years of discussion and work, 
EBM is still a concept for which we have yet to reach consensus on how 
it should be defined. Nor do we have robust examples of how EBM can be 
implemented. As such, state and local CZM decision-making often focuses 
on individual uses and threats. A renewed commitment to multi-objective 
planning for coastal lands and waters is necessary to ensure future 
decisions better protect coastal and marine environments while 
encouraging appropriate economic activities. Further, incentives should 
be provided to assist states and federal agencies to develop and apply 
more multi-objective planning tools.
Boundaries at the Appropriate Scale
    Another principle embodied in the Ecosystem-Based Management 
concept is that planning should be carried out at a scale that is 
ecosystem-relevant. State CZM programs are primarily focused on 
traditional shoreline uses within the coastal zone, and have devoted 
less of their programs' limited resources to the management of the 
ocean or lake waters within their jurisdiction, or uses in coastal 
watersheds that directly impact the coast. A reauthorized CZMA should 
better enable states to incorporate management of the entire coastal 
ecosystem, including watersheds and marine and lacustrine waters under 
state jurisdiction into their CZM programs. Both the multi-objective 
planning and expansion of traditional coastal zone boundaries to 
reflect their upland and offshore connections should be encouraged 
through strong financial incentives to the states.
Goals and Accountability
    The Nature Conservancy also supports enhancement of CZMA to improve 
accountability and performance. The goals of the current CZMA are not 
clear, hence it has been difficult to assess progress and program 
performance. This has led to a perceived lack of program 
accountability, as well as ambiguity regarding desired program 
outcomes. To increase effectiveness, CZMA needs clear national goals 
and a strong set of performance standards to assess both ecosystem 
health and program implementation. A set of clearly defined national 
goals that can be translated into measurable outcomes at the state and 
regional levels should address: conservation of biodiversity in coastal 
and marine ecosystems; creation and maintenance of resilient habitats 
and communities that can better tolerate the impacts of climate change, 
natural hazards, and coastal development; ecologically sustainable 
economies; and healthy water and air quality. Performance-based 
indicators should also be developed to track progress toward meeting 
the national goals.
Managing for Tomorrow's Challenges
    One of the greatest challenges coastal managers will face in the 
coming years is the impact of climate change on coastal areas--sea 
level rise, lake level decline, habitat shifts, changes to hazard risks 
from altered storm frequency and intensity, among others. Coastal 
communities will need to develop adaptation plans that consider impacts 
on development as well as biodiversity and habitat needs. CZMA, as a 
framework to make multi-objective planning and management decisions, 
weighing both human and ecological concerns, will be an important tool 
as we look to adapt to these changes. CZMA should be amended to 
encourage states and local governments to make coastal communities and 
ecosystems more resilient to the impacts of climate change. New 
approaches could include planning processes that consider impacts 
related to biodiversity and habitat, and efforts to identify mitigation 
measures such as protection, enhancement and restoration of wetland, 
estuarine, and riparian areas. Current land acquisition plans could be 
updated to include strategies to allow for the landward migration of 
vulnerable coastal habitats and identification of opportunities to 
protect or restore ecological functions in newly submerged or emergent 
lands
    In order to develop robust adaptation strategies, additional 
science will be required to inform planning efforts. Science needs 
include baseline data for current coastal ecosystems as well as 
possible scenarios for change and identification of conservation and 
wildlife corridors.
Governance--Integration and Regional Approaches
    The original vision of CZMA includes integrated management across 
multiple levels of government. One of the greatest strengths of the Act 
is the federal-state consistency provisions. The requirement that 
federal actions affecting a state's coastal zone be consistent with 
that state's CZM Program recognizes the states' rights to influence 
decisions affecting their coastal resources. The consistency provisions 
have helped us move toward the goal of integrated management, and have 
provided strong incentives for state participation. These provisions 
should be maintained and strengthened in the future.
    While the federal-state consistency provisions have proven 
invaluable in moving toward more integrated management, we are still 
far from fulfilling the original vision of the Act. Much of current 
coastal planning and CZMA implementation remains narrowly focused and 
fragmented. There is not yet sufficient integration within and among 
local, state, regional and federal levels in either planning or 
implementation. The lack of adequate integration is in part due to 
overlapping jurisdictions and lack of authority within the coastal zone 
as well as the absence of provisions within the current CZMA language 
to link state and local planning and implementation.
    Under CZMA to date, there has also been a paucity of regional 
planning and management. More recently, efforts around the country are 
demonstrating that states with overlapping interests are willing to 
self-organize and develop regional priorities and plans. A reauthorized 
CZMA should support such efforts with authority and funding, but 
carefully avoid creating unnecessary and ineffective layers of 
bureaucracy. Additional management-relevant science will be necessary 
to support both regional approaches as well as better integration 
across levels of government.
Flexibility and Partnership
    Two other powerful concepts from the existing CZMA are flexibility 
for states to develop programs that meet their unique set of 
circumstances, and the partnership approach between federal and state 
entities. Both of these concepts are based on the understanding that, 
while national leadership is valuable, decisions about coastal 
resources are made at the state and local level. In order for 
management to be effective it needs to be designed in a way that 
accounts for local circumstances and priorities. With expanded 
expectations for the range of issues each state should address, it will 
continue to be important for states to have flexibility in designing 
approaches that work. However, the role of the federal government as 
partner needs strengthening. NOAA can provide resources, technical 
assistance, research, and education to help states meet shared national 
and state goals. NOAA can also play a leadership role within the 
federal government by collaborating with and leveraging resources of 
other federal agencies implementing programs and policies in the 
coastal zone. A reauthorized CZMA needs to maintain an appropriate 
balance between state and federal interests and authority in order to 
strengthen this crucial partnership.
Improved Services from NOAA
    NOAA has a number of programs that address coastal issues and 
provide services, technical support, research, and education to the 
coastal management community. A lack of coordination among these 
programs, however, has diluted their impact and possible contribution 
to advancing coastal management. The agency needs to embrace coastal 
management as one of its primary missions and pursue it in a more 
strategic and coordinated fashion. The Conservancy supports enhancing 
existing NOAA coastal programs and improving coordination to support 
implementation of CZM plans for the long-term goal of improved 
conservation of the coastal zone. In addition, the Coastal Services 
Center should be formally authorized as part of any CZMA 
reauthorization.
Increased Funding
    The broad and important objectives of CZMA have long outstripped 
the resources provided to the program. Most states receive little more 
than $2 million of federal support annually to operate their programs. 
Coastal managers simply cannot achieve the current objectives of the 
Act within current resources, let alone take on new programs and 
authorities discussed above. Federal dollars should provide a stable 
base of funding, supplemented by funds that are competitively awarded 
and tied to performance. Specifically, new funding should be available 
to broaden planning efforts to include state marine and lacustrine 
waters and activities in coastal watersheds that are directly impacting 
coastal waters; develop climate change adaptation plans; develop 
multiobjective planning tools and implement demonstration projects; 
design and implement performance measurement systems; and establish and 
implement regional management priorities.
Specific Comments on H.R. 3223, H.R. 5451, H.R. 5452, and H.R. 5453
H.R. 3223, Keep Our Waterfronts Working Act of 2007
    H.R. 3223, the Keep Our Waterfronts Working Act of 2007 would 
establish a new grant program as part of CZMA to provide funding for 
state and local governments to acquire areas or interest in areas to be 
managed and used as working waterfronts. The Conservancy recognizes the 
important services these areas provide, including public access and 
services for commercial and recreational fishing, as well as other 
water dependent industries. A vibrant coastal zone can accommodate 
these water dependent activities, while maintaining ecological 
functions that draw many of these interests to the coasts. The 
Conservancy supports the consideration of potential impacts of projects 
funded through this program on coastal ecosystems. H.R. 3223 currently 
requires this, but additional language could be added to enhance and 
more clearly define this requirement. In addition, The Conservancy 
suggests ensuring that the non-federal matching requirements are 
equivalent to those of the Coastal and Estuarine Land Conservation 
Program (CELCP) so as not to provide incentives that would favor one 
type of project over the other.
H.R. 5451, The Coastal Zone Reauthorization Act of 2008
    H.R. 5451, The Coastal Zone Reauthorization Act of 2008 
reauthorizes funding for existing grant programs under the CZMA. While 
the specified funding amounts represent much needed increases in 
funding, The Conservancy supports a broader reauthorization effort to 
improve the program and provide new tools and incentives for better 
coastal management. Additional funding beyond what is provided in H.R. 
5451 would be needed to implement these program improvements.
H.R. 5452, the Coastal State Renewable Energy Promotion Act of 2008
    The Conservancy supports the intent of H.R. 5452, the Coastal State 
Renewable Energy Promotion Act of 2008. Renewable energy will be an 
important component of our nation's strategy to meet increasing energy 
demands in an environmentally sustainable way. The site-specific nature 
of these projects makes them ideal candidates for spatial planning 
approaches. H.R. 5452 encourages the identification of sites that are 
appropriate places for these projects, as well as those areas that are 
unsuitable. The CZMA program, with its focus on multi-objective 
planning mechanisms within the coastal zone, and its state-federal 
partnership mechanism, is an ideal program to implement this effort.
    While the direction to identify areas unsuitable for renewable 
energy projects inherently includes consideration of other values and 
uses for marine waters, The Conservancy would support legislation that 
allows for a broader planning effort to identify suitable and 
unsuitable areas for a range of uses. In addition to renewable energy 
projects, aquaculture facilities, sensitive habitat areas, and other 
site specific marine uses could be included in these surveys.
    It will also be important to link these spatial plans for marine 
areas to spatial planning on the shore. For example, in choosing where 
a renewable energy project might be sited, managers should also 
consider the implications for shore side development in that area. In 
addition, the impacts of future development to coastal water quality 
may need to be evaluated in siting near-shore aquaculture operations. 
Finally, we suggest expanding the agencies specifically authorized in 
section 2(l) to provide technical assistance to coastal states in 
implementing this Act. The Department of the Interior's Mineral 
Management Service will be an important partner in these efforts.
H.R. 5453, the Coastal State Climate Change Planning Act of 2008
    As stated above, The Conservancy sees climate change as one of the 
most significant issues that coastal managers will face in the near 
future. Efforts to plan for adaptation, both for coastal communities 
and coastal resources should commence as soon as possible. H.R. 5453, 
the Coastal State Climate Change Planning Act of 2008 would provide 
funding and assistance for states to start taking on this challenge. 
The multi-objective focus of the CZMA and the historical focus on 
addressing both human and ecological needs make it the ideal program to 
address these issues. However, we are concerned that the elements 
listed in new Section 320(c)(2), as currently written, may be too 
narrowly focused for consideration of the full range of climate change 
impacts to coastal communities. As such, these plans may not take full 
advantage of the broad scope covered by the community and land-use 
planning tools of the CZMA.
    Beyond specific authority for climate change adaptation plans, 
additional aspects of CZMA may need to be adjusted to fully address 
climate change, including increased and better coordinated science and 
technical support from NOAA to assist states in developing these plans, 
and authority and funding for regional strategies and approaches. 
Finally, we are also concerned the Section 320 (d) that requires the 
Secretary to publish program requirements only after a state plan has 
been approved may place that state at a disadvantage in meeting those 
requirements and successfully participating in the program.
    Thank you for the opportunity to present The Nature Conservancy's 
views on reauthorization and amendment of the Coastal Zone Management 
Act. We would be pleased to provide the Subcommittee with additional 
information. Please do not hesitate to contact me or Emily Woglom, 
Senior Policy Advisor, at (703) 841-5374, if you have any questions.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground and in-the-water conservation work 
is carried out in all 50 states and in 27 foreign countries and is 
supported by approximately one million individual members. We have 
helped conserve nearly 15 million acres of land in the United States 
and Canada and more than 102 million acres with local partner 
organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses to 
address sustained human wellbeing.
                                 ______
                                 
    [A letter to Congressman James E. Clyburn submitted for the 
record by The Honorable Burley L. Lyons, Mayor, Town of Edisto 
Beach, South Carolina, follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [A letter submitted for the record by Bruce J. Stedman, 
Executive Director, Marine Fish Conservation Network, follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
